<html>
<title> - WATER QUALITY IN LAKE ERIE</title>
<body><pre>[Senate Hearing 107-1008]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1008

                       WATER QUALITY IN LAKE ERIE

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

  ANOXIA IN THE CENTRAL BASIN OF LAKE ERIE, AND THE IMPACT OF ``DEAD 
            ZONES'' ON THE ECOLOGY OF THE GREAT LAKES REGION

                               __________

                     AUGUST 5, 2002--CLEVELAND, OH

                               __________


  Printed for the use of the Committee on Environment and Public Works


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
83-720                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      one hundred seventh congress
                             second session
                  JAMES M. JEFFORDS, Vermont, Chairman
MAX BAUCUS, Montana                  BOB SMITH, New Hampshire
HARRY REID, Nevada                   JOHN W. WARNER, Virginia
BOB GRAHAM, Florida                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     CHRISTOPHER S. BOND, Missouri
BARBARA BOXER, California            GEORGE V. VOINOVICH, Ohio
RON WYDEN, Oregon                    MICHAEL D. CRAPO, Idaho
THOMAS R. CARPER, Delaware           LINCOLN CHAFEE, Rhode Island
HILLARY RODHAM CLINTON, New York     ARLEN SPECTER, Pennsylvania
JON S. CORZINE, New Jersey           PETE V. DOMENICI, New Mexico

                 Ken Connolly, Majority Staff Director
                 Dave Conover, Minority Staff Director

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

                     AUGUST 5, 2002--CLEVELAND, OH
                           OPENING STATEMENT

Voinovich, Hon. George V., U.S. Senator from the State of Ohio...     1

                               WITNESSES

Culver, David A., professor, Department of Evolution, Ecology, 
  and Organismal Biology, the Ohio State University, Columbus, OH    15
    Prepared statement...........................................    72
    Responses to additional questions from Senator Voinovich.....    74
Heath, Robert T., professor and director of the Water Resources 
  Research Institute, Department of Biological Sciences, Kent 
  State University, Kent, OH.....................................    17
    Prepared statement...........................................    76
Isbell, Gary L., Executive Administrator, Fisheries Management 
  and Research, Ohio Division of Wildlife, Ohio Department of 
  Natural Resources, Columbus, OH................................     8
    Prepared statement...........................................    70
    Responses to additional questions from Senator Voinovich.....    71
Marsh, Elaine, board member, Great Lakes United, Buffalo, NY.....    18
    Prepared statement...........................................    81
    Responses to additional questions from Senator Voinovich.....    82
Matisoff, Gerald, professor and chair, Department of Geological 
  Sciences, Case Western Reserve University, Cleveland, OH.......    20
    Prepared statement...........................................    84
Reutter, Jeffrey M., director, Ohio Sea Grant College Program, 
  Franz Theodore Stone Laboratory, Center for Lake Erie Area 
  Research, Great Lakes Aquatic Ecosystem Research Consortium, 
  Columbus, OH...................................................    22
    Prepared statement...........................................    89
    Responses to additional questions from Senator Voinovich.....    92
Ullrich, David A., Deputy Regional Administrator, Region 5, 
  Environmental Protection Agency, Chicago, IL...................     5
    Prepared statement...........................................    34
    Report, Great Lakes Strategy 2002............................ 40-70
    Responses to additional questions from Senator Voinovich.....    37

                                 (iii)

  

 
                       WATER QUALITY IN LAKE ERIE

                              ----------                              


                         MONDAY, AUGUST 5, 2002

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                   Cleveland, Ohio.
    The committee met, pursuant to notice, at 10:30 a.m. at the 
U.S. Coast Guard Moorings Club, 1055 East Ninth Street, 
Cleveland, Ohio, Hon. George V. Voinovich presiding.
    Present: Senator Voinovich.

  OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, U.S. SENATOR 
                     FROM THE STATE OF OHIO

    Senator Voinovich. Good morning. The meeting will please 
come to order.
    First, and foremost, I'd like to thank all of you for 
taking time out of your busy schedules to participate in 
today's field hearing of the Senate Environment and Public 
Works Committee, to better understand recent changes in Lake 
Erie's ecosystem, particularly, the central basin.
    Second, I'd like to thank Chairman Jim Jeffords for calling 
this hearing at my request. I'd like to thank Senator Jeffords' 
staff member, Catharine Ransom, who is with us today, and, of 
course, my member of my staff, Karen Bachman, for their 
cooperation and hard work in putting this hearing together this 
morning.
    Looking at the witness list, I think we we're going to have 
a very informative discussion.
    On Panel One, I'd like to welcome Dave Ullrich, Deputy 
Regional Administrator for Region 5 of the U.S. Environmental 
Protection Agency; and Gary Isbell of the Ohio Department of 
Natural Resources, Division of Wildlife.
    Gary and I have known each other for years--when you were 
just starting out in the department--he had a little more hair 
on his head and I had a lot fewer gray hairs. We were up at 
that wonderful hatchery that the State of Ohio purchased in 
Castalia.
    Gary, I want you to know at one time I said at a meeting of 
the Trout Clubs of Ohio that before I died, I wanted to catch a 
steelhead on a fly in Ohio waters. I'm ready to go to heaven, 
because we've done wonderful things. That program has really 
made a big difference. I think that hatchery has something to 
do with it.
    On Panel Two, I'd like to welcome Dr. Dave Culver of Ohio 
State University; Dr. Bob Heath of Kent State University; 
Elaine Marsh, Lake Erie Board Member of Great Lakes United; and 
Gerald Matisoff of Case Western Reserve University; and then 
Dr. Jeff Reutter of the Ohio Sea Grant Program. Jeff and I have 
known each other quite some time. I visited him up at Stone Lab 
on many occasions over the years.
    I look forward to hearing your testimony and learning more 
about the current status of Ohio's Great Lake.
    I'd like to take a little bit of time, some of you might be 
interested in hearing this, some might not. I just want you to 
know that I've had a love affair with the Great Lakes all of my 
life in terms of my public service. One of the greatest sources 
of comfort and satisfaction has been my work to help clean up 
and protect the environment, particularly Lake Erie.
    Lake Erie's ecology has come a long way since I was in the 
State legislature. I was commenting to some of the members of 
the media that when I ran for the State legislature, the 
northern district of my boundary was Lake Erie, and I made it 
an issue in the campaign. It was a dying lake. It was suffering 
from eutrophication. We had the BBC in here, it was a cause all 
over the world. This great fresh water lake was in such 
terrible shape.
    So as a State legislature, we made a commitment to try to 
stop the deterioration, and what I'd like to refer to as wage 
the ``Second Battle of Lake Erie'' to reclaim and restore, to 
the best of our ability, Ohio's Great Lake. We continued that 
fight throughout my career in the legislature, Commissioner, 
Mayor, Governor, and now Senator.
    Seeing the effects of pollution on Lake Erie and the 
surrounding region, I knew firsthand in 1966 that something had 
to be done immediately, or it would be too late.
    I recall a neighbor of ours warning us not to swim in Lake 
Erie because of the problems, to get shots, go to a doctor 
before going into Lake Erie. We might get some disease from 
swimming in the lake. That's how bad it was.
    Today, we celebrate Lake Erie's improved water quality. 
It's been a long struggle to win the ``Second Battle of Lake 
Erie.'' I think it's really important that we understand the 
battle continues today. It's almost like the battle against 
terrorism in the world. It's never going to end, because the 
threats are always there. We think we got things taken care of 
in Lake Erie, and all of a sudden new threats come on the scene 
that we've got to deal with. So it's something that's going to 
require vigilance. We never can take the water quality or the 
lake for granted.
    I was glad to see the chart downstairs of the amount of 
reduction in phosphates going into the lake from municipal 
waste. My first resolution in the legislature was a $360 
million dollar bond issue to help the State of Ohio help 
municipalities clean up municipal waste. Of course, we saw the 
great progress made in this area with the 75/25 program by the 
Federal Government. I can assure you, that if the Federal 
Government hadn't come through with 75 percent of that money, 
we wouldn't see the progress that we have seen in terms of 
reduction of phosphates into the lake or the improvement of our 
waste treatment facilities.
    Of course, during that same period of time we had the 
problem of the threat of drilling for gas and oil, exploratory 
drilling, in the bed of Lake Erie. I'll never forget calling 
the Speaker of the House, Charles Curfos, in fact, going in to 
see him. We formed, almost overnight, the four-State 
legislative committee on Lake Erie. Within 2 weeks we got 
resolutions passed for four State legislatures of not to go 
forward with the exploratory drilling of that lake.
    I've got to tell you something, the Governors were really 
excited. They were getting boats and helicopters, they were 
going to do the whole thing. It was a new venture for them.
    Then I was very much involved with the Seven-State 
Legislative Committee on the environment where we all, on the 
legislative side, put together the EPA for our respective 
States. I was the ``House Father'' of our EPA and worked with 
the Department of Natural Resources, Sam Speck was also with me 
on that committee.
    Then the environment wasn't getting enough attention, so we 
created a House Environment Committee. I became vice-chairman 
of that committee. Then I became County Commissioner, and one 
of the things we needed to face was the Department of Energy 
wanted to use the salt mines out here to store radioactive--the 
waste from nuclear power plants. We fought that off.
    Then, also as Mayor, we sponsored that first big 
international hearing on zebra mussels. We were really getting 
choked air, because they were clogging the water intakes, and 
we tried to figure out what to do about that. All of the people 
predicting what would happen because of the zebra mussels.
    I'm pleased that Governor Taft now is chairman of the 
Council of Great Lakes Governors. When I was Governor, we 
funded Ohio's share of the funding, $14 million. We have a 
$100-million endowment, the interest from which is used to do 
research work on the Great Lakes. Some of you now benefited 
from some of that research work.
    Then the Lake Erie Commission was kind of like a dead 
horse, so we breathed new life in that, moved it up to Toledo, 
and got Jeb Bush involved in that. We created the Lake Erie 
Protection Fund. We get some money that could help do research 
on issues that impacted the lake.
    Then, of course, the Lake Erie Quality Index, which I 
thought was very important. I'm trying to get that done, 
nationally, for the Great Lakes. We ought to have an index on 
all the Great Lakes, so we have a baseline number, then we know 
where we're going in the future.
    The Governor, I understand, has put together an 
implementation plan, and I'm hoping that in 2003 we'll have 
another one, report in Ohio about how we're doing and what 
progress we're making. We have to continue to monitor 
constantly.
    Then how did I luck out? I got to be on the Environment and 
Public Works Committee. I'll never forget the first day we had 
a hearing, it was hard for me to believe I was on the 
Environment and Public Works Committee which the Federal EPA 
testifies before. In 1971 Bill Ruckleshaus sent me out to 
Cheyenne, Wyoming to talk to Rocky Mountain legislators about 
not giving up their water and air on the altar of economic 
development. That was long ago.
    I had the chance of working on the WRDA bill, the 2000 bill 
was my bill, and also that bill dealt with the largest 
restoration project ever undertaken in the world. That's the 
Everglades. I know some of you want to do the same thing on 
Lake Erie, so we get the same kind of attention, here, as they 
do in the Everglades, and also the Chesapeake Bay area.
    We were able to authorize a $100 million dollars for 
projects to restore the Great Lakes fishery and ecosystem. By 
the way, there's some comments that have come in your reports 
about the Army Corps of Engineers, whether the Army Corps of 
Engineers should be doing this work. The money for this comes 
out of WRDA, and Catharine knows, that one of the testimonies 
suggested we ought to separate the money out for environmental 
restoration and the other for typical Army Corps of Engineers. 
There didn't seem to be that much enthusiasm for that.
    I want to point out is that because the Corps is doing it, 
that does not mean that that money for research isn't going to 
be going out to people, like yourselves, doing research. I want 
to make sure that is the need is taken care. I think that is 
some of the concerns that you have, that the Corps is 
overlooking.
    The other thing that I've been working on since my first 
year, 1999, was the reauthorization of the State Revolving Loan 
Fund for the Clean Water Act Revolving Loan Fund. We are just 
underfunding that miserably. We need to increase that. We're 
just asking for $3 billion more a year for 5 years. The bill 
has been voted out of committee. I have a little problem with 
it because all of the local people in the National Governors' 
Association are opposed to it. Too many mandates are connected 
with it and very little money. But, hopefully, we're going to 
resolve those and be able to bring that bill to the floor this 
year.
    The bottom line is the Federal Government is not spending 
enough money to deal with waste treatment in this country. It 
needs to be given a much greater priority. There's a group 
called WIN that says we're going to have to spend $57 billion 
in the next 5 years to deal with our waste treatment problems, 
and also problems in terms of safe drinking water. Big, big 
problems. They need to be addressed. In addition, we have two 
additional bills that we are co-sponsoring. One is the Great 
Lakes Ecology Protection Fund, which would help prevent the 
introduction of aquatic nuisance species in the Great Lakes by 
regulating vessels that enter the Great Lakes. Then the Great 
Lakes Legacy Act, which would authorize $250 million in grants 
to States to clean up contaminated areas, such as the Maumee, 
the Black River, Ashtabula, and Cuyahoga Rivers.
    You all know that Lake Erie is a great natural asset. It's 
a major supply of drinking water, a recreational resource, a 
fishery, and a source for transportation. It has enormous, 
positive impact on the economy, environment, and the quality of 
life in our State, enormous. I have seen, firsthand, the 
tremendous impact Lake Erie's revival has had not only on the 
ecology of the lake, but also on Ohio's economy.
    If you look back 40 years to the time when the lake was 
dying, and look what it is now, you can appreciate the impact 
that the lake has had on Ohio. We cannot let anything diminish 
or set us back in our efforts to maintain and improve Lake 
Erie's water quality. From the testimony submitted for today's 
hearing, I am very concerned that we may be on the edge of 
sliding back, rather than moving ahead.
    That is why we're here today, to discuss increasingly and 
extensive oxygen depletion, anoxia, in Lake Erie's central 
basin. The existence of this ``dead zone'' phenomenon is deeply 
troubling. You know, anoxia over the long term could result in 
massive fish kills, toxic algae, and bad-tasting or bad-
smelling water.
    In order to better understand this occurrence in Lake Erie 
and determine what, if anything, can or should be done to 
prevent dead zones in the future, we have to conduct extensive 
research.
    I look forward to hearing more about the research being 
conducted in Lake Erie, and its results thus far. I'd also like 
to hear from you today, about your opinion of the adequacy of 
funding to do the research on this phenomenon that we're 
confronted with. I'm pleased that the USEPA has taken this on 
very seriously and that you've got the Lake Guardian out here 
doing the research work and monitoring the progress, if any is 
being made.
    I'd also like to thank Governor Taft. Recently, I wrote to 
him about my concern about dead zones in Lake Erie. Last week, 
I received a very, very informative response describing the 
State's efforts to address this new challenge, which I will 
make part of this hearing record.
    I'm pleased, also, that the Lake Erie Protection Fund has 
provided some billion--not billion, too many days in 
Washington--this million and a half dollars for ten projects 
that directly assess issues related to oxygen depletion. I also 
have requested that a provision be included in WRDA 2002 to 
authorize the Army Corps to study and report on water quality, 
environmental quality problems throughout the waters of Lake 
Erie resulting from the formation of dead zones.
    I notice that Admiral Silva is here today. Admiral, we're 
very happy to have you here. I had a chance to meet the Admiral 
several weeks ago, and with you on board we're looking forward 
to having a wonderful relationship with the Coast Guard.
    And, again, I apologize for the long statement, but I 
thought some of you should get a little perspective about how 
long I've been working on this battle to save Lake Erie, and 
how, after all of this work, I don't want to see us go back at 
all, period. We've got to move forward.
    So we are very, very fortunate to have with us David 
Ullrich, who is the Deputy Regional Administrator of Region 5, 
U.S. Environmental Protection Agency, and Gary.
    I think I'll first call on Dr. Ullrich for his testimony.

 STATEMENT OF DAVID A. ULLRICH, DEPUTY REGIONAL ADMINISTRATOR, 
   REGION 5, U.S. ENVIRONMENTAL PROTECTION AGENCY, CHICAGO, 
                            ILLINOIS

    Mr. Ullrich. Good morning, Senator, and thank you very 
much. I'm very pleased to be here.
    As you mentioned, I'm the Deputy Regional Administrator for 
EPA out of Chicago. I'm here on behalf of Tom Skinner, who is 
our regional administrator and head of our Great Lakes office 
as well. I thank the committee for giving me an opportunity to 
talk about the troubling changes that we are seeing in Lake 
Erie.
    What I hope to do is present a summary of the current 
situation as we see it, and our response to what may be 
occurring in the lake. I will address the committee's questions 
regarding why anoxia, or the low oxygen levels, is occurring, 
particularly, in the central basin of Lake Erie. The effects of 
anoxia on the lake's ecosystem, and solutions to prevent anoxia 
from occurring in the future.
    I will also be submitting, for the record, the Lake Erie 
Lakewide Management Plan, the Lake Erie Supplemental Study on 
Trophic Status, and the Great Lakes Strategy. I will address 
these during my presentation.
    As you mentioned, it was two to three----
    Senator Voinovich. We'll also make them part of the record.
    Mr. Ullrich. Very good, thank you.
    Senator Voinovich. And one of the things I would like to 
explain to our witnesses, if you could keep your testimony to 
within 5 minutes or so, I would be very, very grateful, so we 
can get everybody on. Thank you.
    Mr. Ullrich. I will do my best.
    It was two to three decades ago that the U.S. and Canada 
spent, literally, billions of dollars to upgrade sewage 
treatment plants, ban phosphorus from detergents, and improve 
agricultural nutrient management practices, all of which helped 
bring Lake Erie back from the brink of disaster to what it is 
now, one of the greatest environmental successes today.
    Instead of sitting here on the shores of Lake Erie in 
Cleveland, next to a dead lake, we now see the affects of a 
true environmental renaissance on the Lake Erie shore line. The 
fruits of this economic rebirth have been spurred by the 
cleanup and revitalization of the Cuyahoga River, and the lake 
itself.
    Senator we appreciate all you've done to contribute to 
that. You've given Lake Erie back to its citizens with the 
attendant recreational and economic opportunities, not the 
least of which, is a billion dollar world-class walleye 
fishery.
    To maintain this success, EPA monitors nutrient levels as 
part of our Great Lakes Office Annual Monitoring Program. 
Through this program, we started noticing troubling signs of 
change in Lake Erie in the 1990's. Total phosphorus 
measurements, always considered a good indicator of the health 
of the lake, started to increase after years of decrease. These 
results were supported by Canadian data. Perhaps more telling 
was the return of a very low oxygen level in a large area in 
the central basin of Lake Erie, an area which has been referred 
to as ``the dead zone.''
    The appearance of anoxia in Lake Erie is not a new problem. 
It's something that EPA is quite familiar with, and which we 
have successfully addressed in the past. But there is a new 
twist to the problem this time around.
    Our past experience identified external loadings of 
nutrients, particularly phosphorus, as the main reason for the 
existence of anoxic conditions in the lake. EPA, and others, 
created the models that set targets for reductions of 
phosphorus to alleviate the anoxic condition in the lake. Once 
we reached these targets, the lake responded accordingly. Our 
current data, however, does not indicate any significant 
increases in loading of phosphorus or other nutrients to Lake 
Erie from external sources. So something different seems to be 
taking place.
    One might ask if we should be concerned about these 
changes. My answer to that is an emphatic, yes. We should be 
concerned because there are a number of possible large scale 
and, potentially, very costly impacts which may be due to the 
changes we are observing. These changes could include impacts 
on fish and wildlife, beach closures, impacts on drinking water 
quality, and impacts from exotic species.
    So clearly there are ample reasons to justify our concerns 
regarding the changes in the Lake Erie ecosystem. But why is 
this happening now? What is different about the current 
situation, as compared to the past problems?
    Many scientists suspect the zebra mussels and other exotic 
species are starting to reshape Lake Erie's ecosystem in ways 
which they have not fully fathomed. Others theorize that the 
lake can be suffering from the combined effects of increased 
temperatures and lower lake levels.
    Whatever the reason, I am here today to assure this 
committee, and the public, that EPA is aware of the recurrence 
of this problem, that we are already taking steps to address 
many of the concerns raised in this hearing. I will elaborate 
on two of these steps. First, in response to our identification 
of rising levels of phosphorus in Lake Erie, the Great Lakes 
office is undertaking, with many others, a $2 million dollar 
Lake Erie Supplemental Study of the Trophic Status. You'll be 
hearing more about that, and we have a number of prominent 
scientists, including once from Ohio University, the Ohio State 
University, and Case Western Reserve University, among others.
    I strongly feel that this study will help us identify, if 
not answer, many of the questions that the committee has 
raised, and will help guide our solutions.
    The second major step being taken is what we refer to as 
the Lakewide Management Plan for Lake Erie, which looks at a 
wide range of things that need to be addressed, including this 
problem. It involves many state organizations of the U.S. and 
Canada, and we'll be working together on implementing those 
solutions for the problems, and particularly the ones we 
identify in connection with the increased phosphorus levels.
    These two things together, the study and the Lakewide 
Management Plan, plus a recently developed Great Lakes 
Strategy, which covers the broader five Great Lakes area and 
developed by the U.S. side, are things that will work together, 
again, to help identify the problems, the causes of the 
problems, and implement the solutions.
    With this study in place it will help us understand and 
develop these solutions that we need to develop. We need to 
have a full understanding of the relationship between the 
external phosphorus inputs and the anoxia problem. There is no 
indication, at this time, that the loadings have increased, but 
I might add, that that needs further investigation.
    A likely part of any long-term solution to the anoxia 
problem is made to aggressively address and to limit the 
introduction of exotic species into the Great Lakes. If zebra 
mussels are identified as the root cause of the anoxic 
conditions in Lake Erie, we will need actions above and beyond 
what the scope of EPA can do to address this problem and 
prevent future introductions that could cause even more severe 
problems in the Great Lakes.
    You may be aware of the Asian Big Head Carp that is now 
threatening the lakes. This is a voracious bottom feeder that 
would further complicate the situation, and adversely effect 
the ecosystem. In conclusion, I want to reiterate that what is 
happening in Lake Erie is not new, but its root causes may be. 
We are aware of this problem, and we have mobilized the 
resources and expertise to help us determine what actions need 
to be taken to address this troubling situation. Again, I thank 
the committee, and you, Senator, personally, for giving us an 
opportunity to speak. I will do my best to answer any questions 
that may be presented later.
    Thank you.
    Senator Voinovich. Thank you.
    Gary?

STATEMENT OF GARY L. ISBELL, EXECUTIVE ADMINISTRATOR, FISHERIES 
   MANAGEMENT AND RESEARCH, OHIO DIVISION OF WILDLIFE, OHIO 
        DEPARTMENT OF NATURAL RESOURCES, COLUMBUS, OHIO

    Mr. Isbell. Thank you for taking such an interest in the 
issue, and on behalf of Director Speck and those in the State 
of Ohio, I want to express appreciation for the committee's 
willingness to seek input on this serious issue.
    One of the things that I want to point out, it was my hope 
that in our examination of this issue that people don't 
erroneously conclude that the lake is dead or that fishing out 
here is less than pretty spectacular. I know that. You know 
that, and I want to make sure that, from a fishery management 
standpoint, that people understand that the lake is still a 
very viable resource.
    Senator Voinovich. Gary, I'm glad you brought that up. One 
of the reasons why I want to have this hearing is to clear the 
air on that. We have writers here that cover outdoors, and I 
want to make it clear that that's the case. So often what 
happens is that people say the lake is dead, and before you 
know it everybody gets down on it, and the psychology just goes 
in the other direction.
    Mr. Isbell. Thank you.
    While many of the rampant problems of the 1960's and all 
the images of the burning Cuyahoga River are gone, there are 
some new challenges, as the first witness has talked about.
    The problem that the anoxic zone in Lake Erie is not that 
it exists, but it's size, frequency, and duration are changing. 
The anoxic zone is a naturally occurring phenomenon, but can be 
a serious detriment to the ecosystem if it gets too large, 
thereby limiting the potential of the lake to produce the 
benefits we really enjoy.
    The real problem about the anoxic zone is just when we 
thought we had it figured out and managed, it's behaving in 
ways that we don't fully understand. We are unsettled by the 
observation that the reduction in nutrient loading, brought 
about by pollution controls over the last 0 years, appear to be 
trumped by something mysterious. A leading hypothesis is that 
zebra mussels are at the heart of the mystery, perhaps 
recycling nutrients that contribute to the development of a 
larger anoxic zone. A couple comments I want to make about what 
should be done. First, we must be aware that there may not be a 
reasonable cure or fix to this current problem. However, we 
think that the collaborative study sponsored by the USEPA is a 
step in the right direction. Levels of nutrients in the lake 
and their effects on microorganisms were monitored fairly 
comprehensively in the past, through a similar USEPA sponsored 
study.
    However, recent monitoring has not been funded sufficiently 
to help us detect problems or to devise solutions. As a result, 
comprehensive phosphorus monitoring, for example, was 
discontinued in 1994 for a brief time. While sampling was 
resumed in 1996, it really hasn't been consistent from year to 
year, and coverage of the lake, in terms of time and space, is 
not sufficient for us to be able to determine cures.
    A stronger and more robust monitoring effort, we think, is 
justified and fundamental to the development of sound 
management strategies for the lake. This is an effort that is 
appropriate for Federal funding and leadership. We must have a 
solid, long-term data about the basic features of the lake in 
order to detect problems and prescribe solutions.
    Second, this mystery about the anoxic zone is yet, I think, 
another wake-up call about the seriousness of invasions of 
aquatic nuisance species, and you know I've been involved in 
that whole issue for a long time in the department. Each new 
invader brings with it a random box of mostly negative effects. 
Some of the effects are not so subtle, such as predator-prey 
interactions of sea lamprey that devastated fisheries in the 
last century.
    Sea lamprey control in the Great Lakes, we think, is a 
success story, thanks to the congressional support of the Great 
Lakes Fishery Commission and those sea lamprey control 
measures. Although difficult, these types of effects, those 
predator-prey effects are much easier to control and to model 
than the ultimate effects of nutrient recycling on, perhaps, 
yellow perch off of Cleveland here.
    It's been 12 years since the passage of the first 
comprehensive Federal law regarding aquatic nuisance species. 
Even so, each year there is still more alien species that find 
their way to the Great Lakes. This is biological pollution that 
has the potential to permanently devastate many of the lakes' 
beneficial uses. A legacy we should strive to leave is a solid 
Federal policy that shuts the door to future invasions of the 
Great Lakes.
    Anoxic zone mystery is just another part of a larger, 
complicated set of issues. It's encouraging to us, at the State 
level, to see Congress taking an interest and being willing to 
act. We urge you to do so, quickly, by funding more 
comprehensive monitoring with the lake. Lake Erie, given its 
hydrology, can change very quickly. Quick action may avert some 
significant and lasting negative effects.
    Also, we urge you to act with a response that is 
appropriately scaled to the size of the problem. This is a huge 
resource; therefore, investigations and solutions will not be 
cheap. Water quality programs, lamprey control measures, 
electric fish barriers, ballast water management systems may be 
very expensive. However, the billions of dollars of resource 
values that are generated in the Great Lakes are worth it.
    Finally, we urge you to act comprehensively. The anoxic 
zone problem is not an isolated issue within the Great Lakes 
ecosystem. It is critical for the development of long-range 
solutions to address the influx of invasive species into our 
waters as well. Therefore, I would encourage Congress to 
support a re-authorization of the National Invasive Species 
Act, and work collaboratively in strengthening and monitoring 
the survey efforts necessary. With proper funding, numerous 
State and Federal and private entities should be utilized to 
partner in the effort to conserve and protect this resource.
    Thanks again for the opportunity to provide input to the 
Committee on Environment and Public Works. Please feel free to 
call upon the State agencies for additional information or 
review of strategies that may evolve from your initiatives. 
Thank you.
    Senator Voinovich. Thank you, Gary.
    Thank you both for your testimony.
    Mr. Ullrich, how much coordination goes on between the Army 
Corps of Engineers and the EPA on this specific problem?
    Mr. Ullrich. On this particular problem, we're really just 
beginning to work with the Corps of Engineers on this. We have 
an office in Chicago that focuses on activities there. It would 
be out of our Cincinnati office that has responsibility for the 
Great Lakes and Ohio River.
    I think we're really, still, in the early stages on this 
particular issue. We've worked on lake level issues and 
contamination sediments very extensively, so we've got this 
network of working relationships there, but we're very much in 
the early stages on this specific issue. But I think we've got 
an effective working relationship that should form the basis of 
a good partnership on this effort.
    Senator Voinovich. Do you think it needs a little bit of 
encouragement?
    The reason, I keep observing, in a lot of Federal agencies 
where they have relationships with each other so often--you say 
the same thing on war on terrorism, at home agencies talking to 
each other. We don't seem to have enough of that going on.
    What I might do is get hold of General Flowers and ask if 
he can talk to Administrator Whitman and see if we can get a 
memorandum put together that focuses all the resources that 
concentrate on this problem, so the left hand knows what the 
right hand is doing.
    Mr. Ullrich. That is always helpful, Senator. We recently 
signed a memorandum agreement on contaminated sediments in 
urban rivers, which could help the Cuyahoga, among others, but 
that kind of thing is always helpful. Again, it deals with 
people working with one another to try to break through the 
institutional barriers that are there. I have certainly found 
in the past that letters, like you suggest, can be very 
beneficial.
    Senator Voinovich. The other thing that would be very 
helpful to me, is to get a summary of all of the funding 
sources, right now, that are going to this issue, and identify 
what they are and the prospect of looking at additional money 
for this kind of work.
    For example, the Great Lakes Protection Fund has provided a 
million and a half dollars. That's basically dealing with what 
the phosphorus levels are, looking at this problem.
    Has any of that money gone into dealing with the invasive 
species?
    Mr. Ullrich. There are separate funding from the Great 
Lakes Protection Fund, and also from our Great Lakes office, 
particularly this new electric barrier that's put in the 
sanitarian chip canal in Illinois to keep the big head carp out 
of that. But, yes, there has been funding that has been used.
    Senator Voinovich. Do you want to tell me about that? All I 
know about it is somebody called me and said that there's a 
problem with this Asian carp, talking about electric barriers.
    Where is it at, and how do the barriers work?
    Mr. Ullrich. Well, it's just southwest of Chicago, I think 
the closest smaller town there is Lamont.
    It's basically a wire stretched across the Illinois 
Sanitarian Chip Canal that is basically the connection between 
the Great Lakes and the Mississippi River watershed through the 
Illinois River. In April, under the Corps of Engineer's 
leadership and Fish & Wildlife Service, USEPA and many others 
were involved, it's basically an electric current that is put 
through that portion of the river, or the Sanitarian Chip 
Canal, and it's basically designed to keep all of the fish 
species on the Lake Michigan side on that side, and on the 
Illinois River side on the other side.
    Senator Voinovich. So it's an electronic wall that's aimed 
at all species?
    Mr. Ullrich. All species, correct.
    Senator Voinovich. You want to keep the river species out 
of the lake?
    Mr. Ullrich. Correct.
    Senator Voinovich. And vice versa? Actually, it's flowing 
in.
    Mr. Ullrich. Right. The early indications are that it looks 
like it's effective. I think there are some concerns about it's 
long-term viability, but something needed to be done 
immediately, because these big head carp, and there are other 
varieties as well, have been slowly working their way up the 
Mississippi and then the Illinois River.
    Once they get into the Great Lakes, as much as we 
experience with both sea lampreys and zebra mussels, it's 
extraordinarily difficult to control it at that point, so 
keeping it out of the system, is really where a priority has to 
be put. So we are optimistic about this, but it's something 
that has to be watched very carefully.
    Senator Voinovich. One of the things that many of us are 
concerned about is the zebra mussels, and now there's another 
mussel related to it.
    Mr. Ullrich. Quagga mussel.
    Senator Voinovich. Yes, the quagga.
    We talked about this a long time, there isn't any predator 
for them, I guess. We've done some studies on that.
    Is there any way that we can get rid of the zebra mussels 
as we did with the lamprey?
    Mr. Ullrich. My understanding is that we haven't been very 
successful with that as of yet. Gary is probably more familiar 
with some of the work that's been done. I guess the round 
gobies do eat some of them.
    Mr. Isbell. We find zebra mussels and quagga mussels in the 
stomach of a lot of the fish in Lake Erie, even yellow perch, 
which is quite surprising, but not to the extent that they 
would really control their abundance in great numbers yet.
    As far as physically removing them, other than in the water 
intakes and so forth, there doesn't seem to be any control 
measures there.
    Senator Voinovich. There's nothing that anyone has come up 
with, either chemical or predator or anything of that sort, 
that would start?
    Mr. Isbell. To reduce their abundance, in general, in the 
lake, no. To reduce their abundance, maybe locally, I think 
gobies may, indeed, have effects on them. There are some 
control measures we're using, for instance, in our hatcheries 
and so forth, to make sure they're not spreading out, but not 
in a general sense out in the lake.
    Senator Voinovich. Well, what worries me is that if the 
research were completed and that's the problem, what do you do 
about it?
    Mr. Isbell. That's why I mentioned in my text that it may, 
indeed, be something that we're aware of and if it effects 
things out there, there may not be much we can do, other than 
control the loading phosphorus, things that we do have control 
over.
    Senator Voinovich. I would be interested in your 
recommendations, yours and anybody else here, in terms of the 
Invasive Species Act we talked about, re-authorization of that.
    Also, you're--getting back to what I said earlier about 
funding in terms of its adequacy.
    Mr. Isbell. Let me talk about aquatic nuisance species. 
First, Dave mentioned the Sanitarian Chip Canal issue and the 
electric barrier issue, that is, indeed, one of the focal 
points of aquatic nuisance species, both leaving the Great 
Lakes and affecting the Mississippi drainage, as well as 
Mississippi aquatic nuisance species, such as the Asian Carp 
finding their ways into the Great Lakes.
    That's an issue that is yet unresolved. The electric 
barrier, as David talked about, is a first measure. It was 
originally designed with gobies in mind, trying to keep gobies 
from coming to the Mississippi. But, obviously, it has a much 
broader use.
    The other point, as you're well aware, is that everything 
that comes into the Great Lakes via ballast water, comes up the 
St. Lawrence, pretty much. We have that issue to deal with, 
ballast water. I think the National Invasive Species Act is an 
excellent instrument to address additional ballast water 
research, ballast water management systems, regulations and so 
forth, which has probably slowed the parade of aquatic nuisance 
species to the Great Lakes. Nowhere to the point where we feel 
comfortable about it.
    Again, if we don't have the sort of constant monitoring out 
here, what's going on in these lower levels, such as the 
nutrient levels and microorganism levels, by the time you and I 
see a difference in our walleye and perch fishing, it's too 
late.
    Senator Voinovich. Right.
    Mr. Isbell. That's what worries me.
    Senator Voinovich. One of the things that you mentioned, 
also, was the issue of how valuable Lake Erie is to this 
region, and to the country. I suspect that the Department of 
Natural Resources, or someone, has captured the economic impact 
of our Great Lake.
    Mr. Isbell. Yes.
    Senator Voinovich. It would be very important to me if we 
get that information in one place, because if we're going to be 
arguing, as you can well imagine, there is competing needs in 
Washington. Everybody has got their own pet project, as I 
mentioned the Everglades, the money we're spending there and 
other places, and we need as much information as possible to 
say, look, this is a real problem, something needs to be done 
with it, and this is the impact that it has on the State and on 
the region. So that I've got some ammunition there to justify 
the expenditure of more money. I'm sure that's someplace.
    Mr. Isbell. Senator, if I know Jeff Reutter at all, he'll 
probably give you some numbers before we leave.
    Senator Voinovich. His eyes are gleaming there.
    Mr. Ullrich. We do have data on that as well, Senator. I 
think the sport fishery, alone, on Lake Erie is estimated at 
well over a billion dollars.
    Going back to your question on the invasive species, my 
concern is that it isn't being recognized for the magnitude of 
the problem that it is, and just getting some more visibility 
to it.
    Invasive species are causing billions of dollars in this 
country to deal with. In the Great Lakes, alone, we're seeing 
about one new species a year introduced. The area that we're 
most concerned about, in the work that we've done, are these no 
ballast on board ships that aren't required to do the ballast 
water exchange out beyond the exclusive economic zone of 00 
miles, but come in with no ballast on board, but have some live 
predators still in the ballast tanks. As water is exchanged, 
while it's going through the Great Lakes, we feel that that is 
the primary source of the new introduction of species.
    We work very closely with the Coast Guard and Fish and 
Wildlife Service, both on the U.S. and Canadian side, to really 
pinpoint this. The real problem, right now, is effective 
treatment of the ballast water, and finding a way to deal with 
that is really where research is needed. EPA is doing some of 
that research, but much more is necessary.
    So that's really--there are other vectors, but that no 
ballast on board situation is the one we're most concerned 
about and we're working closely with the Coast Guard.
    Senator Voinovich. The Coast Guard is in charge of 
enforcement?
    Mr. Ullrich. Yes.
    Senator Voinovich. But, again, you also need the 
cooperation of the countries that are bringing this stuff in?
    Mr. Ullrich. Yes, we do. But, again, the primary 
cooperation has to be with Canada, so we have a uniform set of 
standards that would be applied. A lot of work is being done 
with the International Maritime Organization. Again, trying to 
get an agreement across the entire globe on these things is 
very difficult. Because of the sensitivity of the Great Lakes, 
it's particularly important that we get these controls on 
because it may be creating situations like----
    Senator Voinovich. Again, if you've got some more on that, 
I'd like to zero in on that.
    One of the frustrating things I've had over the years, is 
all the organizations that deal with the Great Lakes and trying 
to keep track of them. It's just amazing. As you well know, 
once an organization is created it's very difficult to get rid 
of it.
    I have one other question for you, Mr. Ullrich, and that 
is, in your testimony you briefly discussed the occurrence of 
type E botulism and avian botulism in Lake Erie in recent 
years.
    What are type E botulism, avian botulism? How are they 
affecting the ecosystem? And why are they occurring, and what 
are we doing to stop it? And do these exotic species have any 
play in increased occurrence of this?
    Mr. Ullrich. What we're dealing with with this botulism is 
a bacteria that is particularly threatening to the avian 
community, the birds and the water fowl and the gulls. Again, 
this is something that does require more research, but there is 
a feeling that there may be some connection with the phosphorus 
and the zebra mussels. I'm going to leave this to the 
scientists ultimately to determine this.
    But it's felt with the buildup of decaying matter on the 
bottom of the lake, and this being picked up through this zebra 
mussels, perhaps, and through the round gobies, what has been 
found, particularly, with some of the cormorants and loons that 
have died, and the red-breasted mergansers as well, that there 
have been some of these round gobies found in their guts where 
the botulism may well have come from that have killed these 
birds.
    So, again, and maybe Gary has some more information on 
this, but it's felt that there may be a link between these. The 
die offs have increased recently, and it is an area of great 
concern, so there is a feeling that that link may exist. Again, 
it goes right back to the phosphorus zebra round gobie problem, 
which are the invasive species. At a minimum, we've got to keep 
new ones from getting in, and figure out, better, how to deal 
with the ones we have.
    Senator Voinovich. Gary?
    Mr. Isbell. I think he's got it covered from that 
standpoint. Just to let you know that, geographically, it seems 
as though the problem has been east of here. We're not sticking 
our heads in the sand, we're out there sampling fish and 
following up on calls from anglers and so forth, and looking 
when there is dead fish and sending fish for testing.
    We have not experienced serious botulism problems down this 
way, but since we don't know why exactly it's being caused, 
we're trying to look and see if it's going to occur. It has 
been quite serious for the recent year in Pennsylvania waters 
and New York waters, and so forth. Those folks are very, very 
concerned about it.
    Senator Voinovich. Again, it's one of those mysteries?
    Mr. Isbell. It's a mystery. Like he said, there is some 
exotic species in the western basin, and with sheepshead, we 
saw lots and lots of sheepshead, and we collected some samples 
and sent those in, but it wasn't due to anything in the 
environment, like low oxygen or decaying materials or anything 
like that, so we are going to have to sort out what naturally 
occurs each year versus some of the systematic effects. We 
don't know that about botulism yet.
    Senator Voinovich. You think possibly gobies might be----
    Mr. Culver. It has been true that down east from here when 
they open up animals that have died from botulism, they do find 
gobies in there. Whether that's cause and effect or just an 
association, has yet to be determined.
    Senator Voinovich. Reminds me of the Everglades. There is 
one problem, there's another one, we clean it up, but they have 
some come exotic species that have invaded that, and unless 
they get those under control, they're in big trouble.
    Senator Voinovich. Thank you very much. I appreciate you 
being here and we'll look forward to hearing on some of those 
things I asked about.
    Mr. Ullrich. Thank you, Senator.
    Mr. Isbell. Thank you, Senator.
    Senator Voinovich. Our next panel is Dave A. Culver, Ph.D., 
Department of Evolution, Ecology, and Organismal Biology, Ohio 
State University. Robert T. Heath, Ph.D., professor and 
director of the Water Resources Research Institute, Department 
of Biological Sciences, Kent State University. Elaine Marsh, 
who is a board member of the Great Lakes United, Buffalo, New 
York. And Great Lakes United, I've worked with them over the 
years. Gerald Matisoff, Ph.D., professor and chairman 
Department of Geological Sciences, Case Western Reserve 
University. And Jeff Reutter, director of the Ohio Sea Grant 
College Program, F.T. Stone Laboratory, Center for Lake Erie 
Research, Great Lakes Aquatic Ecosystem Research Consortium in 
Columbus, Ohio.
    Thank you very, very much for being here today. And I think 
we'll start off with Dr. Culver.

    STATEMENT OF DAVID A. CULVER, PROFESSOR, DEPARTMENT OF 
  EVOLUTION, ECOLOGY, AND ORGANISMAL BIOLOGY, THE OHIO STATE 
                   UNIVERSITY, COLUMBUS, OHIO

    Mr. Culver. Thank you very much. I come here representing a 
very large group of researchers who are involved in the LaMP, 
involved in the EPA Supplemental Sampling Trophic Studies 
Project, Lake Erie Index Program, and many, many others 
activities.
    What I would like to do is--actually, what I would like to 
do is present some information that shows some of the results 
of what we found. Probably, what I'll do very first thing is 
restore that overhead.
    What I would like to show is the fact that as it's been 
discussed, the removal of phosphorus from Lake Erie in the 
1970's and 1980's have been very effective in decreasing the 
amounts of algae. We have the western, central, and eastern 
basins represented on this graph. And you can see that although 
we have different groups of researchers and different methods 
and so forth, the general trend is down. Here is where my data 
comes up, starting from LaMP sampling, and these have been done 
by the Ohio Division of Wildlife, and the Canada Center for 
Inland Waters.
    Senator Voinovich. What year is that again?
    Mr. Culver. 1995 was the first samples that we had.
    Senator Voinovich. OK.
    Mr. Culver. And you can see we had 3 years there where we 
had fairly consistent low values of algae. And then, starting 
in 1998, we see one very high point from the western basin when 
we had a microcystis and toxic algobloom go on, I have not 
included that point in regression, but you can see the western 
basin has been getting back up to 1980's kinds of values. The 
central basin has also increased, and I don't have data yet on 
recent years for the eastern basin.
    But this data, right here, are consistent with the EPA's 
phosphorus data, which suggests that starting about the same 
time, total phosphorus was going up. As we all observed before, 
when total phosphorus goes up, the algae responds to that and 
the increase in algae is going to be responsible for a faster 
consumption of oxygen in the deep water of Lake Erie. So 
there's the problem right there, and the fact that you can 
measure it with oxygen or you an measure it with algae, either 
one, clearly indicates we are seeing some changes that are 
regressive, they're going back toward higher algo 
concentrations like we had in the past.
    I support what Gary Isbell said, it's absolutely just a 
gorgeous lake out there. We were just out there 2 weeks ago on 
the Lake Guardian, and it's just spectacular. But these datas 
clearly suggest that we're going in the wrong direction.
    The other couple points that I want to make about this is 
that we have been measuring, in conjunction with our work, the 
amounts of phosphorus released by zebra mussels. And we're also 
concerned about the fact that quagga mussels are gradually 
replacing zebra mussels in the lake. In fact, in the eastern 
end of the lake there has always been lots of quagga mussels, 
once they became introduced, in the deepest waters, but they 
have also come into shallow waters now along the hard 
substrates.
    They're out there, and we just sampled again around South 
Bass Island, and there is 10 times as many quagga mussels as 
there are zebra mussels around South Bass Island, so this is a 
huge change. In 1993 there was one quagga mussel for every 100 
zebra mussels. Now there's one zebra mussel for every 10 quagga 
mussels, so that's a big change. We also find that quagga 
mussels, in our preliminary data, tend to release more 
phosphate and ammonia than zebra mussels. So there's one 
possible thing we're following up as part of the trophic study 
as a potential source for the extra phosphorus we're observing. 
But my final point is in terms of solving these problems, we're 
not going to get rid of quaggas. We're not going to get rid of 
zebras. I think what we're going to have to do is to work all 
the harder on combined sewer overflows, reduce discharge by 
agriculture, reduce discharge by cities and industrial 
programs, and that's going to be expensive. Those are the 
things we do have control over in terms of nutrient input into 
the lake, and we're getting extra from zebra mussels or what 
other source, the few things we do have control over require 
additional help.
    Thank you.
    Senator Voinovich. Dr. Heath?

  STATEMENT OF ROBERT T. HEATH, PROFESSOR AND DIRECTOR OF THE 
 WATER RESOURCES RESEARCH INSTITUTE, DEPARTMENT OF BIOLOGICAL 
          SCIENCES, KENT STATE UNIVERSITY, KENT, OHIO

    Mr. Heath. Senator, you know how professors are, we can't 
clear our throat unless we have an overhead in our 
presentation.
    Senator Voinovich. We don't have that much in Washington. I 
think we'd be better off if we had more.
    Mr. Heath. I'm going to talk about one particular point 
that we have been examining for the past several years, a point 
that is about half a mile south of the international boundary, 
due north of Huron, and is located at that point there. It is a 
point----
    Senator Voinovich. South----
    Mr. Heath. So it's due north of Huron.
    Senator Voinovich. Where is Kelly's at?
    Mr. Heath. Kelly's is this, and this is Pelee Island
    Senator Voinovich. You know it well.
    Mr. Heath. One of the questions that we've asked is what is 
different this year. And what is, first of all, not different 
is that it becomes anoxic at this particular point. For the 
past several years, and years before that, we have seen that 
this particular station regularly becomes anoxic, so as it's 
been pointed out before, it's not the--it's not that the bottom 
waters are becoming anoxic, but rather that the region of 
anoxia has become so much further expanded.
    We have also asked at this point what--we've followed the 
rate at which it has become anoxic and asked what is different 
at this point, and whether this point is representative of what 
is going on elsewhere or not. We don't know, but we would 
suggest that these are places that need to be examined.
    First of all, we've seen that there is lower transparency. 
There is greater phytoplankton biomass. We've seen an increased 
photosynthesis, at this point. There is also a diminished 
phosphorus limitation of phytoplankton, which is an important 
issue if we want to control this. If we see this as a 
phosphorus problem, then it's a problem that can be contained 
and controlled, only if the phytoplankton are responsive to 
diminished phosphorus.
    So we're seeing a diminished phosphorus limitation, and 
also seeing greater total phosphorus, and most of that that we 
have seen at this point is an increased dissolved organic 
phosphorus, which is phosphorus that is conditionally available 
to organisms, but is not necessarily immediately available to 
organisms. And, finally, we've seen larger bacteria at this 
point this year than we normally see, indicating that they be 
more active, there may be a greater activity in the base of the 
food web, or that their grazers are diminished. So it's 
important to keep in mind that this may not be simply a 
eutrophication problem akin to what we've had in the past. It 
can also be many--there are many other possible explanations 
for this.
    How does this lead to anoxia? Just to step quickly through 
this, increased production at the base of the food web can lead 
to phytoplankton that are incompletely grazed and that, in 
turn, leads to oxygen depletion when they're decomposed in the 
bottom waters for naturally occurring bacteria.
    How it is that we have this, you see it could be a food web 
problem, which, I believe, is where further research needs to 
be done. My colleagues, who I respect greatly, have focused 
exclusively on this being a phosphorus production problem, and 
we need to recognize that research needs to be done to examine 
all of the possibilities with it being, perhaps, a greater food 
web problem.
    Senator Voinovich. You're saying it's a food----
    Mr. Heath. A problem with the food web. So if you have too 
many algae, it could be because something is causing 
overproduction, which is where the predominant hypotheses are. 
Phosphorus being recycled from zebra mussels, or it could also 
be an inadequate consumption problem, that there is something 
with the grazers, with the grazing food chains involved in an 
incomplete grazing of the phytoplankton.
    What I believe we need is, first of all, that we need new 
ways of placing the current research into a more useful 
context. We have--every time that the problem occurs in the 
Great Lakes, as you know, we rush out and we do more research, 
yet that research is seldom parceled together and grouped 
together. We need to have ways of coordinating those 
activities. For example, in large models such as found in the 
Great Lakes Modeling Summit the focus on Lake Erie, which was 
an IJC publication 2 years ago.
    Also, we need ways of incorporating continuous, 
comprehensive monitoring activities, such as is being done by 
the USEPA, that are at levels far expanded than what we have at 
the moment. Much of what we do is when there is a problem, then 
we go out and we begin to do something. We need to have some 
continuous, intensive monitoring to guard these Great Lakes.
    And, finally, and I know that you have been one of the 
champions of the Great Lakes for a long time, the Great Lakes 
need to be valued as international treasures, and that issues 
besetting the Great Lakes need to be addressed in innovative, 
binational ecosystem monitoring, research and management 
programs. So I would say that we need, also, to incorporate our 
efforts with the Canadians.
    Thank you very much, Senator.
    Senator Voinovich. Thank you.
    We are working with the Canadians on the issue of taking 
from the Great Lakes, and it's comforting to know that Sam 
Speck of Ohio is kind of coordinating that effort. I suspect in 
the next year or so, what is it called the Lake Erie annex, 
we'll be coming up with some Federal legislation to deal with 
that problem.
    It's amazing all of these international agreements, if it 
wasn't for the WTO I don't think we would be involved in that. 
Up to that time the Governors, I thought, were doing a good job 
of handling the Great Lakes. And, of course, some of them said 
that it's in commerce and, therefore, we need to look at that 
aspect of it.
    Never ends.
    Elaine, I'm very glad to have you here today.

 STATEMENT OF ELAINE MARSH, BOARD MEMBER, GREAT LAKES UNITED, 
                       BUFFALO, NEW YORK

    Ms. Marsh. Thank you very much, Senator. I was on a 
conference call for my work with Great Lakes United last 
Tuesday, and we were talking about what remains of the toxic 
problems in Lake Erie and what needs to be done. And we were 
talking, specifically, about you, Senator, and the work of the 
Great Lakes Legacy Act that you are proposing, and we were 
talking about things like Senate Bill 961 and how important 
your work has been.
    On the conference call someone said, we simply have to find 
a way to thank Senator Voinovich for all of his hard work, so I 
would like to take this opportunity, Senator, to thank you for 
that. We really appreciate it.
    Senator Voinovich. Thank you.
    Ms. Marsh. I'm here as Lake Erie Regional Representative on 
the Board of Great Lakes United, an international not-for-
profit coalition dedicated to protecting and restoring the 
Great Lakes-St. Lawrence River ecosystem. Great Lakes United's 
150 member groups represent tens of thousands of people from 
eight Great Lakes States and the Provinces of Ontario and 
Quebec.
    We get most of our information from the other people on 
this panel related to the scientific causes of the problems, 
and our research certainly agrees that this is a very 
complicated problem. That it involves nutrients from combined 
sewer and sanitary sewer overflows. That it is related to 
nuisance and exotic species, and that it's also related to the 
global warming issues. So I would like to focus on a couple of 
issues that we believe need to be corrected.
    One of those is the issue of sewage infrastructure. As you 
are well aware, it's a huge and expensive problem and one that 
will not be solved unless there are some funds available from 
the Federal Government. The city of Toledo is talking about 
$400 million dollars. The city of Akron $370 million dollars. 
There is no way, even with the best of intentions and greatest 
plans that both of these cities have, that they can do that. 
Ten times the rate of paying for sewage treatment which some 
cities claim would be necessary in order to meet the 15-year 
requirement of the CSO regulations, is not a possibility.
    So this is just very, very important, and, in addition to 
the anexia, there are other aspects of the problems related to 
incomplete sewage treatment from combined sewer and sanitary 
overflows. One of those is, beach closings. Beach closings are 
more than a problem of phosphorus loadings, they are a problem 
for recreational use, which is, in turn, a quality of life and 
economic problem.
    So we're very concerned about that and we're very 
supportive of efforts to get new sewage treatment 
infrastructure spending. We believe that the dead zone in Lake 
Erie and the increased number of beach closings around the lake 
are strong indicators that untreated waste inputs are on their 
way to becoming a health crisis for Lake Erie communities.
    Great Lakes citizens are advocating immediate end of 
combined sewer overflows, and also we want mandatory 
notification of daily bacteria counts at public beaches. We 
believe that this would increase awareness, as well as safety 
for the region's populations.
    We certainly support the control of exotic species through 
ballast water and other shipping issues.
    Finally, in terms of protecting Great Lakes levels from the 
potential future effects of climate change, we believe that we 
need to greatly reduce CO<SUP>2</SUP> emissions from two major 
sources, coal fire power plants and automobile emissions. Great 
Lakes citizen groups are advocating for mandatory cap of 
CO<SUP>2</SUP> emissions from power and transportation sectors 
that guarantee reductions of CO<SUP>2</SUP> emissions by 60 
percent by 2020.
    We also strongly support the research on Lake Erie under 
the binational Lakewide Management Plan, headed by EPA's Great 
Lakes National Program Office and Environment Canada's Great 
Lakes program. The LaMP mechanism, as mentioned by others, set 
up under the Great Lakes Water Quality Agreement, includes 
government and public participation that are so critical to 
successfully dealing with the complex set of events that we're 
dealing with in Lake Erie.
    We also ask that you and the committee support restored 
funding of the U.S. Fish and Wildlife Service Lower Lakes 
program to enhance monitoring and oversight of Lake Erie and 
Lake Ontario.
    Senator Voinovich. Thank you.
    Dr. Matisoff?

 STATEMENT OF GERALD MATISOFF, PROFESSOR AND CHAIR, DEPARTMENT 
   OF GEOLOGICAL SCIENCES, CASE WESTERN RESERVE UNIVERSITY, 
                        CLEVELAND, OHIO

    Mr. Matisoff. I've been asked to provide technical 
expertise, in part, because of my role as a project director on 
EPA-funded grant Lake Erie Trophic Status, which began this 
summer. Before proceeding, I would like to take this 
opportunity to thank EPA personnel and the Great Lakes National 
Program Office for making this project possible. It is only 
through their recognition and involvement and rapid response to 
mobilize the necessary resources that enabled us to conduct 
this study.
    My name is Gerald Matisoff, and I'm professor and Chair of 
the Department of Geological Sciences at Case Western Reserve 
University. I've also served as editor of the Journal of Great 
Lakes Research for the past 5 years, and have been active in 
Great Lakes research since the 1970's. I've provided a CV with 
my written testimony, which includes my publications pertinent 
to Lake Erie.
    In my written testimony I have provided brief explanations 
about why anoxia is occurring in the central basin of Lake 
Erie, about the effects of anoxia on the Lake Erie ecosystem, 
and about solutions to prevent anoxia from occurring in the 
future.
    I'll not reiterate those comments here, instead, I'd like 
to take the remainder of my time to familiarize you with the 
nature of our EPA-funded research on Lake Erie this summer. 
Some of the other panel participants are actively involved in 
the project.
    Perhaps the best way to explain the nature of the research 
is within the framework of a Lake Erie ecosystem model. If you 
consider the projected figure, entitled Lake Erie Ecological 
Model Lien, this figure is not in my written testimony because 
it is not my work, but rather that of two colleagues of mine in 
the Biology Department at CWRU. However, it illustrates, quite 
nicely, the complex nature of the ecosystem and the problems 
that we're trying to address.
    What I would like to point out are the following four 
points. First, note the black box with phosphorus and sunlight 
as input materials, and fish as the output product. In this 
conception, the entire system is driven phosphorus input to the 
lake. In order to better understand this system, it is 
necessary to better understand and quantify all of the 
phosphorus sources, including point sources, tributarial 
loadings, and internal cycling within the lake itself.
    Second, the model does not consider spatial or temporal 
variability. Clearly, the distribution of phosphorus varies 
daily on a weather, seasonal, and annual basis. Similarly, 
various ecosystem components are known to have patchy 
distributions, which are small relative to the size of a very 
large lake.
    Also, it is well known that there are differences between 
the three basins of the lake between the near shore and the off 
shore. These various spatial and temporal variations are not 
regularly measured and are not well understood. Third, zebra 
mussels have completely changed the ecosystem. The lake is not 
at equilibrium, so it is not known what equilibrium mussel 
population will eventually be. Zebra and quagga mussels are not 
the only non-indigenous species. To date, there are more 161 
known exotic species and some, but not all of them, have caused 
significant ecological havoc. The ecosystem changes will 
continue to occur until the regular invasion of the Great Lakes 
by non-indigenous species is stopped.
    Finally, please note that this model is not linked to lake 
chemistry, water exchange, dissolved oxygen, or the physical 
flow of water nutrients or contaminants. A better understanding 
of those linkages will be needed to better describe the 
dynamics of the system.
    Note that although the model appears to be a very 
simplified description of the lake, and in some ways it is, 
there are ,942 parameters buried in there. They represent 
processes, and those processes are what the researchers on the 
grant seek to understand. Our approach is to apply as many 
tools and techniques as possible in order to collect the broad 
spectrum of data need to determine its relationship between 
widely different pieces of the ecosystem.
    As a result, we developed a project that included 
investigators to study as many pieces of the problem as 
possible. In our project, we ended up with 27 investigators 
from 18 institutions. Project is primarily field-based and was 
designed to collect samples and data using EPA's RV Lake 
Guardian and the Canadian Coast Guard Vessel Limnos. The 
sampling effort includes the measurement of water-related 
attributes, sediment-related attributes, an inventory of the 
organisms within the water column and at the bottom of the 
lake, including zebra mussels, to derive and extrapolate energy 
processing and nutrient transfer from zebra mussels to round 
gobies, and to quantify particle transport processes and 
nutrient sources among compartments. There were 11 specific 
objectives itemized in my written testimony and which are given 
in the grant proposal. The field sampling is to continue 
throughout the summer. To date, sampling trips aboard the RV 
Lake Guardian occurred in June and July. Since the research 
efforts have been focused on data collection, no attempt has 
yet been made to fully coordinate the data and/or interpret it. 
However, we are planning group meetings in mid-November and 
next March and next June to compile and interpret the data.
    We hope to have answers to many of your committee's and 
EPA's questions. But while we hope to have those answers, it's 
important to understand that this one time field-based sampling 
survey will not, necessarily, provide all of the answers to the 
complex ecosystem problems that are previously described.
    Senator Voinovich. Thank you.
    Jeff?

   STATEMENT OF JEFFREY M. REUTTER, DIRECTOR, OHIO SEA GRANT 
 COLLEGE PROGRAM, FRANZ THEODORE STONE LABORATORY, CENTER FOR 
LAKE ERIE AREA RESEARCH, GREAT LAKES AQUATIC ECOSYSTEM RESEARCH 
                   CONSORTIUM, COLUMBUS, OHIO

    Mr. Reutter. Thank you, Senator. It's always a pleasure to 
see you, and I thank you very much for your leadership of this 
and hosting this. I also want to compliment the other speakers, 
and it is indeed a pleasure to work with all of the scientists 
that have presented today. They are outstanding scientists. 
It's also been a pleasure to work with your staff here in Ohio 
and in Washington.
    The take-home message from my testimony is simple. Due in 
part to changes brought about by invading species, zebra and 
quagga mussels and reduced water levels, I'm concerned that 
Lake Erie is headed back to the condition of the, quote, dead 
lake years in the 1960's and early 1970's. We must determine if 
that is, indeed, accurate. And if accurate, we must identify 
corrective actions.
    Finally, we must recognize that Lake Erie may be a model 
for many other bodies of water in this country, and we must 
transfer the knowledge we gain from this lake to prevent the 
same thing from occurring in other locations of the country.
    Lake Erie is the southernmost, the shallowest, and the 
warmest of the Great Lakes. The other Great Lakes are all in 
excess of 750 feet deep. The deepest point in Lake Erie is 212 
feet, making it the smallest by volume. The watersheds around 
the other four Great Lakes are all dominated by forest 
ecosystems. The watershed around Lake Erie is dominated by 
agricultural and an urban ecosystem. As a result, Lake Erie 
receives more sediment and more nutrients than the other Great 
Lakes.
    Now, if the lake is the southernmost, the shallowest, the 
warmest, and the most nutrient enriched, it should be the most 
productive. It is. In fact, we often produce more fish for 
human consumption from Lake Erie than from the other four Great 
Lakes combined, but it is possible to have too much of a good 
thing.
    A little over 30 years ago the Cuyahoga River burned, and 
Lake Erie was labeled a dead lake. Nothing could have been 
further from the truth. In reality, the lake was still alive. 
We had put too nutrients into the lake from sewage and 
agricultural runoff. These nutrients, especially phosphorus, 
allowed too much algae to grow, and that alga used up all the 
oxygen in the water and when it died, it sank to the bottom and 
was decomposed by bacteria.
    Scientists divide the lake into three basins. The western 
basin is the area west of Sandusky, and has an average depth of 
only 24 feet. The eastern basin is the area east of Erie, 
Pennsylvania and contains the deepest points in the lake. The 
central basin is the large area between Sandusky and Erie, and 
the average depth in that basin is between 60 and 80 feet, and 
it's also very flat. Unfortunately, it is that shape that 
causes this basin to become the home of the dead zone.
    Lake Erie stratifies, in the spring, with a warm layer on 
top and a cold layer on the bottom. The line of rapid 
temperature change between these layers is referred to as the 
thermocline. These layers break up in the fall when the surface 
layer cools to the temperature of the bottom layer. The 
thermocline usually forms around 45 to 55 feet. This means that 
the western basin is too shallow to have a thermocline, except 
on rare occasions. The eastern basin will have a thermocline 
and there will be a lot of water below the thermocline in that 
cold bottom layer. The central basin will have a thermocline, 
but there will be a very thin layer of cold water beneath it.
    At the time the thermocline forms there is plenty of 
dissolved oxygen in the bottom layer. However, due to its 
depth, there is no way to add oxygen to the cold bottom layer 
until the thermocline disappears in the fall.
    Throughout the summer, the oxygen that was present when the 
thermocline formed, is used by organisms living in the area, 
including the bacteria, bacteria that are decomposing the 
algae. If large amounts of algae are present, then large 
amounts of oxygen will be required for the decomposition 
process. Therefore, if we could reduce the amount of algae, we 
could reduce the amount of oxygen required to decompose it.
    Because the western basin seldom has a thermocline, this is 
seldom a problem there. And because the eastern basin is so 
deep, there is a large reservoir of oxygen in the bottom layer, 
enough to last until the thermocline disappears in the fall. 
The central basin, however, does not have a large reservoir of 
water or oxygen in the bottom layer because the basin is not 
deep enough. As a result, loss of oxygen or anoxia can be a 
serious problem in the bottom waters of the central basin.
    Areas of anoxia were first observed as early as 1930. And 
by the 1960's and 1970's, as much 90 percent of the bottom 
layer of the central basin was becoming anoxic each year. This 
is why the lake was labeled a ``dead lake.'' To reduce the 
amount of algae in the lake we needed to reduce the amount of 
limiting nutrient. By limiting nutrient, I mean the essential 
nutrient that is in the shortest supply. In fresh water this is 
often phosphorus.
    Our models told us that in order to keep dissolved oxygen 
in the central basin, we needed to reduce the annual loading of 
phosphorus to 11,000 metric tons. This was accomplished and the 
recovery of the lake has been truly remarkable. That's the 
history. That got us up to the late 1980's.
    Then we've seen unpredicted results since that time. On 
October 15th, 1988 we found the first zebra mussel in Lake 
Erie. Sea Grant initiated a research project to document the 
expansion, and 1 year later the densities in the western basin 
had reached 30,000 per square meter. Our research indicated 
that these mussels changed the way phosphorus cycles through 
the system.
    Beginning in the mid 1990's, USEPA Great Lakes National 
Program Office observed a trend of increasing phosphorus levels 
in Lake Erie. We shared our observations of unexplained 
problems in Lake Erie with the GLNPO scientists, and they asked 
that we bring together a group of Lake Erie experts for a 
meeting in their Chicago offices in December of 2001 to discuss 
the problems that we were observing, and to strategize about 
solutions.
    As a result of this meeting, GLNPO is currently funding a 
one-year project, which Dr. Matisoff is leading, to better 
understand the dissolved oxygen problem. And I know that Paul 
Horviton and Glenn Warren were very much involved with that.
    That rapid response was really pleasing to see a large 
Federal agency really turnaround a large project within very 
few months, and to see a group of scientists, again, led by Dr. 
Matisoff, I think there are about 25 scientists involved with 
that, to come together and address a problem that quickly.
    I believe the oxygen problem is real and that it's growing. 
I believe its caused by excess phosphorus and reduced water 
levels, but I also believe that zebra and quagga mussels are 
having a significant impact. And more phosphorus means more 
algae and more zebra mussels, and because of zebra mussels, 
Lake Erie may not be able to tolerate the large amounts of 
phosphorus that it did in the past. Finally, with regard to 
climate change, we should mention that because it's also 
exacerbating the dead zone problem in Lake Erie. Since 1997, 
the water level has gone down by three to four feet. This 
reduction comes primarily from the cold bottom layer. 
Therefore, as the water level goes down, the volume of this 
layer is reduced, the oxygen reservoir is reduced, and we have 
a greater chance of having an oxygen problem.
    As for the current year, I fear this could be a very bad 
year. We had a very wet spring. This means we probably received 
large loadings of phosphorus from agricultural runoff and from 
sewage treatment plants. Because many of our systems still have 
combined storm and sanitary sewers, allowing untreated sewage 
and the nutrients it carries to enter the lake.
    I'm really pleased with your supportive efforts to try to 
eliminate that problem and resolve the sewage treatment 
problem, but we still have agricultural runoff and we still 
have the zebra mussels to deal with. I have some thoughts and 
recommendations, but I think I'll hold those for the 
discussion. And I thank you for bringing this whole group 
together.
    Senator Voinovich. Thank you very much.
    The quagga mussels were exotic species that were brought in 
by the ballast, too. Were they here before the zebra mussel?
    Mr. Culver. They came later, and they were brought in with 
the ballast water.
    Senator Voinovich. They're rapidly taking over the zebra 
mussels?
    Mr. Culver. Yes. We don't exactly understand why that is 
the case. We anticipate that it's associated with faster 
grazing or faster growth. There is some research now going on.
    Mr. Reutter. There is much more research on zebra mussels 
than quagga mussels. There are also about five additional 
mussel species that could be introduced into the lake at any 
time.
    Senator Voinovich. So we don't have enough research--there 
is no leveling off, it doesn't reach a future point where----
    Mr. Culver. Actually, it works a different way, because 
initially we felt there would be a leveling off because the 
zebra mussels were associated primarily with hard substrates, 
and they didn't live or grow as well on sandy or muddy 
substrates. Gradually those areas have been covered with mats 
of them, which make their own substrate. And then there are 
quagga mussels that live very well in the soft substrate, which 
they did in the eastern basin when they first came in.
    It's hard for us to predict exactly how will eventually be 
covered. One of the things this has been shown, is that unlike 
many times when a species is introduced wherein you have just a 
few specimens which form the founding population, very low 
genetic diversity, very slow adaptation to new conditions, 
zebra mussels came in with huge founding population, great 
genetic diversity, and people were saying they could never live 
very far south of here. And, of course, as everyone knows, it's 
living down in Texas, very nicely in Texas, because of that 
great genetic diversity. I'm anticipating the quagga will 
follow the same.
    Senator Voinovich. What other parts of the world have the 
zebra mussels?
    Mr. Culver. The only place that I'm familiar with are 
Europe. They originally came from eastern Europe and moved into 
western Europe about 300 years ago when they built a rather 
extensive canal system, and that allowed the zebra mussels to 
move through. And then there's some suggestion that the 
improvement of water quality of the harbors in Europe has 
helped as well. These are areas where low salt conditions and 
all of these non-indigenous species can survive in the harbor 
areas where the ships may pull in their ballast water.
    Senator Voinovich. Have any of the Europeans tried to do 
anything about it, any efforts, internationally, to deal with 
the problem?
    Mr. Culver. They were not very interested in zebra mussels. 
They'd always thought everybody had them. And with major 
research that's been done over here has stimulated a lot of 
research in Europe. Ireland has just recently received zebra 
mussels, and they weren't happy with that either. Boats that 
were coming on ferries, pleasure boats that were coming on 
ferries, from England over to Ireland were responsible, in 
part, for introducing the zebra mussels into the rivers and 
lakes of Ireland. That was happening in the late 1990's.
    Senator Voinovich. So we can't learn from anyone else's 
experience, we're the genesis of the research?
    Mr. Culver. In large part that's true, but we're the only 
one with a Lake Erie.
    Mr. Reutter. When the zebra mussels first came in, we did a 
great deal of looking through the literature what was learned 
in other countries. One thing that we learned is zebra mussels 
were going to be able reproduce when they are three or 4 years 
old. In Lake Erie they are reproducing at 11 months old. Said 
that they'd be able to lay 50,000 eggs, in Lake Erie they lay 
one million eggs. Said that the larvae when they hatch would be 
able to be suspended within the water column for 11 days before 
they settle. They can scatter very far in 11 days in the water 
columns. In Lake Erie they can stay suspended for 33 days.
    Essentially, what we're seeing is that there is no place in 
the world that has the kind of densities that we have. This is 
zebra mussel heaven.
    Senator Voinovich. Those were some of the observations 
early on. Some said, ultimately, that will level off and that 
hasn't been the case, and the quagga has added to that.
    Mr. Reutter. We have done so much more work on zebra 
mussels. It's a real mistake to assume they behave the same.
    Senator Voinovich. They're a different species all 
together--not all together but----
    Mr. Culver. Same genus, different species. The quagga has 
clearly been able to push the zebra mussels out. What that 
means for the long term is hard to say.
    Senator Voinovich. The theory is that they're what, they 
excrete more phosphorus, is that it?
    Mr. Culver. It's possible that they're producing a larger 
number of larvae, and larvae are sticking to established zebra 
mussels and covering them up, or they're growing faster or 
they're competing for food at the bottom. And so if the quagga 
mussel is able to suck in more of the water faster and extract 
algae so that the zebra mussels that are there are receiving 
primarily water that's already been cleared of its food supply, 
then the zebra mussels will not grow as fast, will not produce 
as many eggs and so forth.
    But I've been amazed by how rapidly that change has 
occurred, in 9 years to go from 1 in hundred to 10 to 1 is just 
amazing.
    Senator Voinovich. Dr. Matisoff, you're coordinating--
somebody mentioned, the issue of does the left hand know what 
the right hand is doing in terms of all of this research.
    That's one of the questions I have, does anybody really 
keep track of this in one place that knows what everybody is 
doing, so that we're utilizing our research money in the most 
effective way?
    Mr. Matisoff. Not on a daily basis certainly, but we are 
planning a meeting in November in which to share everybody's 
data and try and see if we can, in fact, use the data to help 
us understand and answer the broader questions.
    Senator Voinovich. You have 27 people from 18 institutions 
that are working on this?
    Mr. Matisoff. That's correct, so we'll get the----
    Senator Voinovich. Pardon me--who determined who the 27 
were?
    Mr. Matisoff. We knew pretty much who did what kinds of 
research, so when we needed phytoplankton people, I called Dave 
Culver, and when I needed bacteria people I asked Bob Heath--
and he turned me down, but so the answer to the question is we 
know who does what kinds of research and we called around. And 
I have a Canadian counterpart who did the same with the 
Canadian institutions. So we assembled a team, and there were 
many people who called--it was posted on a web page and they 
gave us a ring after they found out about it. We tried to work 
them into the project.
    Senator Voinovich. You're coordinating this with the 
Canadians?
    Mr. Matisoff. Yes.
    Senator Voinovich. And so the report that finally comes out 
next year will be applicable, and both governments will be 
benefiting from this?
    Mr. Matisoff. That's correct. We hope to get everybody 
together three times over the next year, to work assembling the 
data.
    Mr. Culver. It should also be pointed out, there are a 
large number of Canadian researcher vessels that are providing 
this kind of support. They're conducting this research project 
in the same way that the USEPA Lake Guardian is doing.
    Senator Voinovich. It's a real coordinated effort, that's 
good.
    Miss Marsh, are you doing what you can to lobby Washington 
to try and get more money for sewage treatment facilities?
    Ms. Marsh. Yes, we are, Senator, but we need support. We'd 
be very happy to work with you to coordinate that, in whatever 
way we can.
    Senator Voinovich. One of the frustrating things, from what 
I've heard, and correct me if I'm wrong, is that after all of 
the research, we may conclude there isn't much we can do about 
quagga or zebra mussels, that the only alternative we have is 
do a better job with sewage treatment and dealing with the 
problems of combined sewer overflows and agricultural runoff, 
and you mentioned, also, some industrial problems that we could 
be having, is that correct?
    Ms. Marsh. Yes. And we also agree climate change is a 
factor and CO<SUP>2</SUP> emissions should be reduced in order 
to alleviate further effects.
    Senator Voinovich. Jeff, you talked about the fact that you 
got lower water levels.
    This will be my 23d year to go up to the Islands in my, 
now, very old boat. It's very interesting that I was out with 
Admiral Silva doing some public service announcements. One of 
them was with the Coast Guard. And the day before they were 
going to shoot the commercial on boater safety, I was told by 
the man that ran the marina I had gasoline in my bulk, in our 
boat there. I was saying afterwards to the admiral, thank God 
the camera couldn't smell, or you would have had to go to 
another boat.
    But, anyhow, I've seen a lot over that period of time, and, 
you know, it's going to be difficult if that's the problem and 
we can't do anything about the other. I think that, somehow, 
we're going to have to capture that so people understand that 
that may be the only way we can do it; therefore, it becomes 
more important that we deal with that problem.
    Getting back to my point about water levels, I've been 
going back and forth and I've seen the water levels going up 
and down, and there were times, early on, when I was in the 
legislature, they wanted me to turn on--have them turn off the 
spigots so we weren't getting so much water, because the levels 
were so high, and it wasn't too many years ago that they redid 
the docks and raised them up. Now they're down. And I wish I 
had brought some property on Cedar Point Road over by Cedar 
Point. Everybody was selling their houses, it looked like the 
water was just going to come over and invade them. Gary, you 
remember that, too, I think.
    And, of course, now the water levels are down. The issue 
is--that's the debate we have in Congress about what impact 
does global warming have on these water levels. But you 
genuinely feel that the scientists here if you had another 
three feet of water that it would be much different in terms of 
the problems that we're seeing here with this anoxic situation?
    Mr. Culver. Really the hypolimnion loses out. Because we 
have the same wind stress and everything else that mixes water 
down, so the hypolimnion tends to be thinner when the water 
level is low. That's where we lose out under those 
circumstances, that's correct.
    Mr. Heath. I was going to say part of the problem, though, 
is the water is warmer this year. As the lake becomes 
shallower, then the bottom waters will be warmer, so while 
there would be less--there would be a greater--the bottom 
waters would be warmer, that would stimulate the activities of 
the bacteria in decomposing the organic materials at the 
bottom. So it's hard to say whether we would have larger areas, 
or not.
    Also, the problem with looking at this as a zebra mussel 
problem is that that would be highly ironic, because the one 
way in which you can get rid of zebra mussels on the bottom is 
to have large regions of anoxia. Zebra mussels are not tolerant 
to anoxic conditions. They require oxygen as well. I think we 
need to examine these areas and to look at our research and our 
hypotheses more broadly, than to simply focus on it as a zebra 
mussel issue.
    Senator Voinovich. It would be interesting, just to say, if 
we've had warmer water and shallower water, then what impact 
would that have on this increase on phosphorus in the lake, and 
compare that with what you think you're getting from the quagga 
and the zebra mussels.
    Mr. Reutter. Those things really have to be looked at, 
Senator. If we reduce the thickness of that bottom layer, there 
is less oxygen available. In the sediments we're probably going 
to have the same demand for oxygen. We'll use up what is there 
more quickly. We'll see the anoxic problem occur sooner. It 
will last longer. If the temperature continues to go up, for 
every 10 degree increase in temperature, the rate of chemical 
reaction is double, so not only will we have a greater demand 
for oxygen, the rate at which we use it will also be increased. 
All of those things are working against us right now.
    There is an old adage we used to say when we had the high 
water levels starting back in the 1972, 1973 area, we said that 
dilution of the solution to the water pollution. We are going 
exactly opposite of that.
    Senator Voinovich. Colder waters, warmer waters, how does 
that all fit together?
    I was interested in Professor Heath, he talked about that 
area I'm familiar with, and that's not the central basin, it's 
the western. Wouldn't that be considered the western basin?
    Mr. Heath. We would consider it right on the edge. Normally 
we'll note that as the Sandusky subbasin, which is sort of the 
gateway to the central basin.
    As Dr. Matisoff mentioned, a lot of the assumptions in lake 
research have been that if we look at the nearshore stations, 
they will be very similar to off shore stations, but that's not 
the case.
    Senator Voinovich. What is the water depth out there?
    Mr. Heath. Fourteen meters.
    Senator Voinovich. You talked about the issue of 
coordination, do you think that, from your perspective, we need 
to do a much better job, or a better job, or a much better job 
in terms of coordination?
    Mr. Heath. I think we need to have a watershed coordination 
plan in place, recognizing that the Great Lakes watersheds are 
in both nations, in the United States and Canada, and we do 
not, in my opinion, do a good job of that, despite the valiant 
efforts of the Council of Great Lakes Research Managers and 
International Joint Commission. We do not have a continuous, 
ongoing data repository, nor do we have an annual meeting, that 
Dr. Matisoff mentioned, to include Canadians. Senator 
Voinovich. How can we improve that?
    Mr. Heath. Well, I think we can improve that by doing just 
that, perhaps, organizing meetings through the International 
Joint Commission and the Council of Great Lakes Research 
Managers, or by having web and Internet based data 
repositories.
    Senator Voinovich. Who would be the one that would put that 
together?
    Mr. Heath. Well, hopefully--I guess, hopefully us.
    I don't have a ready answer for that. I would hope that 
that would go through the International Joint Commission.
    Senator Voinovich. I sure would be interested in your 
thoughts on it. I mean, I think that's a big deal.
    Mr. Reutter. I think we could make that happen, Senator. 
I'm the past chair of the Council. David Ullrich is the chair 
of the U.S. chair of the Water Quality Board. I think we could 
make that kind of thing happen.
    Senator Voinovich. I'd like your thoughts and consensus. 
Maybe David, you, and Jeff could put together a recommendation, 
memorandum, or something to me, that I could share with the 
committee and with the Federal agencies, see if we can't move 
this along.
    I know I just had breakfast recently with the new Canadian 
ambassador to the United States. We discovered that we knew 
each other in different capacities. He's very concerned as I am 
about all of the organizations, accessing all of our resources 
and working as closely as we can with each other in some of 
these areas.
    The problem today is getting the resources, and you want to 
make darn sure that you get them, you're using them as 
efficiently as you can.
    I'm going to tell you, switching the subject, to getting 
money for sewage treatment, with the Federal budget today, as 
it is, and all of the competing demands for the dollars, to get 
more money for just, for the revolving, you know, the SRF, it's 
going to be difficult. We need about $3 billion, at least. We 
get about a $1,350,000,000. A few years ago I worked with 
Senator Smith and some others, and we were able to increase 
that. And also some grants, grant program, very modest 2-year 
grant program, a billion and a half dollars, and you couldn't 
do the grant program unless you fully funded the loan program. 
They didn't do it.
    So it's going to take an enormous amount of lobbying on the 
part of a lot of responsible organizations to get Congress to 
face up to the fact that we need to move forward and do 
something in this area.
    So I just--you know, one of the things that the public 
doesn't know is that we have gone from a situation where we had 
a $313 billion dollar surplus for 002, we're going to probably 
borrow $340 billion dollars for 2002 just to run the 
government. That is all of the Social Security surplus, plus 
borrowing equivalent to about $340 billion, despite of what OMB 
says, we're probably going to have to borrow $400 billion 
dollars for 002. So everything that we're doing, it's all 
borrowed money.
    In the context of that, we've got to try to make some hard 
choices and prioritize. The problem is that everybody wants to 
do everything. You can't if we're going to turn this economy 
around and get it moving. Then all of us have to be concerned, 
because looking down the road, what are we going to have left 
when the baby boomers hit Medicare, Medicaid, Social Security, 
there won't be any money for any domestic issues, even our 
national defense, at the rate we're going.
    We've got to make some tough decisions and put some money 
into some of these areas. You know that the municipalities 
can't handle it. The rate increases, I don't even want to tell 
you how much we increased rates when I was mayor. That's a 
military secret. It was a hell of a lot of money.
    Ms. Marsh. Senator, I also think that there is insufficient 
public understanding of the problem of combined sewer 
overflows. We really are just beginning to understand their 
effects on health, their effects on the economy, and we need to 
do more to educate the public of what this actually means.
    I think a lot of people don't even know what the terms 
mean. When I talk with people and talk about untreated human 
waste entering our streams and Lake Erie, everyone is aghast, 
they don't know that that is still happening. So I think that's 
a big part of the challenge.
    Another part of the challenge, I think, is looking at our 
definition of infrastructure. We need to look at non-point 
source methods of capturing of storm water. Storm water Phase 
II has two very good parts in it that deal with using the land 
as a filter before it gets into a pipe. I think we need to do 
that. I think there needs to be leadership on local, State, and 
national levels related to, for example, wetlands. We need to 
restore the protection that wetlands once had and, 
specifically, isolated wetlands.
    So there are a number of things that we as communities and 
as States and a nation can do, in addition to sewage treatment 
infrastructure.
    Senator Voinovich. Well, one of the things I think that you 
know, the EPA, Federal EPA, made all kinds of demands on 
communities. And one of the questions I've always had is that 
are those realistic demands? Combined sewer overflow, this has 
got to be done, as you know. Again, the communities can't do it 
themselves.
    I keep referring back to the days when we did something, 
remember it was 75/25, in 1985 we knocked it out and went to 
the loan growth. We haven't seen very much progress since that 
time.
    Are you all confident that we're capturing the numbers on 
the municipal waste? We're doing a good enough job?
    I was kind of shocked to see that chart that was over at 
the boat where it showed that it's kind of the same. My thought 
would be from reading everything, you believe that we're 
really--that is really the case?
    Mr. Culver. Those are point source data and there is 
monitoring being done of some of the streams and rivers to 
capture non-point source and other sorts of things. We have a 
little problem, like the one for the Maumee River, the location 
of that sampling site is 10 miles upstream. So there might be 
something happening in the town of Toledo that we don't know 
about.
    So there's a real need, if we're trying to model phosphorus 
flow through the Lake Erie ecosystem, if there's an error of 50 
or 75 percent in the loading that's coming in those data, if 
they're off by that much, we simply cannot come up with an 
answer or prediction of what will happen in the future, because 
we're working--it would be like having a budget where there was 
expenditure that didn't show up on the ballot sheet. You simply 
can't plan under those circumstances or model.
    Mr. Heath. Also, part of the problem is that the inputs are 
episodic, and that monitoring does not always catch the highest 
input events because those are often occurring after storms, so 
you have agricultural non-point runoff and the combined sewer 
overflow problems are not always accounted for because of the 
episodic and the unpredictable nature of the input.
    So I'm not satisfied that we know as well as we would like, 
regarding the inputs. And that if we miss even a small amount 
of those inputs in terms of time, we may be missing major 
events in terms of quantity estimates.
    Senator Voinovich. What's the breakdown in terms of 
agricultural runoff versus municipal sewage?
    Mr. Heath. Well, I don't know, but we're in a largely 
agricultural watershed.
    Senator Voinovich. The point I'm making, it gets back to 
allocation of resources, and I know, in Ohio, we really tried 
to work with the agricultural community in doing this no till 
farming and use less fertilizer and all of the other stuff.
    So if we're going to invest money, where would you get the 
biggest return for your investment? If you had one choice, put 
more money into the agricultural runoff and sedimentation, or 
would you do the municipal?
    Where would we get the biggest return on our dollar?
    Mr. Culver. The greatest year-to-year variation is in the 
stream flow or watershed, which would include the non-point 
source, so it really strongly responds to rainfall and so 
forth. But you might question whether or not the same number of 
dollars applied to a agricultural source would be as effective 
as where you had an institutionalized piece of equipment there, 
here's that storm water, treating the phosphorus in it, and 
reducing that to practical levels.
    So it may well be that the effectiveness of the dollar 
would be higher for storm water controls and sewage treatment, 
but the total mass of phosphorus and the variation of that mass 
of phosphorus is greater for non-point source.
    Mr. Reutter. If we're putting in about 29 metric tons of 
phosphorus, the model says we had to get back to 11,000 metric 
tons, now we are down to the point it's about two-thirds coming 
in from agricultural runoff, one-third from the other, we need 
research. Those models that say that should be our target, 
appear that they are no longer accurate. So we need to reassess 
the way phosphorus is moving through the system, how it's being 
cycled, how it's being used, because it's quite likely that in 
the given scenario we have right now, 11,000 is not right. It 
needs to be some other number.
    So before we could really honestly tell you where the 
reduction should come, we should determine what level is now 
appropriate and acceptable because of the size of the reduction 
is going to have a big impact on where we say that we should 
take that.
    Senator Voinovich. Dr. Culver, you, in your testimony, 
talked a little bit about the bacterial contamination of 
combined sewer overflows. Now we're talking about bacterial. 
How much of the dead zone problem is attributed to bacterial 
contamination?
    Mr. Culver. I don't think very much at all. I think the 
dissolved organic carbon coming from waste of that sort, really 
are severely diluted by the time we get out far enough off 
shore where we're getting anoxic zones. Problems for those are 
more where that water is being held, close to shore, where it 
will impact intakes for potable waters and the beaches, that 
she has already mentioned.
    So I think, it's probably fair to say, that most of that 
effect will be near shore. It is clearly the case that sewage 
does have organic matter in it. It does consume oxygen when 
it's decomposed.
    Senator Voinovich. So that problem is more for the beaches 
and more for the folks that are trying to provide us with clean 
water, but not this other problem?
    Mr. Culver. That's correct.
    Mr. Matisoff. I might add, it's two different kinds of 
bacteria. The one source, that you're concerned about, is the 
sewage source of bacteria. There are natural bacteria in the 
mud and our water column and out in our lake. Those are the 
ones that are consuming the oxygen in the bottom that we're 
talking about.
    Senator Voinovich. You've heard each other testify, is 
there some comments that you would like to make regarding each 
other's testimony, or any other comments that you would like to 
share with me?
    Mr. Reutter. Senator, I request--I think we've been most 
successful in addressing this problem, by when it comes to 
Federal funds, by getting directed funds from EPA through the 
Great Lakes National Program Office and Sea Grant Program. 
Those two groups, I would be very confident, would be able to 
respond quickly to address this problem if additional funds 
were made available.
    Senator Voinovich. Pardon me.
    Don't we get our Army Corps of Engineers money, and then 
you get--your EPA comes out of a different budget, doesn't it? 
EPA comes out of what budget?
    Ms. Ransom. VA-HUD appropriations.
    Senator Voinovich. VA-HUD, right, and then we get ours out 
of energy and water.
    So that's sometimes the problem, because VA-HUD, you can 
imagine, think about that, EPA budget comes out of VA-HUD.
    Mr. Reutter. You could be very helpful. Sea Grant is part 
of NOAA. The Great Lakes Environmental Research Lab is part of 
NOAA. It's currently going through a strategic planning 
process. They'll be going around the county to gather input on 
what should be incorporated into that strategic plan. They have 
identified five hearings that they want to have around the 
country.
    One of the things that always frustrates me is that the 
Great Lakes never gets its due. Our coastline is longer than 
the east coast, west coast or the gulf coast.
    Senator Voinovich. By the way, you have some wonderful 
statistical information in your testimony.
    Mr. Reutter. It's really a passion with me. We're often 
overlooked. And here's another example, five hearings around 
the country, the coasts are all covered except the Great Lakes 
coast. They have identified one hearing to be cover the Midwest 
and Great Lakes, and that hearing will be in Boulder, Colorado.
    Senator Voinovich. Let's get this information down. Maybe 
we'll get involved with that.
    When are these hearings again?
    Mr. Reutter. They're going to take place during the next 
six to 8 months.
    Senator Voinovich. Who's doing it again?
    Mr. Reutter. This is NOAA. It would be really nice for you, 
just as you've done here, to offer to host a hearing right here 
in Cleveland. It would really get a focus for that particular 
issue.
    Senator Voinovich. Well, there is no question that the 
Great Lakes have not received the attention that they deserve. 
Even with the Coast Guard, one of the things that we finally 
got them to do, even the admiral is knowledgeable about, in 
terms of infrastructure problems that are needed for 
transportation. You have them for the Mississippi River, you 
have them for the other places in the country, but we don't 
have that kind of plan in place. We don't have a priority list 
of projects that need to be undertaken to just facilitate 
movements of boats throughout the Great Lakes. It's just not 
there. And I think that we really need to do a better job of 
getting the Great Lakes legislatures to be more coordinated in 
their efforts.
    I think that gets back, to a certain degree, with all the 
multiplicity of organizations. If you look at that list of 
organizations, you would throw up your hands. Who do you talk 
to? So perhaps we ought to get some folks together to talk 
about how we can do a better job of coordinating advocacy of 
the Great Lakes through various organizations that exist, so we 
can get the message across.
    How about the gobies, are they a threat?
    Mr. Reutter. They're a threat to the fishery. The 
information on the botulism is a real interesting one, because 
it's possible that botulin is being transferred by gobies. That 
should be almost impossible. There is some things going on that 
we don't understand. There are also 14 other species of gobies 
that are poised and the ready to invade.
    Senator Voinovich. Wait a minute, what do you mean poised 
to invade?
    Are they here? Is the boat coming?
    Mr. Reutter. Hopefully, no, to both of those. But they're 
in the region that shipping comes from. The round gobies is one 
of those species is more salt tolerant, it could do more damage 
on our salt water coasts. They're clearly posing a human health 
problem because they're allowing contaminants to be transferred 
from zebra mussels to gobies to smallmouth bass. That is a 
target species for anglers.
    Mr. Culver. We've found that gobies attack nests of 
smallmouth bass. Someone catches the bass, it's supposed to be 
a fine thing, it happened to be on a nest, and while it's gone, 
the gobies move in and eat the eggs of the juveniles of the 
smallmouth bass.
    Mr. Isbell can give you more information on that.
    Mr. Isbell. All of these things are changing the way things 
work.
    Senator Voinovich. Well, it emphasizes that we have to have 
ongoing research in a lot of areas, if we're going to stay up 
on a lot of things. We have to take significant preventative 
efforts, one is this issue of ballast water. We have to get on 
that right away. Let's, at least, prevent anything new from 
coming in.
    Mr. Culver. The International Ecological Society has had 
meetings in which the Europeans, in particular, have identified 
invasive species that are moving around Europe, that are, as he 
says, poised. There is a species called amphipods and various 
sundry, other things, that are problems in Europe which we 
don't have yet, but which could easily get here by the same 
routes as the previous species. Those would make additional 
biological changes to the system.
    Senator Voinovich. We have our work cut out, don't we?
    Thank you very, very much for coming today. I really 
appreciate your taking time out of your schedules to share the 
information.
    This will all go into the hearing record, and we'll have 
that available for the other members of my committee. And I'm 
anxious to get back from you some of the things that I 
requested of you.
    I may have some other written questions that I may ask you 
to respond to.
    Thanks very much.
    [Whereupon, at 12:10 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]

Statement of David A. Ullrich, Deputy Regional Administrator, Region 5, 
                    Environmental Protection Agency

    Good morning Mr. Chairman and Members of the Committee. I am David 
Ullrich, Deputy Regional Administrator and Acting Regional Counsel for 
the Environmental Protection Agency (EPA) Region 5. I am here today 
representing Thomas V. Skinner, EPA's Great Lakes National Program 
Manager. I thank the Committee for the opportunity to speak with you 
today regarding a potentially troubling change in the Lake Erie 
ecosystem.
    In my testimony today I will present a brief summary of the current 
situation and EPA's response to what we think may be occurring in the 
lake. I will try to address the Committee's questions regarding why 
anoxia is occurring in the central basin of Lake Erie, the effect of 
anoxia on the Lake Erie ecosystem, and solutions to prevent anoxia from 
occurring in the future. I will also be submitting for the record the 
Lake Erie Lakewide Management Plan, the proposal for the Lake Erie 
Supplemental Study of Trophic Status, and a copy of the Great Lakes 
Strategy. All of these documents will be explained during this 
presentation.
    It was little over two decades ago that the U.S. and Canada spent 
literally billions of dollars on intensive efforts to upgrade sewage 
treatment plants, ban phosphorus from detergents, and improve 
agricultural nutrient management practices, all of which helped to 
bring Lake Erie back from the brink of disaster to one of the greatest 
environmental successes to date. Today, instead of sitting here in 
Cleveland on the shores of a dead lake, we now see the effects of a 
true environmental renaissance here on the Lake Erie shoreline. We can 
see the fruits of this economic rebirth that has been spurred by the 
cleanup and revitalization of the Cuyahoga River and of the lake 
itself. We have given the Lake Erie citizens back their lake along with 
the attendant recreational and economic opportunities, not the least of 
which is a billion dollar world-class walleye fishery.
    To maintain this success, EPA continues to monitor nutrient levels 
as part of the Agency's Great Lakes National Program Office (GLNPO) 
annual intensive monitoring program. And because this program is in 
place, we started noticing troubling signs of a change in Lake Erie in 
the 1990's. Total phosphorus measurements, always considered a good 
indicator of the health of the lake, started to increase, after years 
of decrease. These results are corroborated by Canadian data. Perhaps 
more telling was the return of very low oxygen levels in a large area 
in the central basin of Lake Erie. This condition, whose technical name 
is ``anoxia'', has gained the term ``the dead zone.''
    The appearance of the ``dead zone'' is not a new problem; it is 
something that EPA is quite familiar with and has successfully 
addressed in the past. But there is a new twist to the problem this 
time around. Our past experience identified external loadings of 
nutrients, principally phosphorus, as the main reason for the existence 
of anoxic conditions in the lake. EPA's Office of Research and 
Development helped create the models that set the targets for reduction 
of phosphorus to alleviate the anoxic condition in the lake. Once we 
reached these targets, the lake responded accordingly. Currently, 
however, our available information does not indicate any substantial or 
significant increases in loadings of phosphorus or other nutrients to 
Lake Erie from external sources. So something different seems to be 
taking place.
    One may rightly ask if we should be concerned about these changes 
in Lake Erie. My answer to that is an emphatic yes. We should be 
concerned because there are a number of possible large-scale and 
potentially very costly impacts due to the changes we are observing. 
These changes could include:

    <bullet>  Impacts on the Lake Erie Fishery and Other Wildlife: 
There are indications that a variety of changes are taking place that 
may seriously impact the Lake Erie fishery. Larger areas and/or 
increased duration of reduced oxygen levels in the water could lead to 
reductions in the food base for fish populations, such as walleye. We 
also have recent indications that burrowing mayfly larvae, another part 
of the food base for many Lake Erie fish populations are being severely 
diminished along the edges of the lake's central basin. These losses 
indicate that future reductions of fish populations may occur.
    We have also seen four straight years of large-scale fish and bird 
die-offs, partly due to type E botulism which was last seen in the 
Great Lakes in the 1960's but had never been found in Lake Erie. Mud 
puppies, an aquatic salamander, sheepshead, rock bass and smallmouth 
bass have all experienced kills during this period.
    At the same time, avian botulism has caused the deaths of thousands 
of water birds, including common loons and ring-billed gulls.
    The presence of botulism in the lake may be due to the impact of 
exotic species, such as the round goby, and the quagga and zebra 
mussels.
    Such changes in the Lake Erie ecosystem as outlined above could 
lead to the formation of a fishery from one dominated by top sport fish 
such as walleye and salmon to one dominated by bottom feeders. Such a 
change would have serious implications for Lake Erie's billion-dollar 
fishery.
    <bullet>  Beach Closures and Loss of Recreational Opportunities: We 
are observing many impacts of increased phosphorus levels in the lake, 
including large, unsightly and smelly mats of algae called Cladophora 
washing up on beaches, leading to beach closures and seriously 
impacting recreational opportunities for Lake Erie residents.

    <bullet>  Impacts on Drinking Water Quality: Microcystis blooms (a 
form of blue-green algae) are also occurring. These blooms are thought 
to be a direct result of a combination of over-enrichment of the lake 
and the zebra mussel infestation. As these large blooms die and sink to 
the bottom, they commonly release chemicals that can produce a foul 
odor and musty taste that can be detected in tap water.
    <bullet>  Present and Future Impacts of Exotic Species: If these 
changes are related to zebra mussel invasion of the Lake, then what we 
are observing may be the tip of the iceberg. As other exotic species 
establish themselves, the Lake may go through continual disruptions in 
its biology.
    <bullet>  Lake Erie is the proverbial ``Canary in the Coal Mine'': 
Due to its relatively short water retention time, Lake Erie is 
ecologically susceptible and often the first of the Great Lakes 
affected by chemical and biological change. It is a bellwether for 
parts of the other Great Lakes, especially for shallow embayments such 
as Saginaw Bay, Michigan and Green Bay, Wisconsin.

    So, clearly there are ample reasons to justify our concerns 
regarding the changes in the Lake Erie ecosystem. But why is this 
happening again and what is different about the current situation as 
compared to the problem in the 1960's, 1970's, and 1980's?
    Many scientists suspect that zebra mussels and other exotic species 
such as round gobies are starting to reshape Lake Erie's ecosystem in 
ways that lake researchers have yet to fully fathom. Others theorize 
that the lake may be suffering from the combined effects of increased 
temperatures and lower lake levels. Whatever the reason, I am here 
today to assure this Committee and the public that EPA is keenly aware 
of the reoccurrence of this problem and that we are already taking 
steps to address many of the concerns raised in this hearing through 
activities that have been underway for some time. I will elaborate on 
two of these.
    In response to our identification of rising levels of phosphorus in 
Lake Erie, GLNPO has undertaken the $2M Lake Erie Supplemental Study of 
Trophic Status which began on June 17, 2002, and which is being 
cooperatively funded and managed by GLNPO ($500,000), Environment 
Canada, and a roster of the preeminent Lake Erie experts from more than 
20 universities and institutions, including Ohio University, the Ohio 
State University, and Case Western Reserve University among others.
    EPA is very pleased by the level of commitment of the researchers 
involved in this study. We view the study results as the critical 
element in our ability to address the issue of Lake Erie's changing 
ecosystem.
    Mr. Chairman, I feel strongly that the Lake Erie Supplemental Study 
of Trophic Status, which is currently funded, already underway, and 
being conducted in full cooperation with the Canadian government will 
help us identify, if not answer, many of the questions this committee 
has raised, and will help guide our solutions.
    The other effort which must be mentioned is the Lake Erie Lakewide 
Management Plan, or LaMP, that has been underway since 1995 and which 
includes participation by both Canadian and U.S. Federal, Provincial, 
State, and non-governmental organizations.
    LaMPs are required under the 1987 amendments to the Great Lakes 
Water Quality Agreement, originally signed by the United States and 
Canada in 1972. This historic agreement, created under the 1909 
Boundary Waters Treaty between the U.S. and Canada committed both 
countries ``to restore and maintain the chemical, physical and 
biological integrity of the waters of the Great Lakes basin 
ecosystem''. There is also a statutory requirement in the Great Lakes 
Critical Programs Act of 1990 that requires EPA to develop LaMPs for 
each of the Great Lakes.
    LaMPs are cooperative binational plans of action to assess, 
restore, protect and monitor the health of the individual Great Lakes. 
They are used to coordinate the work of the many governmental and non-
governmental partners involved in managing the Great Lakes. EPA and 
Environment Canada are the Federal co-leads for the Lake Erie LaMP. 
Other LaMP member agencies include 6 State and 3 Federal agencies in 
the U.S., 3 provincial and 3 Federal agencies in Canada, and one 
binational commission.
    LaMPs are shining examples of the ecosystem approach--the belief 
that management efforts should address environmental, economic and 
social factors in an integrated manner along ecological, rather than 
geopolitical, boundaries.
    The Lake Erie LaMP has already developed measures and 
recommendations to improve water quality, environmental quality, 
recreation, fish and wildlife habitats, and has identified remedies to 
address associated problems in the Lake Erie basin. The LaMP considers 
all existing relevant programs at all levels of government as well as 
at non-governmental agencies that can be used to implement the required 
remedial actions. And more importantly, the actions identified in the 
LaMP have been approved by the Canadian and U.S. Federal, State and 
provincial agencies involved in the effort.
    In terms of phosphorus and other nutrients, it is the goal of the 
Lake Erie LaMP that inputs from both point and non-point sources be 
managed to ensure that loadings are within bounds of sustainable 
watershed management. Currently, the Great Lakes Water Quality 
Agreement allows a maximum of 11,000 metric tons per year of phosphorus 
loadings from point and nonpoint sources.
    The Lake Erie Supplemental Study of Trophic Status will work with 
the LaMP to inform and support its goals for addressing nutrient issues 
within the basin, as well as other LaMP goals which seek to address 
problems related to water quality and environmental quality.
    I want to also mention that the work we are doing in Lake Erie 
supports the goals and objectives of the multi-agency U.S. Policy 
Committee's Great Lakes Strategy 2002 which was announced by EPA 
Administrator Whitman on April 2, 2002. This Strategy is a shared 
expression of the partners at the U.S. Federal, State, and tribal 
levels of government, working together to restore and protect the Great 
Lakes.
    Given that we are aware of the problem, that we have a scientific 
study in place to help us understand the situation and the decision 
support system required, and we have the LaMP as the proper delivery 
mechanism for the needed actions, what should our next steps be?
    We need to develop a full understanding of the relationship between 
external phosphorus inputs and the anoxia problem. There is no 
indication at this time that loadings from any sources have increased. 
There may be a need for more intensive monitoring of tributaries to 
Lake Erie and for a review of point source permits and compliance with 
their limits to see if there are facilities that may be inadvertently 
contributing to the present change in conditions. Before re-examining 
the phosphorus targets for Lake Erie we need to, at the very least, 
insure that existing programs to control and reduce point and nonpoint 
sources of nutrients to Lake Erie are fully implemented.
    Any future work on resetting binational phosphorus targets for Lake 
Erie would require extensive negotiations with our Canadian colleagues 
to revise the Great Lakes Water Quality Agreement. This would have to 
be followed by in-depth Federal-State discussions regarding what would 
be needed to achieve any newly set targets. Any such negotiations would 
need to be based on good monitoring data, ecosystem models (such as 
those developed by EPA's Office of Research and Development and GLNPO 
to diagnose the cause or causes of the decreased oxygen), and sound 
science.
    A likely part of any long-term solution to the problem may be to 
aggressively address and limit the introduction of exotic species into 
the Great Lakes. If zebra mussels are identified as the root cause of 
the anoxic conditions in Lake Erie, then we will need actions above and 
beyond the scope of what EPA can do to address this problem and to 
prevent future introductions that could cause even more problems in the 
lakes. I am sure you are all aware of the Asian Big Head Carp that is 
moving up the Illinois River and could enter the Great Lakes in the 
very near future. These voracious bottom feeders would further muddy an 
already complicated ecosystem in Lake Erie and in the rest of the 
lakes.
    In conclusion, I want to reiterate that what is happening in Lake 
Erie is not something new, but it's root causes may be. EPA is aware of 
this problem and we have mobilized the resources and expertise to help 
us determine what actions are needed to address this troubling 
situation.
    I again thank the Committee for the opportunity to address this 
important issue for the Great Lakes. I would be happy to take any 
questions that you may have.

                                 ______
                                 
  Responses of David A. Ullrich to Additional Questions from Senator 
                               Voinovich

    Question 1. Mr. Ullrich, please provide me with a summary of the 
funding sources available for research on Lake Erie.
    Response. There are several potential funding sources for Lake Erie 
research. Federal agencies that provide funds include NOAA (Sea Grant) 
and the U.S. Environmental Protection Agency (EPA), including EPA's 
Great Lakes National Program Office. The State of Ohio has provided 
funding in the past through the Lake Erie Protection Fund, the Ohio 
Environmental Protection Agency, and the Ohio Department of Natural 
Resources.

    Question 2. Mr. Ullrich, what, if any, research of the Lake Erie 
``dead zone'' has been funded by the Great Lakes Protection Fund?
    Response. The Great Lakes Protection Fund has not directly 
supported any research on Lake Erie anoxia. The Lake Erie Protection 
Fund, however, has supported almost $2 million in projects that address 
the changing Lake Erie ecosystem. These projects have served as a 
springboard for the EPA Lake Erie supplemental study.

    Question 3. Mr. Ullrich, are the targets for the reduction of 
external phosphorus inputs into Lake Erie set appropriately? Do they 
need to be revised?
    Response. Phosphorus reduction targets were based on water-quality 
models developed in the mid-1970's. Decreased phosphorus trends and 
improved oxygen levels throughout the 1980's indicate that external 
phosphorus loading targets have been appropriate until recently. 
Research efforts are underway to determine the reasons for the 
increases in phosphorus levels. Determinations about the P loading 
targets cannot be made until this research is complete.

    Question 4. Mr. Ullrich, how are aquatic nuisance species changing 
Lake Erie's ecosystem? What is U.S. EPA doing to address aquatic 
nuisance species already established in the Great Lakes and to prevent 
the future introduction of additional species?
    Response. Aquatic nuisance species (ANS) severely impact the Lake 
Erie ecosystem in multiple ways. ANS in Lake Erie have caused 
ecological changes to the lake by modifying the food web, changing 
water clarity, and disrupting predator/prey relationships. ANS are 
partially responsible for decreased populations of walleye and trout in 
parts of Lake Erie. One nuisance species, the round goby, may be 
responsible for the increase in Botulism E outbreaks in Lake Erie's 
eastern basin. Botulism E is communicable to humans. Furthermore, zebra 
mussels may cause sediment-bound phosphorus to ``recycle'' through the 
lake, contributing to the larger and more frequent dead zones and algal 
blooms within Lake Erie's central basin.
    Once introduced and established in an ecosystem, ANS can be 
impossible to eradicate. Even when control technology exists, these 
efforts are burdensome and costly. For example, over $10 million a year 
is spent on sea lamprey control to protect the Great Lakes fishery. 
Unfortunately, control technology does not exist for most ANS.
    EPA focuses on supporting efforts to prevent the future 
introduction and establishment of aquatic nuisance species. EPA has 
supported the development of an electrical barrier at the Chicago 
Sanitary and Ship Canal to prevent the exchange of organisms between 
the Great Lakes and Mississippi River systems. The agency is also 
working with the Great Lakes Commission to establish a rapid response 
plan that would coordinate Federal, State, and local responses to 
eliminate new introductions before they have a chance to become 
established. EPA is continuing to pursue several efforts that would 
decrease the threat of new introductions via ballast water from cargo 
ships. In coordination with NOAA and USCG, we are investigating the 
threat of so-called ``NOBOB'' (no ballast on board) vessels. (These 
vessels have pumped out their ballast tanks prior to entering the Great 
Lakes system, however there are still organisms in the residual, 
unpumpable ballast that remains in their tanks.) EPA has also 
contributed to the funding of ballast water treatment methods, in 
particular the testing of ozone and UV technology. Finally, EPA has 
funded a wide variety of ANS education/outreach efforts.
    The Great Lakes Panel on ANS, established in the early 1990's, 
advises the national ANS Task Force and coordinates prevention and 
control efforts and education/outreach activities within the Great 
Lakes. EPA's Great Lakes National Program Office has long been an 
active member of the Great Lakes Panel on ANS.

    Question 5. Mr. Ullrich, how many beach closures in Ohio last year 
were caused by Algae or bacteria discharged from municipal sewer 
systems?
    Response. Of 51 Ohio Lake Erie beaches that reported on their 
status in 2001, 13 reported no-swimming advisories, all due to elevated 
levels of indicator bacteria. High levels of these bacteria indicate 
the possible presence of fecal contamination. Thirteen beaches were 
under no-swimming advisories for a total of 342 beach days. Eight-two 
percent of the advisory postings were related primarily to storm water 
runoff; 5 percent were due to sewage-system overflows, and 13 percent 
of the advisories were due to unknown sources.

    Question 6. Mr. Ullrich, how exactly is the lake's ecosystem 
affected by climate changes and lower lake levels?
    Response. The regional or localized impacts of global climate 
change cannot be predicted with any confidence at this time. In its 
June 2001 Report, Climate Change Science: An Analysis of Some Key 
Questions, the National Academy of Sciences cautioned: ``Because there 
is considerable uncertainty in the current understanding of how the 
climate system varies naturally and reacts to emissions of greenhouse 
gases and aerosols, current estimates of the magnitude of future 
warming should be regarded as tentative and subject to future 
adjustments (either upward or downward).'' And the United States' 
recent Climate Action Report--2002, that was submitted to the United 
Nations Framework Convention on Climate Change in May, further advised: 
``One of the weakest links in our knowledge is the connection between 
global and regional predictions of climate change. The National 
Research Council's response to the President's request for a review of 
climate change policy specifically noted that fundamental scientific 
questions remain regarding the specifics of regional and local 
projections. Predicting the potential impacts of climate change is 
compounded by a lack of understanding of the sensitivity of many 
environmental systems and resources--both managed and unmanaged--to 
climate change.''
    While science cannot currently answer whether climate change would 
lower or
    raise Great Lakes levels, it is understood that lower lake levels 
influence the severity of the dissolved oxygen problem in the central 
basin. And higher temperatures would cause increased rates of oxygen 
loss. The warmer the water, the faster the organisms use oxygen and the 
less oxygen the water is physically capable of holding. Lower lake 
levels reduce the total volume of the layer of cooler bottom water, 
thereby making the oxygen depletion occur more quickly in this layer. 
Higher temperatures would also have the likely effect of extending the 
period of seasonal stratification, giving more time for oxygen 
depletion to occur.

    Question 7. Mr. Ullrich, how successful have binational agreements 
such as the Great Lakes Water Quality Agreement and the Boundary Water 
Treaty been in Restoring the Great Lakes fishery and ecosystem? What 
were the particular challenges and goals identified in these 
agreements? What still needs to be done to achieve those goals?
    Response. The Great Lakes Water Quality Agreement (GLWQA)--an 
executive agreement established in 1972 under the Boundary Water Treaty 
of 1909--has been very successful in guiding the U.S. and Canadian 
Great Lakes programs. It continues to be a model for international 
cooperation on a shared natural resource. EPA has hosted many foreign 
visitors who have requested briefs on the Agreement in order to use it 
as a model in their home countries.
    The original GLWQA of 1972 focused on the problem of excess 
nutrients. It set goals for phosphorus loadings, including those that 
led to the restoration of Lake Erie. The 1978 revisions emphasized 
controls for toxic contaminants. Specific objectives for many 
contaminants were established to help guide U.S. and Canadian domestic 
pollution reduction programs, and as a result, contaminant levels in 
fish and colonial nesting birds have been significantly reduced. This 
is particularly true for DDT and PCBs. The 1987 revisions to the GLWQA 
focused on using an ``ecosystem approach'' and established the use of 
Lakewide Management Plans (LaMPs) and Remedial Action Plans (RAPs). 
These management plans are holistic efforts that move beyond problems 
caused solely by toxic contaminants to address ecosystemic problems 
such as habitat loss and impacts on fish and wildlife populations.
    It should be noted that the Great Lakes Fishery Commission, which 
was established in 1955 by the Canadian/U.S. Convention on Great Lakes 
Fisheries, coordinates fisheries research, controls the invasive sea 
lamprey, and facilitates cooperative fishery management, including 
stocking, among the Federal, State, provincial, and tribal natural 
resource management agencies. The Commission develops fishery 
management plans and fish community goals for each of the Great Lakes. 
For example, the LaMPs are coordinating their goals with those 
contained in the fishery management plans. The GLWQA has helped restore 
and protect aquatic habitats, improve water quality, and limit inputs 
of toxic contaminants, resulting in improved conditions that promote 
the health of the Great Lakes fishery.
    The Great Lakes Strategy of 2002 (www.epa.gov/grtlakes/gls/
glstoc.html, also attached) identifies high-priority, basin-wide 
activities that need to be accomplished to fulfill the goals of the 
GLWQA. Lake-specific activities are identified in the LaMPs and the 
Great Lakes Fishery Commission's fishery management plans.

    Question 8. Mr. Ullrich, what are U.S. EPA's priorities for Lake 
Erie?
    Response. The collective, basin-wide vision for the Great Lakes is 
outlined in the Great Lakes Strategy of 2002:

    <bullet>  The Great Lakes Basin is a healthy natural environment 
for
    wildlife and people.
    <bullet>  All Great Lakes beaches are open for swimming.
    <bullet>  All Great Lakes fish are safe to eat.
    <bullet>  The Great Lakes are protected as a safe source of 
drinking water.

    Shared binational goals more specific to Lake Erie are outlined in 
the Lake Erie Lakewide Management Plan. Through international 
agreement, EPA takes the U.S. lead in developing and implementing this 
plan. The EPA, through its partnership work with other Federal and 
State agencies in the United States and with the Federal and Provincial 
governments of Canada, has adopted an ecosystem approach to restoring 
and maintaining the physical, chemical, and biological integrity of 
Lake Erie. The most recent Lake Erie LaMP was published in Spring 2002 
(www.epa.gov/grtlakes/lakeerie/2002update/index.html).
    The Lake Erie LaMP uses an adaptive-management approach, depending 
on senior management decisions to change priorities according to 
unexpected and often disturbing trends within the lake, such as the 
anoxia trend in the central basin. In broad terms, the Lake Erie LaMP 
bi-national work group has envisioned a future Lake Erie in which 
phosphorus and nitrate loadings from all sources are reduced, and 
critical ecosystem habitat is restored, enhanced, and maintained for 
current and future generations.
    Accordingly, key EPA strategic actions within the Lake Erie basin 
have focused on, and will continue to focus on, demonstrating and 
encouraging activities to reduce phosphorus and nitrate loadings to 
Lake Erie, and will focus on habitat-restoration and preservation 
activities.
    Many of these activities will require EPA to work closely with 
State and local governments, since those governments hold the primary 
jurisdiction to conduct many of the actions necessary to improve the 
physical, chemical and biological integrity of Lake Erie.

    Question 9. Mr. Ullrich, given all the Federal, State, local, 
international, and non-profit entities involved in restoring and 
protecting the Great Lakes, how can all these efforts be better 
coordinated and funding sources be stretched farther?
    Response. The framework for multi-agency, multi-organization 
coordination is in place for the Great Lakes.
    The Lake Erie Lakewide Management Plan (LaMP) identifies problems, 
establishes goals and initiates management actions to address the 
beneficial-use impairments of Lake Erie. The LaMP work group and 
management committee is comprised of a variety of binational Federal, 
State, provincial, and non-profit agencies that have responsibilities 
for pollution control and natural resource management. Through the 
LaMP, opportunities to creatively use limited resources are identified 
and pursued to the extent practicable.
    At the domestic, basin-wide scale, the Great Lakes Strategy of 2002 
was created to help coordinate and streamline efforts of the many 
governmental partners involved with protecting the Great Lakes. The 
Strategy is managed by the U.S. Policy Committee, a forum of senior-
level U.S. representatives from the Federal, State, and Tribal agencies 
responsible for environmental and natural resources management of the 
Great Lakes. The Strategy focuses on multi-Lake and basin-wide 
environmental issues and establishes common goals that the governmental 
partners will work toward.
    On a binational, basin-wide scale, activities are coordinated 
through the Binational Executive Committee (BEC), a forum of U.S. and 
Canadian senior managers. The BEC supports the assessment and reporting 
of health of the Great Lakes through the State of the Lakes Ecosystem 
Conference (SOLEC), as required under the terms of the GLWQA, and 
through the State of the Great Lakes biennial report issued by the 
SOLEC steering committee. BEC discussions are also currently underway 
to improve coordination of Great Lake monitoring programs.

    Question 10. Mr. Ullrich, how can we improve phosphorus monitoring 
data and ecosystem modeling in the Lake Erie basin?
    Response. EPA's Great Lakes National Program Office's annual 
monitoring program continues to provide data on P concentrations in the 
lake. Improvements in phosphorus trend and ecological monitoring 
potentially could be facilitated by:

    <bullet>  An assessment of total loadings to determine how much 
phosphorus is going into Lake Erie.
    <bullet>  More extensive source monitoring to determine where 
phosphorus originates. This requires estimating contributions from both 
point sources, including waste water treatment plants (WWTP), and non-
point sources, including agricultural runoff, combined sewer overflows 
(CSOs), and storm sewer overflows (SSOs).

    Models exist for Lake Erie, but they may need to be rebuilt to take 
into account the changes to this important ecosystem, particularly the 
influences of non-native species (i.e., the relationship between zebra 
mussels and phosphorus cycling within Lake Erie). Any changes to 
monitoring and ecosystem modeling for Lake Erie would occur in the 
context of available Federal, State, and Provincial resources.

                                 ______
                                 
     INTRODUCING THE GREAT LAKES STRATEGY 2002: A PLAN FOR THE NEW 
                               MILLENNIUM

       DEVELOPED BY THE U.S. POLICY COMMITTEE FOR THE GREAT LAKES
U.S. ARMY CORPS OF ENGINEERS--U.S. ENVIRONMENTAL PROTECTION AGENCY-U.S. 
                              COAST GUARD
   U.S. DEPARTMENT OF AGRICULTURE--NATIONAL OCEANIC AND ATMOSPHERIC 
                             ADMINISTRATION
        U.S. FISH AND WILDLIFE SERVICE--U. S. GEOLOGICAL SURVEY
    <BULLET>  AGENCY FOR TOXIC SUBSTANCES' AND DISEASE REGISTRY--U.S. 
FOREST SERVICE GREAT LAKES FISHERY COMMISSION
    ILLINOIS INDIANA MICHIGAN MINNESOTA NEW YORK OHIO PENNSYLVANIA' 
                               WISCONSIN
                     GREAT LAKES TRIBAL GOVERNMENTS

    As the largest freshwater system on the face of the earth, the 
Great Lakes ecosystem holds the key to the quality of life and economic 
prosperity for tens of millions of people. While significant progress 
has been made to restore the environmental health of the Great Lakes, 
much work remains to be done. Chemical or biological contaminants still 
limit our ability to eat the fish we catch. Prevent us from swimming at 
our public beaches, and can make us vulnerable to health problems. 
Natural areas have been degraded, and the diversity of our fish and 
wildlife populations is increasingly threatened. The U.S. Policy 
Committee has developed Great Lakes Strategy 2002 to advance Great 
Lakes protection and restoration efforts in the new millennium.
    Great Lakes Strategy 2002 was created by the U.S. Policy 
Committee--a forum of senior-level representatives from the Federal, 
State, and Tribal agencies responsible for environmental and natural 
resources management of the Great Lakes--to help coordinate and 
streamline efforts of the many governmental partners involved with 
protecting the Great Lakes. The Strategy focuses on multi-Lake and 
basin-wide environmental issues and establishes common goals that the 
governmental partners will work toward. It supports existing efforts 
underway, including Lakewide Management Plans and Remedial Action Plans 
for Areas of Concern, by addressing issues that are beyond the scope of 
these programs and helping integrate them into an overall basinwide 
context. It also advances the implementation of the United States' 
responsibilities under the Great Lakes Water Quality Agreement of 1987;
    The Strategy was developed cooperatively by the Federal, State, and 
Tribal, members of the U.S. Policy Committee, with the consultation of 
the Great Lakes public. Public workshops. were held throughout the 
basin--in Duluth, Chicago, Detroit, and Niagara Fails--to solicit 
comments from local governments, industry, nongovernmental 
environmental organizations, and the general public. Together we have 
developed a shared, long-range vision for the Great Lakes:

The Vision--The Great Lakes Basin is a healthy natural environment for 
        wildlife and people
    <bullet>  All Great Lakes beaches are open for swimming.
    <bullet>  All Great Lakes fish are safe to eat.
    <bullet>  The Great Lakes are protected as a safe source of 
drinking water.
    In support of this vision, the member agencies of the U.S. Policy 
Committee commit to work together to ``protect and restore the 
chemical, physical, and biological integrity of the Great Lakes Basin 
Ecosystem.'' The Strategy sets forth specific objectives and actions 
that will reduce contaminants, restore habitat, and protect the living 
resources of the basin. Specific objectives in this ambitious plan 
include:
    <bullet>  By 2005, clean-up and delist 3 Areas of Concern, with a 
cumulative total of 10 by 2010.
    <bullet>  By 2007, reduce concentrations of PCBs in lake trout and 
walleye by 25 percent..
    <bullet>  By 2007, establish 300,000 acres of buffer strips in 
agricultural lands.
    <bullet>  By 2010, 90 percent of Great Lakes beaches will be open 
95 percent of the season.
    <bullet>  By 2010, restore or enhance 100,000 acres of wetlands in 
the Basin.
    <bullet>  By 2010, substantially reduce the further introduction of 
invasive species, both aquatic and terrestrial, to the Great Lakes 
Basin Ecosystem.
    <bullet>  Accelerate the pace of sediment remediation, leading to 
the clean-up of all sites by 2025.
    Great Lakes Strategy 2002 will guide the efforts of the 
governmental partners in the U.S. Policy Committee for several years. 
Working with the broader Great Lakes community, the U.S. Policy 
Committee looks forward to implementing this ``Great Plan for the Great 
Lakes.''

                        RENEWING THE PARTNERSHIP

    Since the signing of the 1972 Great Lakes Water Quality Agreement 
(GLWQA), programs and policies to restore and protect the Great Lakes 
have served as a worldwide model for inter-jurisdictional cooperative 
environmental protection arid natural resource management. Toxic 
substances in the environment have been greatly reduced and the 
ecosystem shows signs of recovery. Billions of dollars in wastewater 
Infrastructure Improvements arid bans, on high phosphate household 
detergents have largely addressed the excess nutrient loads which 
choked the Great Lakes with nuisance algae. The treatment of Industrial 
effluent discharges has greatly improved water quality. Multimedia 
Initiatives to prevent pollution from persistent, toxic substances, 
have evolved to become a national program. Multi-stakeholder lake-wide 
and local stewardship initiatives are serving to Identify and protect 
habitats which support an important variety of plants, fish, 
terrestrial, wildlife, and other important species found in this world-
class freshwater ecosystem. Despite these impressive accomplishments, 
much work remains to be done to ensure a healthy Great Lakes ecosystem.
    Great Lakes Strategy 2602 (hereunder the ``Strategy') was created 
by the U.S. Policy Committee (USPC)--a forum of senior-level 
representatives from the Federal, State, and Tribal governmental 
agencies that share responsibility for environmental protection and 
natural resources management of the Great Lakes--to advance the 
restoration and protection of the Great Lakes Basin Ecosystem. The 
purview of this Strategy is focused on U.S. Federal, State and Tribal 
government environmental protection and natural resource management 
activities as they relate to fulfilling the goals of the GLWQA.\1\ 
Activities such as economic development, while related the goals of 
this Strategy, are not specifically addressed. This Strategy will serve 
to coordinate and streamline efforts of the USPC, by focusing and 
establishing a set of common goals on high priority multi-Lake and 
basin-wide environmental issues. The Strategy employs and supports 
multi-stakeholder environmental protection efforts in the Great Lakes, 
such as Lakewide Management Plans (LaMPs) and Remedial Action Plans 
(RAPs) for Areas of Concern (AOCs), by integrating them in an overall 
basin-wide context to address issues that are beyond the individual 
scopes of these programs.
---------------------------------------------------------------------------
     \1\The GLWQA, first signed by President Nixon and Prime Minister 
Trudeau in 1972, establishes a joint, binational commitment by the 
United States and Canada to restore and maintain the chemical, physical 
and biological integrity of the Great Lakes Basin Ecosystem.
---------------------------------------------------------------------------
    The restoration and protection of the Great Lakes ecosystem is a 
massive undertaking. This international watershed Includes two nations, 
eight U.S. States, a Canadian Province\2\ , more than 40 Tribes and 
First Nations\3\, and many local governments. Only through a 
cooperative partnership can we ensure its health. Great Lakes Strategy 
2002 will guide the efforts of the USPC for the next several years. 
Working with the broader Great Lakes community, the USPC looks forward 
to implementing this ``Great Plan for the Great Lakes.''
---------------------------------------------------------------------------
     \2\While not located within the Great Lakes Basin Watershed, the 
Province of Quebec is a partner in Annex 2001 of the Great Lakes 
Charter and other Great Lakes initiatives.
     \3\ Canada refers to communities of indigenous people as ``First 
Nations''.
---------------------------------------------------------------------------
Why the Great Lakes Are Important Regionally, Nationally, And Globally
    The Great Lakes basin is home to more than 30 million people. It is 
where many of us live, work, and play. The Great Lakes--deep fresh 
water seas--are the largest system of surface freshwater on the Earth, 
spanning about 800 miles and containing about 20 percent of the world's 
surface freshwater resource (5,500 cubic miles or about six quadrillion 
gallons of water). The water in the Great Lakes accounts for more than 
90 percent of the surface freshwater in the United States. In the 
United States, the Great Lakes are considered a fourth seacoast. The 
total shoreline (U.S. and Canadian, including connecting channels and 
islands) is more than 10,000 miles, or about 40 percent of the earth's 
circumference.
    The Great Lakes basin holds major urbanized areas that are home to 
more than one-tenth of the population of the United States and one-
quarter of the population of Canada (a total of more than 33 million 
people). Over 30 million people in the United States and in Canada rely 
on the Great Lakes watershed as a source of drinking water.
    The basin contains many thriving, ecologically rich areas. The 
Great Lakes ecosystem includes such diverse elements as northern 
evergreen forests, deciduous forests, tall grass and lake plain 
prairies, sandy barrens, alvars, dunes, and coastal wetlands. Over 30 
of the basin's biological communities and over 100 species are globally 
rare or found only in the Great Lakes basin.
    The wealth of natural resources has long made the region a 
heartland of both the U.S. and Canadian industrial economy. Economic 
activity in the Great Lakes basin exceeds $200 billion a year. There 
are notable concentrations of multi-sector manufacturing facilities in 
each of the Great Lakes States. The Region generates more than 50 
percent of the total U.S. manufacturing output. About one-third of the 
Great Lakes basin's land is in agricultural use. The eight Great Lakes 
States account for 30 percent of nationwide agricultural sales, a $45 
billion industry. The international shipping trade annually transports 
50 million tons of cargo through the Great Lakes. Main commodities are 
grain, iron ore, coal, coke, and petroleum products. Almost 50 percent 
of this cargo travels to and from oversea ports, especially Europe, the 
Middle East, and Africa.
    Recreation is also an important part of the economy. The annual 
value of the commercial and sport fishery is estimated at over $4.5 
billion. The eight Great Lakes States have about 3.7 million registered 
recreational boats, or about one-third of the Nation's total. The 600-
plus State parks in the Region accommodate more than 250 million 
visitors each year. It has been estimated that nearly 5.5 million 
hunters spend more than $2.6 billion annually. A four season climate 
supports many other types of recreation.
    The economic potential of the Great Lakes region is closely tied to 
the health of the ecosystem. The challenge of Great Lakes environmental 
protection and natural resource management is to balance the use of the 
resources of this unique ecosystem with its protection, restoration, 
and conservation.

Our Commitment
    Despite their large size, the Great Lakes are sensitive to a wide 
range of stressors,. including toxic pollution, invasive species, and 
habitat degradation. The USPC is dedicated to combating these and other 
important stressors in order to carry out our mission to restore and 
protect the chemical, physical, and biological integrity of the Great 
Lakes Basin Ecosystem for the benefit of its citizens and future 
generations. In addition, the USPC will strive to ensure that the Great 
Lakes Region does not adversely affect other ecosystems, outside and/or 
downstream of the Basin. The USPC has been working to address these 
problems since the early 1990's, following the development of the 
previous Great Lakes Strategy. This Strategy Is a re-commitment that 
expands upon and incorporates lessons learned from that endeavor.
    The USPC fully supports the achievement of the goals, objectives, 
and actions set forth In this Strategy and will use it to monitor and 
evaluate progress. The near-term goals, objectives, and actions' are 
intended to be ambitious but achievable given current funding, 
resources, and regulatory requirements. Recognizing that governmental 
agencies' budgets are appropriated annually or biennially, successful 
implementation will depend, in part, on continued adequate funding and 
resources and on-going implementation and enforcement of current 
regulatory requirements. The mid-term goals, objectives, and actions 
represent the USPC's assessment of reasonable progress over a longer 
timeframe, while recognizing that there is a significant degree of 
uncertainty Involved with protecting and restoring a large, dynamic 
ecosystem such as the Great Lakes. The USPC will review and adjust 
these mid-term targets, as appropriate, to manage protection and 
restoration efforts hi an adaptive manner. The Strategy should not be 
construed as a commitment by the U.S. Government for additional funding 
and resources for its implementation. Nor does it represent a 
commitment by the U.S. Government to adopt new regulations. In future 
meetings, where warranted, the USPC will carefully consider and 
recommend corrective measures to facilitate Strategy implementation. 
The USPC will update the Strategy periodically. International issues 
will be discussed between the USPC and Canadian counterparts at 
Binational Executive Committee (BEC) meetings, a similar high-level 
forum with representatives from both countries, which are typically 
conducted twice a year.

Our Long-Term Vision
    The people of the Great Lakes Region will know we have been 
successful in our environmental protection efforts when the need to 
issue health advisories for fish consumption, beaches, or drinking 
water is eliminated; the aquatic environment supports a balanced, self-
sustaining fishery; the full range of native species, natural 
communities and ecological systems are restored and protected; land use 
and water quantity decisions are made with a comprehensive 
understanding of the environment; and environmental, and economic 
prosperity are maintained in a sustainable balance.
    This long-term vision can be expressed simply, as follows:
The Vision: The Great Lakes Basin is a healthy natural environment for 
        wildlife and people.
    <bullet>  All Great Lakes beaches are open for swimming.
    <bullet>  All Great Lakes fish are safe to eat.
    <bullet>  The Great Lakes are protected as a safe source of 
drinking water.

Our Collective Goals and Priorities
    In keeping with our mission and long-term vision for the Great 
Lakes, the member agencies of the IJSPC will work together to protect 
and restore the chemical, physical, and biological integrity of the 
Great Lakes Basin Ecosystem. Accordingly, we have expressed our 
strategic priorities under four major goals:
    1. Chemical Integrity--Reduce toxic substances in the Great Lakes 
Basin Ecosystem, with an emphasis on persistent bioaccumulative toxic 
(PBTs) substances, so that all organisms are protected. Over time, 
these substances will be virtually eliminated. Maintain an appropriate 
nutrient balance In the Great Lakes to ensure aquatic ecosystem health.
    2. Physical Integrity--Protect and restore the physical integrity 
of the Great Lakes, supporting habitats of healthy and diverse 
communities of plants, fish and other aquatic life, and wildlife In the 
Great Lakes Basin Ecosystem. Protect Great Lakes water as a regional 
natural resource from non-sustainable diversions and exports. Promote 
improved land use practices and the enhancement of the Great Lakes 
Basin as a source of recreatio n and economic prosperity.
    3. Biological Integrity-Protect human and biological health. 
Restore and maintain stable, diverse and self-sustaining populations of 
predominantly native fish and other aquatic life, wildlife, and plants 
In the Great Lakes Basin Ecosystem. Control and eliminate pathogens and 
prevent the introduction and spread of invasive species, to protect 
human health, ecological health, and economic vitality.
    4. Working Together--Work together as an environmental community to 
establish effective programs, coordinate authorities and resources, 
report on progress, and hold forums for information exchange and 
collective decisionmaking, so the Great Lakes are protected and the 
objectives of the GLWQA are achieved. This last goal acknowledges the 
management and institutional challenges to effectively coordinate 
programs and authorities to achieve the restoration and protection of 
the Great Lakes.
    Under each of the four goals, this Strategy identifies major 
environmental challenges facing the Great Lakes Basin Ecosystem. Each 
section, which represents a specific environmental challenge, provides 
a description of the issue, lists the major current or future 
governmental program(s) to address the issue, sets forth an ambitious 
objective(s), which typically includes a date and a measurable 
environmental outcome, and lists specific key actions to achieve or 
support the objective(s). Some of the key actions in a particular 
section may support a variety of environmental objectives in the 
Strategy, but are listed only once to avoid redundancy.

Chemical Integrity: Reducing and Eliminating the Threat of Toxic 
        Pollution and Excess Nutrients
    Goal: To reduce toxic substances in the Great Lakes Basin 
Ecosystem--with an emphasis on persistent toxic substances--so that all 
organisms are adequately protected. Over time, these substances will be 
virtually eliminated. Maintain and appropriate nutrient balance in the 
Great Lakes to ensure aquatic ecosystem health.
    Due in part to the long retention time of water in the system (up 
to 190 years in Lake Superior), the Great Lakes are adversely impacted 
by toxic substances. Substances which are persistent and bioaccumulate 
are the greatest threat. The presence of toxic substances at certain 
concentrations can negatively impact human health. For example, there 
are currently numerous fish advisories in the Great Lakes which 
indicate that toxic substances are still accumulating in the food chain 
at unacceptable levels. In addition, new research is identifying 
potential emerging problems with respect to toxic substances. The 
possible endocrine disrupting nature of some chemicals could be the 
cause of human health effects of serious concern.
    The sources of pollution include air deposition, industrial and 
municipal dischargers, previously contaminated sediments, runoff from 
farms and urban areas, and contributions of pollution from waste sites. 
Much progress has been made to decrease the threat of toxic substances 
in the Great Lakes Basin. Levels of most toxic substances' have 
significantly decreased over the time. However, chemical inputs to the 
Great Lakes still continue, causing unacceptable concentrations of 
these chemicals in water and fish tissue. Many of these toxic inputs 
are the result of air deposition and may come from other areas of the 
continent, or from global long-range transport. Achieving further 
reductions, leading to the virtual elimination of PBTs, is still a 
major priority.
    The Great Lakes Region has long been a site for innovative 
regulatory efforts to protect human health and the health of the 
environment Efforts such as the phase-out of mixing zones (the use of 
dilution to reduce concentrations in. discharges) for PBTs are now in 
place and may serve, as models fox the rest of the Nation, where 
appropriate.

                IMPLEMENTING THE GREAT LAKES INITIATIVE

    A number of regulatory programs provide a foundation for the 
cleanup and protection of the Great takes. An important tool was 
developed through the Great Lakes Water Quality Initiative (GLI). USEPA 
and the States developed the Great Lakes Water Quality Guidance (the 
Guidance) that Includes water quality standards and implementation 
procedures for the Great Lakes system. It consists of water quality 
criteria to protect aquatic life, human health, and wildlife, and 
contains antidegradation policies and implementation procedures 
specific to the Great Lakes. Equally important, it provides methods for 
deriving water quality criteria that can reflect bioaccumulation and 
chemical additivity, providing States and Tribes with a tool to address 
a universe of pollutants that might affect the Great Lakes. In 
addition, the Guidance provides a method for States to implement their 
narrative water quality criteria (``no toxics in toxic amounts''), even 
when there are not enough data to support a numeric water quality 
criterion. This program is expected to reduce direct toxic water 
discharges by six to eight million pounds per year.
    Water quality standards and National Pollutant Discharge 
Elimination System (NPDES) permit implementation rules consistent with 
the Guidance are now in place in all Great Lakes States. The States are 
currently issuing permits based on those standards. The Great Lakes 
Stales' work in this area has been exemplary and has positioned the 
Great Lakes to be a world class leader with regard to advancing water 
quality regulatory protection.

Key Objectives:
    <bullet>  By 2006, 100 percent of all NPDES permitted discharges to 
the Lakes or major tributaries will have permit limits that reflect the 
Guidance's water quality standards, where applicable.
Key Actions:
    <bullet>  USEPA will work with the States and eligible Tribes as 
they are beginning to incorporate the Guidance into their regulatory 
programs in order to help Stales and eligible Tribes identify and 
correct problems. USEPA will provide technical assistance, permit 
writing training, and other training courses.

                 ESTABLISHING TOTAL MAXIMUM DAILY LOADS

    Under Section 303(d) of the Clean Water Act, States have listed, 
with Federal approval, portions of the Great Lakes and their 
tributaries as ``impaired waters.'' These waters do not meet the 
approved State water quality standards even after permits or other 
pollution control requirements have been issued. The Clean Water Act 
requires that States and authorized Tribes address these impaired 
waters by developing a Total Maximum Daily Load (TMDL) determination 
which specifies the maximum amount of a specific pollutant that a 
waterbody can receive from multiple pathways, including stormwater 
runoff and air deposition, and still meet water quality standards 
(Including the GLI, where applicable).
    Recent State actions have established priority rankings for 
impaired waters, including the Great Lakes and have scheduled TMDL 
development for these waters. The TMDL effort for each of the Great 
Lakes will be described in the TMDL Great Lakes Strategy, which will be 
discussed in the next LaMP update and closely linked to lakewide 
management planning. The development and use of Innovative approaches 
will also be considered in order to expedite the improvement of water 
quality and removal of impairments.

Key Objectives:
    <bullet>  By 2013, complete TMDLs for each Great Lake and Great 
Lake tributary listed on each State's 1998 303(d) list. Complete TMDLS 
for all waterbodies subsequently added to future 303(d) lists no later 
than 15 years after their first appearance on the list.

Key Actions:
    <bullet>  By 2002, include an update on the status of the Great 
Lakes TMDL Strategy in each of the LaMP updates.
    <bullet>  By 2004, USEPA, with assistance from States, will 
complete the Great Lakes TMDL Strategy, which will include EPA, States, 
and Tribal roles and responsibilities for completing TMDLs for the 
Great Lakes and their tributaries.
    Continue to explore innovative or alternative approaches for 
developing TMDLs to address impaired waters and for implementing 
programs to restore these waters.
    <bullet>  USEPA will assist the States and Tribes in their 
development of TMDLs for waterbodies tributary to the Great Lakes by 
providing training, resources, guidance, and technical support as 
needed.
    <bullet>  The U.S. Geological Survey (USGS) will provide technical 
assistance to States, Tribes, and local agencies in developing TMDL5, 
including data and information on Great Lakes tributaries, by 
undertaking in-depth studies with State and local agencies through the 
Cooperative Water-Resources Investigations Program.

 ACHIEVING THE CHALLENGES OF THE GREAT LAKES BINATIONAL TOXICS STRATEGY

    On April 7, 1997 the governments of Canada and the United States 
adopted the Great Lakes Binational Toxics Strategy (GLBTS) for the 
virtual elimination of persistent toxic substances in the Great Lakes, 
setting a precedent for cooperation between the two countries in the 
area of toxic reductions. For the first time, the United States and 
Canada acted together to establish specific, quantitative reduction 
targets for chemical substances. The GLBTS uses pollution prevention as 
the principal tool in achieving results.
    Level! substances in the GLBTS Include PCBs, mercury, dioxins and 
furans, five bioaccumulative pesticides (chlordane, aldrin/dieldrin, 
DDT, mirex, and toxaphene), octachlorostyrene, alkyl-lead, 
hexacblorobenzene, and benzo(a)pyrene. The GLBTS establishes reduction 
targets for the Level I Substances, and progress In meeting these 
targets is tracked. Management of Level II Substances, undertaken 
through pollution prevention activities and In compliance with the laws 
and policies, of each country, will be at the discretion of the various 
stakeholders of the GLBTS.
    The GLBTS implementation emphasizes voluntary approaches and is 
carried out in a flexible, participatory, and action-oriented manner. 
Progress on GLBTS implementation is ongoing. During the first 3 years 
of implementation, under a mercury reduction challenge, the chlorine 
Industrial sector reduced consumption of mercury by 42 percent (on a 
production adjusted basis). A number of key partnerships have also been 
initiated with the health care sector and the iron and steel sector to 
explore other toxics reduction and pollution prevention opportunities.

Key Objectives:
    By 2006, achieve all challenge goals of the GLBTS, making 
measurable and reportable progress, particularly:
    <bullet>  A 90 percent reduction nationally of high level PCBs 
(greater than 500 ppm) used in electrical equipment.
    <bullet>  A 50 percent reduction nationally in the deliberate use 
and a 50 percent reduction nationally in the release of mercury from 
sources resulting from human activity,
    <bullet>  A 75 percent reduction nationally in total releases of 
dioxins and furans from sources resulting from human activity.

Key Actions:
    <bullet>  By 2006, create ten additional voluntary partnerships 
with sources that use or release persistent toxic substances.
    <bullet>  Continue to initiate pesticide Clean Sweep programs in 
the Basin to promote the safe disposal and elimination of toxic 
substances.
    <bullet>  By 2003, investigate the contribution of backyard refuse 
burning to total releases of dioxins and furans and if appropriate, 
initiate State and local programs to provide affordable local 
alternatives to backyard refuse burning.
    <bullet>  By 2007, evaluate the implementation of the GLBTS and 
develop a process to renew commitments and challenges.

                 ADDRESSING IMPACTS FROM AIR DEPOSITION

    Great Lakes researchers have collected a convincing amount of data 
demonstrating that toxic pollutants emitted into the atmosphere are 
being deposited directly into the Great Lakes, or deposited into inland 
ecosystems with subsequent transport to the Great Lakes by tributary 
flows and other processes. Furthermore, toxic air pollutants may be 
transported short or long distances from their original sources and 
some chemicals are transported atmospherically on a global scale. The 
Lake Michigan Mass Balance Study (LMMB), which focuses on four 
chemicals that are representative of classes of pollutants in the Great 
Lakes (PCBs, tram-nonachlor, atrazine, and mercury), estimates that 
1600 pounds of mercury and 3400 pounds of PCBs are deposited into Lake 
Michigan every year. Fish consumption advisories remain in effect in 
the Great Lakes for mercury, PCBs, and other pollutants, and 
atmospheric deposition is known to be a major contributor of these 
substances.
    Under the Clean Air Act (CAA), USEPA has been working to reduce 
emissions of toxic pollutants through regulatory and non-regulatory 
methods. Under the Maximum Available Control Technology (MACF) program, 
IJSEPA Is using a performance-based approach to controlling toxic air 
pollutants. Since 1993, MACF standards have been developed by USEPA for 
over 80 source categories, with additional source categories still 
under development\4\.
---------------------------------------------------------------------------
     \4\Regulations for large municipal waste combustors that have 
recently been fully implemented and regulations for medical waste and 
small municipal waste incinerators that will be implemented in 2002 and 
2005, respectively, will greatly reduce mercury and dioxin emissions 
from these sources.
---------------------------------------------------------------------------
    State agencies and USEPA have also developed voluntary partnerships 
and agreements with facilities to reduce their toxics use, including 
steel mills, hospitals, schools, automobile manufacturers, dairy farms 
and dental offices.
    In response to the mounting evidence of air deposition pollution to 
water bodies, Congress included the Great Waters program (section 
112(m)) in the 1990 Clean Air Act Amendments. This program requires 
USEPA, in cooperation with the National Oceanic and Atmospheric 
Administration (NOAA), to investigate the air deposition of toxic air 
pollutants to the Great Lakes and other water bodies by establishing 
sampling networks, investigating sources, assessing the contribution of 
air deposition to water quality violations, and determining if the 
current Clean Air Act provisions are sufficient to prevent serious 
adverse effects to public health and the environment.
    Since 1990, the Integrated Atmospheric Deposition Network (IADN) 
has monitored deposition rates of priority air toxic pollutants to the 
Great Lakes. In addition, the eight Great Lakes States, the Province of 
Ontario and the Great Lakes Commission have developed the Great Lakes 
Regional Air Toxics Emissions Inventory and Regional Air Pollutant 
Inventory Development System (RAPIDS) to create the best available 
toxics emission estimates from all sources (point, area, and mobile) 
for regional modeling efforts.
    Working together, USEPA, NOAA, States, and Tribes will continue to 
support efforts to monitor, characterize, model, and quantify emissions 
sources of toxics in the Great Lakes Region. We will work to reduce 
international emissions and support models that define the relationship 
between air pollutant sources and the effects of pollutants deposited 
on the Great Lakes. This information will guide regulatory and non-
regulatory programs that work to eliminate the impacts of air toxic 
deposition and the risks of air toxics to both humans and the Great 
Lakes Ecosystem.

Key Objectives:
    <bullet>  Through the implementation of MACT standards promulgated 
in September 1997, achieve at least a 90 percent reduction in mercury 
and dioxin emissions from 1996 baselines from medical waste 
incinerators.

Key Actions:
    <bullet>  Implement the Clean Air Act provisions, including MACF 
standards, and commit to strong enforcement of these standards by USEPA 
and State Agencies.
    <bullet>  USEPA is committed to reducing emissions of mercury from 
coal-fired utilities through a nationwide cap and trade program. This 
program has been announced by the President and is currently under 
consideration by Congress.
    <bullet>  Adopt and implement emissions standards covering source 
categories accounting for 90 percent of the emissions of 30 identified 
urban air toxic pollutants.
    <bullet>  Establish national measures which enable Stale, Tribal, 
and local agencies to develop strong and flexible programs to reduce 
air toxics.
    <bullet>  Conduct periodic assessments of air quality, exposure and 
estimated risks from toxics for urban areas in the Great Lakes Region 
and provide information to the public.
    <bullet>  The State of Wisconsin will propose regulations to reduce 
atmospheric mercury emissions from major electric utilities by 90 
percent within iS years after promulgation.
    <bullet>  Consistent with its statutory goal, Minnesota will reduce 
statewide mercury releases to air by at least 70 percent by 2005, 
compared to 1990 levels.
    <bullet>  Support the expansion of State and tribal monitoring 
efforts related to air toxic deposition, particularly for PBTs which 
support legislation and policy efforts. Support the efforts of Tribes 
in the Great Lakes Basin in the development of Tribal Implementation 
Plans (TIPs) to address adverse environmental impacts resulting from 
air deposition.
    <bullet>  Integrate IADN with new regional, national, and 
international monitoring efforts and report on the deposition of PBTs. 
Add mercury deposition monitoring to at least one U.S. IADN station and 
evaluate the feasibility and cost of adding additional chemicals of 
concern to the network, as appropriate. Evaluate the expansion of the 
IADN network to include new urban sites in order to determine urban 
sources and evaluate current and future regulations.
    <bullet>  Expand and improve the Great Lakes Regional Air Toxics 
Emissions Inventory, and RAPIDS to support analyses of emission trends. 
Make special efforts to focus on PBTs of concern to the Great Lakes 
including an in-depth quality assurance effort.
    <bullet>  Study the relationship between the Great Lakes Regional 
Air Toxics Emissions Inventory and atmospheric deposition monitoring 
data. Work to better understand source/receptor relationships and 
improve inventory and modeling techniques to better characterize 
emissions and forecast deposition, and support future efforts to 
resolve these issues.
    <bullet>  Promote the Urban Air Toxics Strategy on the Federal, 
State, and Tribal level. Commit to further defining air toxics risks to 
the Great Lakes Basin's residents and ecosystems by conducting multi-
pathway risk studies and community assessments. Assure that the 
residual risk (112(1)) program addresses atmospheric deposition 
concerns of PBTs, including evaluation of emissions, impacts, and 
multiple exposure pathways.

                ACHIEVING OUT-OF-BASIN TOXICS REDUCTIONS

    A major challenge for the Great Lakes is to address persistent 
toxic pollutants on a national, international, and global scale. These 
pollutants easily transfer among air, land and water and travel across 
vast geographic boundaries. Recognizing the need to achieve out-of-
basin toxics reductions, the GLBTS is closely coordinated with other 
domestic and international programs. The national multi-media PBT 
Program is focused on reductions for the same set of pollutants, and 
the efforts of the GLBTS chemical-specific workgroups have supported 
the development of the PBT Program national action plans. The GLBTS 
also is coordinated with USEPA's Office of International Affairs to 
support international efforts, such as the Persistent Organic 
Pollutants and Heavy Metals Protocols under the United Nations' 
Economic Commission for Europe's Convention (UNECE) on Long Range 
Transboundary Air Pollution (LRTAP)P the Stockholm Convention on 
Persistent Organic Pollutants, and the North American Commission for 
Environmental Cooperation (CEC) Sound Management of Chemicals Program. 
Under the latter program, North American Regional Action Plans (NARAPs) 
have been developed for a number of chemicals. These efforts work 
toward international voluntary activities and legally binding 
agreements resulting in reductions of persistent toxic substances.

Key Actions:
    Continue to support and coordinate with national initiatives that 
will reduce or eliminate out-of-basin inputs of toxics to the Great 
Lakes, including the PBT Program.
    Work within international forums to reduce air toxics from sources 
outside the Great Lakes Basin. Actively participate in international 
efforts which focus on air toxic reductions such as the 1998 Persistent 
Organic Pollutants Protocol of the UNECE LRTAP Convention and the CEC 
Sound Management of Chemicals Program. Support actions in the CEC's 
NARAP for mercury.

               CLEANING UP PAST CONTAMINATION: SEDIMENTS

    Due to the highly industrialized nature of many harbors and 
tributaries on the Great Lakes, these areas have historically received 
inputs of chemical pollutants which have concentrated in the bottom 
sediments. Although discharges of persistent toxic substances to the 
Great Lakes have been reduced in the last three decades, high 
concentrations of contaminants remaining in the bottom sediments of 
many rivers and harbors have raised considerable concern about risks to 
aquatic organisms, wildlife and humans. Exposure to contaminated 
sediment may impact aquatic life through the development of cancerous 
tumors, loss of suitable habitat, and toxicity to fish and benthic 
organisms. Exposure also impacts wildlife and human health by the 
bioaccumulation of toxic substances through the food chain. 
Contaminated sediments are one of the major causes of fish consumption 
advisories that are in place at many locations around the Great Lakes. 
There are economic consequences to contaminated sediments as well. They 
can prevent or delay the dredging in navigational channels and 
recreational ports, require additional costs for removal and 
management, and impose other costs to waterborne commerce and local 
recreational economies.
    Annexes 14 (Contaminated Sediments) and 2 (Remedial Action Plans) 
of the GLWQA focus on specific activities that should be undertaken to 
address Beneficial Use Impairments related to contaminated sediments. 
In addition, the GLBTS calls for action to address PBTs present in 
Great Lakes sediment.. The Great Lakes agencies have completed or are 
currently addressing the remediation of over three million cubic yards 
of contaminated sediments in the Basin, at an estimated cost of Over 
two hundred million dollars. These actions are principally within the 
AOCs. Unfortunately, this work represents only a fraction of the total 
effort necessary to fully remediate contaminated sediments in the Great 
Lakes. Progress in cleaning up contaminated sediments and restoring the 
associated beneficial uses has been slow since the GLWQA was signed and 
only one of the 43 AOCs has been delisted to date (Collingwood Harbour, 
Ontario, Canada).
    The International Joint Commission's Water Quality Board prepared a 
document in 1997 entitled, ``Overcoming Obstacles to Sediment 
Remediation in the Great Lakes Basin.'' The UC report summarized major 
obstacles to sediment remediation, and grouped them into the following 
six categories: limited funding and resources; regulatory complexity; 
lack of a decisionmaking framework; limited corporate involvement; 
insufficient research and technology development; and limited public 
and local support. Successfully addressing the contaminated sediment 
problem will necessitate overcoming these obstacles.
    In recent years, Congress has enacted legislation giving the U.S. 
Army Corps of Engineers (USACE) authority to support States, local 
governments, and Tribes responsible for addressing contaminated 
sediment problems including: 1) technical support for Remedial Action 
Planning, 2) removal and remediation of contaminated sediments from 
areas outside Federal navigation channels, and 3) development and 
demonstration of promising remediation technologies.
    Federal, State, and Tribal regulatory and trustee agencies will 
continue to address contaminated sediments through their respective 
enforcement authorities\5\ and also through innovative approaches and 
Federal/State/private partnerships. These agencies will coordinate 
complementary Federal and State authorities, to leverage government and 
private resources to address the contaminated sediment problem and its 
sources.
---------------------------------------------------------------------------
     \5\ Including the Comprehensive Environmental Response, 
Compensation, and Liability Act (CERCLA or Superfund), Resource 
Conservation and Recovery Act (RCRA), Clean Water Act (CWA), Toxic 
Substances Control Act (TSCA), and the Oil Pollution Act (OPA).
---------------------------------------------------------------------------
Key Objectives:
    <bullet>  Accelerate the pace of contaminated sediment remediation, 
working to overcome barriers to progress identified at each site. Bring 
together complementary Federal and State authorities, and/or government 
and private resources to address the contaminated sediment problem and 
its source, so that:
  beginning in 2002, initiate three remedial action starts each year.
    <bullet>  Beginning in 2004, complete three sediment remedial 
actions per year until all known sites in the Basin are addressed.
    <bullet>  Complete the cleanup of all known sites in the Basin by 
2025.
Key Actions:
    <bullet>  Restore the beneficial uses impaired by sediment 
contamination in AOCs, as a critical step toward their delisting. 
Monitor before, during, and after sediment remediation assess and 
document remedy effectiveness.
    <bullet>  Beginning in 2002, track and report on an annual basis 
the number of sediment remediation project starts and completions in 
the Great Lakes.
    <bullet>  By 2004, each State member of the U.S. Policy Committee, 
working with USEPA, USACE, NOAA, and the U.S. Fish and Wildlife Service 
(USFWS), will develop an integrated list of sites for remedial and 
restoration activities, with estimated costs and schedules. These lists 
will be updated biennially. USEPA will maintain this comprehensive list 
of known contaminated sediment sites in the Great Lakes, including, but 
not limited to AOCs, that will help to inform the Great Lakes community 
On the location and magnitude of remaining sediment contamination that 
could require remedial and restoration actions.
    <bullet>  Develop and implement a collaborative outreach strategy 
to promote greater public awareness of contaminated sediments issues 
and enhance public involvement in the remedial decisionmaking process 
early and often.
    <bullet>  Engage in a dialog with regional industrial and 
manufacturing groups to promote greater corporate participation in 
contaminated sediment remediation.
    promoting the safe consumption of great lakes fish and wildlife
    Many North Americans enjoy fishing and hunting in the Great Lakes 
Basin, and many residents earn their livelihood from these activities. 
Unfortunately, a variety of persistent toxic substances circulate 
within the Great Lakes environment and bioaccumulate in animal tissues. 
Several studies of Great Lakes fish consumers have shown that long-term 
exposures can cause chronic health effects and pose a special risk to 
fetuses, children, women of child-bearing age, and those who 
extensively fish for food. Contaminant levels and resulting exposures 
due to wildlife consumption have received less intensive study.
    The use of consumption advisories is an interim measure to reduce 
exposure by promoting the safe consumption of fish and wildlife. All 
the Great Lakes and their connecting channels are currently under a 
fish advisory, mainly due to PCBs, although dioxin and chlordane also 
cause advisories. In addition, several States have State-wide mercury, 
advisories for their inland waters. Unfortunately, surveys have 
revealed that a large portion of the subsistence and sport fish 
consuming public is unaware of these advisories.
    Based on our current understanding of how these chemicals circulate 
in the environment, It Is expected that advisories will be in place for 
several decades. However, cleaning up contaminated sediments and 
reducing new loadings of toxic substances would significantly shorten 
this timeframe. There is also a concern that Invasive species can 
potentially redistribute pollutants in the food web. The long-term goal 
is to ensure that all Great Lakes fish and wildlife are safe to eat 
without restriction.

Key Objectives:
    <bullet>  Implement actions Identified throughout this Strategy, 
particularly, in the Contaminated Sediments and Air Deposition 
sections, to reduce exposure to toxic substances from the consumption 
of contaminated fish and wildlife. As an indicator of progress toward 
the reduction of toxic substances in native, top-level predators, 
concentrations of PCBs in whole lake trout and walleye samples will 
decline by 25 percent in the period from 2000 to 2007.

Key Actions:
    <bullet>  ATSDR, State health and environmental agencies, Tribes, 
and USEPA will continue to improve their understanding of exposure and 
health risks associated with the consumption of contaminated fish and 
wildlife. Enhanced communications will be provided to the public, 
including at-risk populations, about the importance of following 
existing fish and wildlife advisories.
    USEPA will report every 2 years on concentrations of key pollutants 
(PCBs, chlordane, and mercury) in coho and chinook fillets, as well as 
whole lake trout and walleye. Consideration will be given to monitoring 
and reporting of other chemicals of potential health concern, such as 
chlorinated napthalenes, polybrominated diphenyl ethers, and toxaphene, 
as part of a long term trend monitoring program.
    <bullet>  Evaluate the result of surveys sponsored by ATSDR, 
States, USEPA, Tribes, and academic institutions on the effectiveness 
of fish advisories and develop improved systems for communicating 
information to high-risk communities, including non-English speaking 
minorities and sensitive populations.
    <bullet>  ATSDR, USEPA, State and Tribal health agencies will 
pursue further research in the area of mercury exposure from fish and 
wildlife consumption.
    <bullet>  Federal, State, and Tribes will support the work of the 
LaMPs and any Great Lakes human health committees by providing 
information on contaminants and fish and wildlife consumption 
advisories.
    <bullet>  Federal, State, and Tribes will provide data from their 
fish tissue sampling programs to the Great Lakes Fishery Commission for 
inclusion in the Commission's State of the Lake reports, which are 
issued on a rotating basis for each Lake every 5 years.
    <bullet>  States, USEPA, and Tribes will explore contaminant levels 
and exposures from the consumption of wildlife and native foods.

                 MAINTAINING A HEALTHY NUTRIENT BALANCE

    Phosphorus is an essential element for all organisms and is often 
the limiting factor for aquatic plant growth In the Great Lakes. 
Although phosphorus is found naturally in tributaries and run-off 
waters, the historical problems caused by elevated levels have 
predominately originated from human-made sources. Sewage treatment 
plant effluent, agricultural run-off, and industrial processes have 
released large amounts of phosphorus into the Lakes.
    Strong efforts that began in the 1970's to reduce phosphorus 
loadings have been successful in also reducing nutrient concentrations 
in the Lakes, although high concentrations still occur locally in some 
bays and harbors. Phosphorus loads have decreased in part due to 
changes in agricultural practices (e.g., conservation tillage and 
integrated crop management), use of non-phosphorus detergents, and 
improvements made to sewage treatment plants and sewer systems.
    Our overall approach is to ensure that Great Lakes waters shall be 
free from nutrients, directly or indirectly entering, the waters as a 
result of human activity, in amounts that create growths of aquatic 
life that interfere with beneficial uses.
Key Actions:
    <bullet>  Continue to monitor phosphorus concentrations closely to 
ensure nutrient levels can Support desired fish community structures 
and populations.
    <bullet>  Continue to support the implementation of rural and urban 
nutrient management practices under Section 319 of the CWA and Section 
6217 of the Coastal Zone Management Act (CZMA).
    <bullet>  Construct and test models of nutrient cycling in each of 
the Great Lakes to account for the role now played by zebra mussels.
    <bullet>  Assess the capacity and operation of existing sewage 
treatment plants in the context of increasing human populations being 
served to determine if additional upgrades in construction or 
operations may be' required.
    <bullet>  In cooperation with participating State, Tribal, and 
Federal agencies, USGS will continue to collect streamflow data, and, 
in selected areas, water-quality and ancillary data to support the 
calculation of annual tributary loadings to the Lakes.

   Physical Integrity: Promoting Habitat Protection, Water Quantity 
               Management and Improved Land Use Practices

    Goal: Protect and restore the physical integrity of the Great 
Lakes, supporting habitats of healthy and diverse communities of 
plants, fish, and other aquatic life, and wildlife in the Great Lakes 
Basin Ecosystem. Protect Great Lakes water as a regional natural 
resource from non-sustainable diversions and exports, and promote 
improved land use practices.
    The Great Lakes Basin is a unique Ecosystem, containing many 
ecologically rich areas and diverse community types, including 
terrestrial forests, dunes, prairie, savannah, barrens, wetlands, 
alvars, islands, and aquatic habitat. These areas, many of which are at 
risk of being lost or degraded, provide essential habitat for important 
native biota and rare species. Numerous stressors threaten the physical 
integrity of the Great Lakes Basin Ecosystem, as discussed in more 
detail below.

                   HABITAT PROTECTION AND RESTORATION

    Risks to habitat in the Great Lakes Basin include sprawl and the 
loss of greenspace, invasive species, hydrological alterations, 
shoreline hardening, incompatible land uses, and the problems of 
urbanization and pollution. The long-term restoration and protection of 
the Great Lakes Ecosystem requires the cooperation of a wide variety of 
partners, including non-governmental organizations, private landowners, 
industry, and government, because many of these issues' cut across 
traditional political and organizational boundaries. Several ongoing 
multi-partner programs comprise the primary tools for prioritizing and 
coordinating Great Lakes habitat protection, including the State of the 
Lakes Ecosystem Conference (SOLEC), LaMPs, and RAPs, which continue to 
identify ecologically rich areas for protection and restoration. 
Through the SOLEC process, ``Biodiversity Investment Areas'' have been 
identified in the Great Lakes Basin to assist local land use 
jurisdictions as they develop protection and restoration plans. Lake-
specific habitat work is coordinated through the LaMPs, and local 
habitat restoration is taking place through the RAP process at AOCs.
    All Federal agencies have a mandate to conserve Federal endangered 
and threatened species under Section 7(a)(1) of the Endangered Species 
Act. Several Federal and State agencies are conducting ongoing analyses 
to identify important habitat for protection and restoration. 
``Critical Ecosystems'' are being identified in the Basin by a variety 
of partners. The Fish and Wildlife Service's Coastal Program and, 
through NOAA's Coastal Zone Management (CZM) Program, State coastal 
management programs provide grants for State, Tribal and local 
initiatives such as: biological inventories, site management plans, 
greenways, ecological corridors, on-the-ground restorations, and site 
conservation plans. NOAA's National Strategy to Restore Coastal Habitat 
continues to direct restoration and protection activities. USEPA 
supports support habitat improvement practices, including construction 
and enhancement of coastal wetland systems, under Section 319 of the 
Clean Water Act. The USGS, USFWS, and Tribes are involved in mapping 
fish spawning grounds. Some States are preparing ``biodiversity 
management plans'' and mapping fish spawning grounds as well.
    In addition, non-governmental organizations (NGO's) are identifying 
``priority conservation areas,'' ``potential wilderness areas,'' 
``American Heritage Rivers,' ``biodiversity hotspots,'' ``important 
bird areas' and preparing many other recommendations for protecting or 
restoring high priority natural areas. Most of these efforts are 
ongoing, and this short list is far from complete.
    Recognizing the particular vulnerability of coastal habitat, this 
Strategy focuses on its protection and restoration as a first priority, 
with a special focus on coastal wetlands, a unique and limited 
resource. It also recognizes and addresses the long-term need to 
protect and restore habitat throughout the entire Great Lakes Basin.

Key Objectives:
    With the philosophy of no net loss, continue to fulfill Federal, 
State, and Tribal management responsibilities for the estimated 10 
million acres of coastal and inland wetlands on the United States side 
of the Basin.
    By 2005, support the restoration of fish and wildlife habitats by 
developing partnerships with Federal, States, Tribes, and private 
interests to construct habitats by beneficially using dredged material 
at six sites.
    By 2005, support the Great Lakes Fishery Commission, Tribes and 
others in the control and management of sea lampreys by constructing 20 
sea lamprey barriers on tributaries to the Great Lakes, taking into 
account effects on fish populations.
    By 2005, support the restoration of aquatic habitats by developing 
partnerships between Federal and State agencies to dredge contaminated 
sediments at five locations, using existing non-regulatory Federal, 
State, and Tribal programs.
    By 2007, support the restoration of the Great Lakes fishery by 
developing partnerships with Federal, State, and private interests to 
construct 20 wetlands, using existing non-regulatory Federal, State, 
and Tribal programs.
    By 2007 restore and protect coastal bald eagle habitat to allow the 
recovery of eagle populations and achieve a 10 percent increase, 
relative to the year 2000, in the number of occupied territories that 
produce at least one young per year in coastal habitat.
    By 2010, restore, enhance, or rehabilitate 100.000 acres of coastal 
and inland wetlands in the Great Lakes Basin, using existing Federal, 
State, and Tribal programs\6\.
---------------------------------------------------------------------------
     \6\ This goal will be achieved primarily through non-regulatory 
programs (e.g., USDA's Wetland Reserve Programs and Emergency Wetlands 
Reserve Program, USFWS' Partners for Fish and Wildlife, various State 
programs, etc.). USACOE's Section 404 regulatory program is designed to 
ensure no net loss of wetlands from projects involving the discharge of 
dredge or till material to waters. Due to site-specific factors 
affecting mitigation projects, (e.g., timing, probability of success, 
differing ecological values and functions), Section 404 permits 
sometimes require greater than one-for-one mitigation of last wetland 
acreage. In such cases, additional wetlands that are created, restored, 
or enhanced may be counted toward this goal.
---------------------------------------------------------------------------
Key Actions:
    <bullet>  By 2002, USFWS's Great Lakes Basin Ecosystem Team 
wiliprioritize and coordinate conservation efforts for Great Lakes 
islands and lake sturgeon habitat.
    <bullet>  The USGS, through its GAP Analysis Program, wiil work 
with State and Tribal natural resource and wildlife agencies to 
identify conservation priorities for preservation and restoration of 
terrestrial and aquatic biodiversity in the Great Lakes Region.
    <bullet>  By 2002,the: USACE, with the Great Lakes Fishery 
Commission and the signatories to A Joint Strategic Plan for The 
Management of The Great Lakes Fisheries, will complete the support plan 
for Great Lakes Fishery and Ecosystem Restoration Program.
    <bullet>  By 2003, collect the lists, descriptions, and maps of the 
high quality ecosystems that have been identified by the great variety 
of partners in the Great Lakes Basin. By 2004, develop selection 
criteria and compare the various high quality ecosystems from all of 
the partners and make recommendations to the USPC about which sites are 
of greatest interest.
    <bullet>  Ensure that management plans for publicly owned land in 
the Great Lakes Basin address the critical species, natural 
communities, and ecosystems that are representative of Great Lakes 
Basin biodiversity.
    <bullet>  Promote native species and plantings in contiguous 
watershed environments through Conservation Districts and Drain 
Commissions.
    <bullet>  By 2005, identify a continuum of stopover sites for 
migratory birds that pass through the Great Lakes Region, and critical 
areas in need of restoration and/or protection.
    <bullet>  By 2005, establish projects in coastal National Parks or 
National Wildlife Refuges in the Great Lakes Basin as 
demonstrationsites for successful invasive species eradication and 
control, as well as habitat restoration, on public lands.
    <bullet>  States' Coastal Zone Management Programs, in partnership 
with NOAA, will continue to inventory and designate areas of special 
coastal-related value, including Areas of Particular Concern and Areas 
for Restoration and Preservation.

            SPECIAL FOCUS AREA: GREAT LAKES COASTAL WETLANDS

    The Great Lakes coastal zone includes the relatively warm and 
shallow waters near the shore, coastal wetlands, and the land areas 
directly affected by lake. processes. These areas are the most diverse 
and productive parts of the Great Lakes ecosystem. Great Lakes coastal 
wetlands play a pivotal role in the aquatic ecosystem of the Great 
Lakes, storing and cycling nutrients and organic material from the land 
into the aquatic food web. Most of the Lakes' fish species depend upon 
them for some portion of their life cycles. Large populations of 
migratory birds rely on them for staging and feeding areas. Coastal 
areas also receive some of the most intense human activity. As a 
result, the areas that contain the greatest biological resources are 
subject to the greatest stress.
    Two important tools in coastal wetland protection are NOAA' s CZM 
Program and the SOLEC Indicators Initiative. Under the CZM Program, 
NOAA, and the States select enhancement areas for funding to protect, 
restore, or enhance the existing coastal wetlands base or to create new 
coastal wetlands. Participants in the SOLEC Indicators Initiative have 
identified coastal wetlands as a special focus area, and the Great 
Lakes Coastal Wetland Consortium will develop basin-wide monitoring 
methods for these important habitats.

Key Actions:
    <bullet>  Federal, State, and Tribal agencies will continue to 
participate in the Great Lakes Coastal Wetlands Consortium, initiated 
in early 2000.
    <bullet>  By 2003, the Great Lakes Coastal Wetland Consortium will 
create and populate a binational GIS data base on Great Lakes coastal 
wetlands accessible to all scientists, decisionmakers, and the public. 
This data base will contain data on the location and classification of 
coastal wetlands and data on indicators of wetland quality.
    <bullet>  By 2003, the Great Lakes Coastal Wetland Consortium will 
design and establish a program for monitoring the quality of 
international Great Lakes coastal wetlands. In addition, It will 
identify and rank major threats to coastal wetlands (e.g., development, 
invasive species, hydrological alteration, resource extraction, 
shoreline hardening, etc.).

               PROTECTION OF GREAT LAKES WATER RESOURCES

    Over the past few years, the diversion of water from the Great 
Lakes Basin has become a high profile issue, both nationally and 
internationally, most notably centered on a Canadian company's 1998 
proposal to export Lake Superior water to markets overseas. Throughout 
the Basin, numerous concerns were voiced over the lack of any 
consultation or analysis of the environmental implications of such a 
withdrawal. The request was subsequently withdrawn. This situation 
brought the issue of water diversion to the top of the Great Lakes 
agenda.
    In accordance with Section 504 of the 2000 amendments to the Water 
Resource Development Act (WRDA), the Great Lakes Governors have led the 
development of a stronger regional water management system. Under WRDA, 
no bulk export or diversions from the Basin can take place without the 
unanimous approval of all Great Lakes Governors. Recently, the Great 
Lakes Governors and Premiers have committed to developing conservation 
and restoration-based standards for reviewing proposed withdrawals. The 
long-term goal is to manage Great Lakes water resources in a manner 
which will protect and sustain the Great Lakes Ecosystem, while also 
maintaining a strong economy.
    Groundwater is the source of drinking water for about 8.2 million 
people within the Great Lakes Watershed. Recent publications, including 
USGS's report The Importance of Groundwater in the Great Lakes Region, 
have increased public awareness of groundwater resources. Besides 
providing drinking water, this important natural resource is a large, 
subsurface reservoir that slowly releases water to provide reliable 
stream water flow and helps ensure habitat for aquatic animals and 
plants during periods of low precipitation. This resource needs to be 
characterized according to its availability, quality, and demand to 
develop a sustainable supply for all uses.

Key Actions:
    <bullet>  Support the efforts of the Great Lakes Governors and 
Premiers, as articulated in ``Annex 2001'', to prepare a binding 
agreement within 3 years, with broad public participation, on 
conservation and restoration-based standards for withdrawals of Great 
Lakes water.
    <bullet>  Protect Great Lakes groundwater resources through 
existing multi-agency groundwater protection programs. Increase 
understanding of the linkage between the watershed, groundwater, and 
the Great Lakes.
    <bullet>  Support the work of the Central Great Lakes. Geologic 
Mapping Coalition whose purpose is to map and characterize glacial and 
related deposits in three dimensions, from the land surface all the way 
down to and including the underlying bedrock, so that groundwater can 
be carefully managed and protected.
    <bullet>  NOAA and States will continue to implement the CZM 
Program, including elements which address policies regulating water 
withdrawals within their boundaries.
    <bullet>  USGS will continue to compile information on water use at 
5-year intervals for the Great Lakes Basin as part of the National 
Water Use Program.
    USGS will continue to develop an increased understanding of the 
role of groundwater in the Great Lakes through the projects supported 
by the National Ground-Water Resources Program National Water-Quality 
Assessment Program, and in cooperation with the State geologists and 
State geologic mapping programs through the Central Great Lakes 
Geologic Mapping Coalition.

                          SUSTAINABLE LAND USE

    In communities across the Great Lakes Region, there is a growing 
concern that current sprawling development patterns are. not in the 
long-term interest of the existing suburbs, small towns, inner cities, 
rural communities, or wilderness areas in the Basin. The cost of 
abandoned infrastructure in the city; loss of open space and prime 
agricultural lands at the suburban fringe, and longer vehicle commuting 
times with attendant increases in air pollution, all impact on the 
environmental health and overall quality of life in the Great Lakes 
Basin. These concerns have spurred a national ``Smart Growth'' 
movement.
    The principles of Smart Growth include the preservation of open 
spaces, farmland, natural beauty, historic buildings, and critical 
environmental areas; reinvestment in and strengthening of existing 
communities; fostering distinctive, attractive communities with a 
strong sense of place; maintaining local authority for planning and 
managing growth while recognizing the need for regional perspectives 
and cooperation; providing a variety of transportation choices; 
providing incentives for collaboration among local governments; and 
partnerships among local, Tribal, State, and Federal levels of 
government; and encouraging revenue policies that promote balanced 
growth decisions. There are a wide variety of stakeholders in the Smart 
Growth movement including environmentalists and community activists, 
community development organizations; real estate developers; planners; 
Federal, State, Tribal, and local government officials; lending 
institutions, and architects.
    Great Lakes States have been leaders in pioneering innovative Smart 
Growth legislation. Examples Include Wisconsin's Comprehensive Planning 
Grant programs, and Pennsylvania's $650 million ``Growing Greener'' 
investment, ``Growing Smarter'' land-use reforms, and nationally known 
Land Recycling Program. In 1996, the USEPA and NOAA joined with several 
non-profit and government organizations to form the Smart Growth 
Network. The Smart Growth Network (SON) works to encourage development 
that serves the economy, community, and the environment. The Network 
provides a forum for:
    <bullet>  Raising public awareness of Smart Growth and the 
implications of development decisions for the economy, community, and 
the environment;
    <bullet>  Promoting Smart Growth best practices through educational 
publications and other venues;
    <bullet>  Developing and sharing information, innovative policies, 
tools, and ideas;
    <bullet>  Fostering collaboration, among Network partners and 
members who represent various interests, to apply Smart Growth 
approaches to resolve problems of the built environment; and,
    <bullet>  Cultivating strategies to address barriers to, and to 
advance opportunities for, Smart Growth.
    Other relevant activities Include the implementation of State 
Coastal Nonpoint Pollution Control Programs developed pursuant to 
section 6217 of the Coastal Zone Act Reauthorization Amendments of 1990 
(CZARA). This program provides for the implementation of management 
measures for site development designed to protect sensitive areas, 
limit increases in impervious cover, and limit land disturbance 
activities. Also, the Nonpoint Education for Municipal Officials 
Program (NEMO) supports improved land use decisionmaking by educating 
local officials on the principles of natural resource based planning.
Key Actions:
    <bullet>  Continue to participate in and support the Smart Growth 
Network.
    <bullet>  Continue to implement State Coastal Nonpoint Pollution 
Control Programs.

                        BROWNFIELD REDEVELOPMENT

    A key component of Smart Growth is brownfields redevelopment. A 
Brownfield is a site that has actual or perceived contamination, as 
well as an active potential for redevelopment or reuse, It is estimated 
that there could be as many as 100,000 such sites in the Great Lake 
States, many of which are in the Basin. Because lenders, investors, and 
developers fear that involvement with these sites may make them liable 
for cleaning up contamination they did not create, they are more 
attracted to developing new sites in pristine areas, or 
``greenfields.''
    USEPA's Brownfields Economic Redevelopment Initiative is designed 
to empower States, Tribes, communities, and other stakeholders to work 
together in a timely manner to prevent, assess, safely clean up, and 
sustainably reuse Brownfields. Through this initiative, over 20 
agencies have worked in partnership to coordinate Federal programs 
related to Brownfields redevelopment. The centerpiece of this national 
partnership has been the designation of Brownfield Showcase Communities 
to serve as models for community-based cleanup and redevelopment. 
USEPA's Superfund Redevelopment Initiative similarly helps communities 
return Superfund sites to productive use. Great Lakes States have also 
taken a leadership role in Brownfields redevelopment. For example, in 
FY1998, Michigan passed the Clean. Michigan Initiative bond, a 
$650mlllion program focused on cleaning up Brownfields and greenspace 
preservation. Similarly, in FY2000, the State of Ohio passed Issue 1, a 
$400 million program also aimed at Brownfields restoration and farmland 
preservation. All Great Lakes States also have voluntary cleanup 
programs, by which many of the Brownfield sites are remediated.
Key Actions:
    <bullet>  USEPA, Federal, State, and Tribal agencies will continue 
to support local Brownfield redevelopment efforts through funding and 
Implementation of:
    <bullet>  Site assessment, job training, cleanup revolving loan 
funds, and showcase community pilot programs, Federal tax incentives 
for Brownfield redevelopment, and programs which fund site pre-
development and infrastructure needs, including transportation, 
demolition, and other necessary activities to revitalize sites.
    <bullet>  State voluntary cleanup programs and Brownfield programs 
that provide technical assistance to local Brownfield practitioners, 
and various financial incentives for redevelopment.
    <bullet>  Interagency and interjurisdictional partnerships such as 
the Brownfields National Partnership and Brownfield Showcase 
Communities.
    <bullet>  Technical assistance such as the field services from 
USACE, USGS, and State Geological Surveys.

         PROMOTING CONSERVATION PRACTICES ON AGRICULTURAL LANDS

    Based on State analyses (305(b) reports), a leading cause of water 
quality impairment in the Great Lakes Basin is contaminated runoff, and 
agriculture is one of the most extensive source of this pollution. 
Continuing efforts over the last several years have promoted the 
reduction of pesticide and nutrient run-off through improved 
agricultural practices such as conservation tillage, no-till planting, 
and the use of buffer strips, while also addressing more recent 
problems that can occur from mismanagement of large-scale animal 
production farms.
    Practices such as conservation tillage and no-till planting have 
proven effective in reducing erosion on agricultural lands. 
Conservation tillage is rapidly becoming the primary cultivation 
practice in the Basin, affecting as much as 70 percent of the total 
acreage in many counties, and 48 percent basin wide. Buffer strips, 
vegetation established between fields' and surface waters, also help 
reduce sediment, nutrients, and chemicals entering tributaries that 
flow into the Great Lakes. Innovative programs, such as USDA's 
Conservation Reserve Program (CRP), National Conservation Buffer 
Initiative, and the Environment Quality Incentive Program (EQIP), 
provide a systems approach for addressing agricultural non-point source 
pollution to the Great Lakes. The Federal Farmland Protection Program, 
administered by the NRCS, supports matching grants and non governmental 
organizations to purchase conservation easements on agricultural lands. 
NRCS also supports the Great Lakes Commission's Great Lakes Basin 
Program for soil erosion and sediment control.
    Through the CZMA, State coastal management programs coordinate, 
promote, and implement State efforts to address nonpoint sources of 
pollution. In addition, USEPA has several. standing programs to address 
soil erosion and sedimentation within the Basin. Local conservation 
districts also play a key role in enhancing efforts to establish 
conservation buffers and no-till planting methods. Together, these 
efforts help sustain the production of food and fiber products while 
maintaining environmental quality and a strong natural resource base.
    Thirty-eight percent of the Nation's 450,000 animal feeding 
operations exist in the Midwest, and the many of these are in the Great 
Lakes Basin. In 1999, the USDA and the USEPA issued a Unified National 
Strategy for Animal Feeding Operations (UNSAFO) to minimize the water 
quality and public health impacts of livestock operations. Two 
important steps in the Strategy were the recently proposed regulations 
to address water pollution from concentrated animal feeding operations 
and the voluntary development of Comprehensive Nutrient Management 
Plans (CNMP). The USEPA and USDA, in coordination with the States, have 
sought public comment, and will revise' and implement this regulation 
and planning effort.

Key Objectives:
    <bullet>  Consistent with the goals of the National Conservation 
Buffer Initiative, establish 300,000 acres of buffers in the Great 
Lakes Basin by 2007 (base year 1999), using existing, non-regulatory 
Federal and State programs, and track this progress under USDA's CRP.
    <bullet>  In accordance with the Unified National Strategy for 
Animal Feeding Operations, assist and track the development of CNMP for 
Animal Feeding Operations in the Great Lakes Basin by 2009. The 
continued technical and financial support provided under the UNSAFO and 
EQIP will be necessary to complete this goal.

Key Actions:
    <bullet>  USDA will continue to implement CRP and will work with 
any State's effort to supplement the CRP funding with a Conservation 
Reserve Enhancement Program targeted to the Great Lakes Basin. The 
development of forested riparian areas in the northern Great Lakes 
Basin will also be promoted as a means to support cold water fisheries.
    <bullet>  Encourage and support the National Association of 
Conservation Districts' Great Lakes Buffer/No-Till Program, which will 
help protect and enhance water quality in the Great Lakes and the 
tributaries that flow into the Lakes.
    <bullet>  USEPA will work with States to issue NPDES permits to 
concentrated animal feeding operations, or implement functionally 
equivalent approaches as per the Unified National Strategy for Animal 
Feeding Operations, Strategic Issue #3, or future Federal guidance or 
rules.
    <bullet>  Continue to support the implementation of rural and urban 
nutrient conservation practices by the States under Section 319 of the 
CWA and Section 6217 of the CZMA.
    <bullet>  By 2013, implement the CZARA management measures for 
facility wastewater and runoff from confined animal facility 
management.

       OVERFLOWS FROM SANITARY SEWERS AND COMBINED SEWER SYSTEMS

    During heavy wet weather events, sewer systems can be overwhelmed 
by, high flows, resulting in the release of raw sewage from combined 
sewer overflows (CSO) and sanitary sewer overflows (SSO). Combined 
sewers, systems designed to collect both storm water and sanitary 
wastewater, can overflow when the capacity of the wastewater treatment 
facility is exceeded or when flows exceed the capacity of sections of 
the transport system. Separate sanitary sewer systems can also 
experience untreated discharges related to wet weather events. These 
can be caused by excessive inflow and infiltration, inadequate 
maintenance, and insufficient wet weather transport capacity. SSOs and 
untreated CSOs can contain pathogens that lead to beach closures and 
human health concerns, as well as oxygen demanding substances that can 
lead to low dissolved oxygen levels. Untreated CSOs discharges may also 
contain industrial pollutants.
    USEPA's CSO Control Policy outlines approaches for addressing CSOs 
in order to achieve the requirements of the Clean Water Act. States 
have also adopted policies, strategies and rules consistent with the 
National CSO Policy, and use these as a basis for issuing permits and 
compliance orders for CSO control. CSO communities are required to 
develop and implement interim controls and long term control plans for 
assuring that CSOs do not cause or contribute to violations of water 
quality standards.
    Avoidable SSO discharges can lead to enforcement actions by States 
or USEPA. USEPA is developing an SSO policy to help prevent avoidable 
SSOs and mitigate the impacts of those which are unavoidable.

Key Objectives:
    <bullet>  By 2005 100 percent of all CSO permits in the Great Lakes 
basin will be consistent with the national CSO Pohcy. All issued/
reissued permits for CSO discharges will contain conditions that 
conform to the National CSO policy, and Sates will prioritize the 
reissuance of CSO permits under their permit backlog strategies.'
    <bullet>  By 2010, all sewer systems will be operated under long-
term Comprehensive management plans which will optimize performance and 
minimize discharges from SSOs.

Key Actions:
    <bullet>  Prioritize wet weather program activities to focus on CSO 
and SSO discharges impacting bathing beaches and other areas of 
potential health risk exposure in the Great Lakes Basin.
    <bullet>  By 2003, USEPA and States will assist local governments 
in establishing alternate funding vehicles to implement CSO/SSO 
abatement construction projects.

                         STORM WATER DISCHARGES

    With increasing urban growth, storm water discharges are a growing 
concern in the Great Lakes. After heavy rains or snowmelt, pollutants 
from lawns, streets, parking lots, constructionsites, and industrial or 
commercial areas are collected in storm drains and transported directly 
to nearby waters without treatment. Illicit discharges and discharges 
from failing septic systems can also find their way to storm drains. 
``Phase I'' storm water regulations currently require permits for storm 
water discharges from industrial sites, construction activities 
disturbing five acres of land, and larger municipal separate storm 
sewer systems (``MS4's''). Phase LI regulations will require NPDES 
permits for constructionsites' disturbing one acre or greater and from 
most MS4's in urbanized areas. The focus of the permit requirements is 
to develop and implement best management practices to control 
pollutants in storm water. Phase II permits must be effective by March 
2003. USEPA and the Great Lakes States are working together to reduce 
the threat of wet weather discharges to water quality, while reducing 
pollution control costs. Other relevant activities include the 
implementation of management measures for new development under CZARA.
Key Objective:
    <bullet>  By December 31, 2003, storm water permits will be in 
place for all phase II storm water discharges (small construction and 
small MS4's), unless States choose to phase in permit coverage on a 
watershed basis.

   Biological Integrity: Protecting Human Health and the Ecosystem's 
                                Species

    Goal: To protect human health and restore and maintain stable, 
diverse, and self-sustaining populations of plants, fish and other 
aquatic life, and wildlife in the Great Lakes Ecosystem.
    Our first two goals--reducing toxic pollution and protecting 
habitats--will improve the fundamental capacity of the Great Lakes 
Ecosystem to sustain life. This goal addresses other actions needed to 
protect human health and the health of other species in the Ecosystem. 
The public requires safe drinking water and clean beaches, as well as 
clear warnings about periods when these resources may be compromised, 
to ensure their well-being. Other species that share this Ecosystem 
need to be protected from human activities, such as the introduction of 
new non-indigenous invasive species. The following actions are needed 
to ensure our continuing enjoyment of a11 these resources.

                          HUMAN HEALTH STUDIES

    The Agency for Toxic Substances and Disease Registry (ATSDR) Great 
Lakes Human Health Effects Research Program (GLHHERP) has made 
significant progress in evaluating and reporting the findings that 
address public health issues from exposure ,to contaminants in the 
Basin. The program has been proactive in initiating risk communication 
and public health intervention strategies in sensitive populations to 
reduce their exposure to persistent toxic substances. Continued support 
of our Great Lakes research program is vita] to the success of the 
overall research effort in the Basin and our capacity to' address key 
human health research gaps in the years ahead. Conclusions and finding 
from these studies will be assessed and will support management actions 
and research plans.

Key Action:
    <bullet>  Continue human health studies under the Great Lakes Human 
Health Effects Research Program, and make results available to 
environmental managers and the public.
     maintaining the great lakes as a safe source of drinking water
    The Great Lakes have been, and continue to be, an abundant and high 
quality source of drinking water for millions of people. We must assure 
that the Great Lakes continue to provide a safe source of drinking 
water for residents of the Basin. We will work together to carry out 
several initiatives that will assist us in meeting this goal.
    The SOLEC and the American Water Works Association will undertake a 
joint binational effort to assess the quality of water at 22 drinking 
water treatment plants around the Lakes. These plants will monitor raw 
water for parameters such as Total Organic Carbon (TOC), turbidity, and 
microbial indicators. Measurement of these parameters over time at the 
U.S. locations will provide a useful snapshot of the untreated water as 
it enters the drinking water treatment system.
    Under the Safe Drinking Water Act (SDWA), additional measures will 
be taken to address the possible formation of disinfection byproducts. 
The Stage 1 Disinfectants and Disinfection Byproducts Rule will require 
most large surface water plants, Including those on the Great Lakes, to 
begin monitoring Total Organic Carbon (TOC) of raw waters by January of 
2002. TOC levels are an important indicator of water quality and the 
potential formation of disinfection byproducts. This Rule requires 
additional treatments to address disinfection byproducts If TOC 
standards are exceeded in the raw water intake. This preventative 
measure will help insure that the subsequently treated water is of a 
high quality.
    The SDWA also requires Source Water Assessments (SWAs) to be 
completed by 2003 for all public water systems. SWAs are largely 
qualitative assessments of potential vulnerabilities in the system, 
identifying intake points, potential contaminant sources, drainage 
area, etc. SWAS are conducted by the States and Tribes, and 
implementation measures to reduce vulnerabilities will be carried out 
by the States, Tribes, and local governments.

Key Action:
    Beginning in 2002, USEPA, in cooperation with local utilities, will 
track water quality at the intake points of selected drinking water 
treatment plants around the Lakes. Findings will be reported to the 
public through the biennial SOLEC State of the Lakes report.

                  PROMOTING CLEAN AND HEALTHY BEACHES

    Most Great Lakes beaches provide a safe and enjoyable location for 
outdoor recreation and swimming. Past monitoring studies have shown 
that beach pollution is usually infrequent or confined to areas near 
pollution sources after a heavy rainfall or where a sewage treatment 
plant malfunctions. However, recent increases in beach advisories have 
suggested that there may not be enough information available now to 
fully define the cause and extent of beach pollution throughout the 
Basin.
    The majority of beach advisories are due to indications of the 
presence of high levels of harmful microorganisms (e.g., E. coli) found 
in untreated or partially treated sewage. Sewage enters the water from 
combined sewer overflows, sanitary sewer overflows, and malfunctioning 
sewage treatment plants and septic' tanks. Untreated storm water runoff 
from cities and rural areas, which may contain wildlife feces and pet 
waste, can be an additional source of beach water pollution.
    USEPA, in concert with States, eligible Tribes, and local agencies, 
will implement the newly passed Beaches Environmental Assessment and 
Coastal Health (BEACH) Act of 2000. The Act requires each State having 
coastal waters (which includes the Great Lakes) to review current water 
quality criteria and standards for coastal recreation waters of the 
State for certain pathogens, and adopt protective water quality 
standards. The Act authorizes studies and assessments regarding human 
health impacts of pathogens and the development of indicators for 
improving detection of pathogens in coastal waters. The Act also 
provides funding to States and eligible Tribes to develop and implement 
beach monitoring and notification programs, based on criteria outlined 
in USEPA's National Beach Guidance and Grant Performance Criteria for 
Recreational Waters.

Key Objectives:
    <bullet>  By 2010, 90 percent of monitored high priority Great 
Lakes beaches will meet bacteria standards more than 95 percent of the 
swimming season.

Key Actions:
    <bullet>  By 2005, States and local agencies win put into place 
water quality monitoring and public notification programs that comply 
with the USEPA National Beaches Guidance at 95 percent of all high 
priority Great Lakes beaches.
    <bullet>  By 2004 or according to approved TMDL schedules, States 
and local agencies will evaluate Great Lakes beaches which are closed 
more than 5 percent of the swimming season to determine pollutant 
sources.
    <bullet>  By April 2004, all Great Lakes States will adopt bacteria 
criteria at least as protective as USEPA's Ambient Water Quality 
Criteria for Bacteria--1986.
    <bullet>  By 2003, there will be pilot projects in the Great Lakes 
to support research being conducted on better indicators of the 
potential presence of pathogens, and rapid sampling technologies and 
techniques, for microbial and viral contamination to identify risk 
before exposure takes place.
    <bullet>  Federal, State, Tribal and local government agencies will 
work to reduce or eliminate closings, understand reasons for closings, 
and identify pollution sources at all monitored beaches closed more 
than 5 percent of the swimming season. USEPA win work with States to 
target CSOs, SSOs, and CAFOs that may be contributing to these beach 
closings in order to reduce or eliminate them as a source of pollution, 
and will target existing technical, administrative, and financial 
support to States and local agencies to assist in the identification 
and remediation of pollutant sources.
    <bullet>  USEPA will provide tools and available funding to State, 
local, and Tribal governments to improve infrastructure for monitoring 
Great Lakes beach water quality, communicating to the public and 
implementing actions to reduce closings. Such actions include:
  <bullet>  Encouraging the States to ensure that a reasonable 
    proportion of resources for infrastructure improvements be devoted 
    to projects having a positive beneficial effect on the water 
    quality of Great Lakes beaches.
  <bullet>  Participating in conferences, workshops, and meetings to 
    disseminate guidance and methods information to help beach managers 
    and public health officials responsible for managing designated 
    swimming waters develop or improve beach monitoring and 
    notification programs.
  <bullet>  Developing Great Lakes beach maps: beach location maps, 
    including CSOs, SSOs, and TMDLs.
    <bullet>  Develop an Internet based site that allows for transfer 
of information on beach opening status to potential customers from 
beach managers. Link local Internet based sites to State and USEPA's 
BEACH Watch websites.
    <bullet>  Federal, State, Tribal, and local governments, private 
companies, and other Great Lakes partners will work collaboratively to 
develop rapid analytical methods for bacteria (E. coli and Entercoccus 
faecalis), for protozoa (Cryptosporidium parvium and Giardia Lambia), 
and for viruses (Norwalk and Rotavirus). As an interim measure, USEPA 
will support the development of local predictive models based on rain 
events.
    <bullet>  In cooperation with States and local partners, the USGS 
will continue to pursue research and development in recreational waters 
on methods to track pathogens and indicators to their sources and will 
continue to develop predictive models of beach-water quality through 
Cooperative Water-Resources Investigations Program and other programs.
    <bullet>  States' and local communities' Coastal Zone Management 
Programs, in cooperation with NOAA, will assist in providing access to 
public beaches.

                PROMOTING A HEALTHY GREAT LAKES FISHERY

    The fishery resources of the Great Lakes are held in trust for 
society and managed through State and Tribal fishery management 
programs. Fishery resources are managed for their intrinsic value and 
for their continuing valuable contributions to society. These include 
such benefits as: a healthy aquatic environment, aesthetic and 
recreational values, scientific knowledge and economic activity, as 
well as sufficient stocks of fish for commercial, subsistence, and 
recreational anglers.
    Stressors affecting fishery resources rarely act singly, often 
having complex interactions, and frequently impact several levels of 
the aquatic ecosystem. As a consequence, remedial management must 
address problems on a comprehensive whole-system basis. A natural focus 
of the fishery agencies, therefore, is the maintenance and development 
of entire fish communities which can provide improved contributions to 
society. Such an ecosystem approach requires the protection and' 
rehabilitation of aquatic habitat and fishery management to ensure 
stable self-sustaining populations. This approach also requires the 
judicious stocking of hatchery-reared fish to meet public demands for 
recreational fishing opportunities and to rehabilitate depleted stocks 
of desirable species.
    The Great Lakes Fishery Commission (GLFC) is a binational 
organization whose commissioners are appointed by the United States and 
Canadian Federal Governments. It is responsible for the management of 
sea lampreys in the Great Lakes Basin, supporting fisheries research, 
and advising the U.S. and Canadian governments on means to improve the 
productivity of Great Lakes fisheries. The GLFC's Lake Committees, 
consisting of representatives of State, Provincial and Tribal Fishery 
agencies, have' developed fish community objectives for each lake.

Key Actions:
    <bullet>  Support GLFC Lake Committees' fishery management efforts 
so that each lake supports a healthy and productive fishery, including 
naturally reproducing populations of native fish.\7\
---------------------------------------------------------------------------
     \7\The GLFC Lake Committees' efforts are consistent with the Annex 
1 of the GLWQA, which States that lake trout should be maintained as 
the top predator in Lake Superior.
---------------------------------------------------------------------------
  PREVENTING UNPLANNED INTRODUCTIONS AND CONTROLLING INVASIVE SPECIES

    Invasive species adversely affect both the economy and ecology of 
the entire Great Lakes Basin, including aquatic, wetland, and 
terrestrial ecosystems. Over 160 invasive species have entered the 
Great Lakes-St. Lawrence system over the last 150 years. Almost one-
third of such species have been introduced since the late 1950's, 
coinciding with the opening of the St. Lawrence Seaway system and the 
associated transport of invasive species in ballast water of commercial 
vessels. Once lathe Great Lakes, these invaders can spread to nearby 
inland lakes and distant ecosystems, including the vast watershed of 
the Mississippi River\8\.
---------------------------------------------------------------------------
     \8\ Since 1848, the Chicago River diverts some of the waters of 
Lake Michigan into the Mississippi River watershed as a means of 
alleviating water quality concerns in Lake Michigan and to provide a 
navigation link between the Great Lakes and Mississippi River.
---------------------------------------------------------------------------
    The Department of Agriculture has major programs to address 
invasive species on farmland, but these efforts are narrowly focused 
and distributed among different units of government on public and 
private non-agricultural lands. Similarly, authorities and 
responsibilities for addressing aquatic invasive species are shared 
among various agencies, with the exception of the Great Lakes Fishery 
Commission that was specifically created to control the invasive sea 
lamprey. SInce 1991, the Great Lakes Commission has convened the Great 
Lakes Panel on Aquatic Nuisance Species which has promoted the 
coordination of prevention and control efforts. The panel membership is 
drawn from U.S. and Canadian Federal agencies, the eight Great Lakes 
States and the province of Ontario, tribal authorities, regional 
agencies, user groups, local communities, tribal authorities, 
commercial interests, and the university/research community. A Great 
Lakes Action Plan for the Prevention and Control of Nonindigenous 
Aquatic Nuisance Species has been recently adopted by the Great Lakes 
States and Canadian Provinces. The Action Plan includes the goals of 
preventing introductions, limiting the spread, and minimizing the 
impacts of aquatic nuisance species. The Action Plan also includes 
numerous principles, objectives, and strategic actions.
    Improved coordination and cooperation of Federal, State, and Tribal 
efforts will be needed to prevent invasive species from entering and 
becoming established in the Great Lakes Basin, as well as to research 
and develop adaptive management strategies that lessen the ecological 
and economic impacts caused by invasive species already established in 
the Great Lakes Basin. The partners to this Strategy will work together 
through existing institutional arrangements, such as the Great Lakes 
Panel on Aquatic Nuisance Species, and create new initiatives as 
necessary to advance the prevention, containment, and control of 
invasive species. The ultimate goal is to eliminate further 
introductions of invasive species to the Great Lakes Basin.

Key Objectives:
    <bullet>  By 2010, substantially reduce the further introduction of 
invasive species, both aquatic and terrestrial, to the Great Lakes 
Basin Ecosystem.

Key Actions:
    <bullet>  Ensure that all vessels entering the Great Lakes comply 
with ballast water management standards developed by the U.S. Coast 
Guard (USCG). Currently, these standards require open-ocean ballast 
water exchange where feasible. The USCG is currently developing new, 
environmentally protective standards to guide the development and 
implementation of the next generation of ballast water management 
technologies.
    <bullet>  Implement ongoing research activities and adapt 
strategies to contain and control aquatic and terrestrial Species that 
have already invaded the Great Lakes Basin, in order to reduce their 
negative impacts on native biota and their habitats.
    <bullet>  By 2005, through the cooperative effort between NOAA and 
other agencies, determine the efficiency of open water ballast water 
exchange as the primary method to prevent introductions via ballast 
water,
    <bullet>  By 2005, through the cooperative effort between NOAA, 
USEPA, USCG, and the Great Lakes shipping industry, determine the 
potential threat of ``no ballast on board'' (NOBOB) vessels and 
prioritize actions to address this issue.
    <bullet>  By 2005, further investigate the relative risk from other 
sources and pathways or including new invasive species, including bait 
fish, recreational boating, cargo, ornamental plants, and aquaculture.
    <bullet>  Develop cooperative programs between Federal agencies and 
representatives of foreign governments to identify potential source 
regions and pathways and to anticipate and prevent invasive species 
introductions Into the Great Lakes Basin.
    <bullet>  Provide information and Great Lakes perspective to 
Congress for consideration during the Act (NISA), which is expected to 
occur in 2002, as well as to the International Maritime Organization 
policy forum, which is currently developing a global policy for ballast 
water management.
    <bullet>  By 2003; develop a framework to integrate and coordinate 
multi-agency responses, including Federal, State, Tribal, and local 
agencies, to address and potentially control new invasive species as 
soon as they are discovered.
    <bullet>  Continue to examine and implement chemical, physical, and 
biological control methods to address already established species, 
including the use of barriers, such as the dispersal barrier at the 
Chicago Sanitary and Ship Canal, to restrict the spread of aquatic 
invasive species.
    <bullet>  Continue to support a variety of programs to help 
recreation boaters ensure that their boats do not transport invasive 
species via motor props, hull fouling, or in bait tank water.
    <bullet>  Continue and expand research to determine the spread and 
impacts (biological and economic) of invasive species in the Great 
Lakes Ecosystem.
    <bullet>  By 2006, coordinate and enhance the monitoring of high-
risk areas for the early detection of invasive species.

 Working Together: Effectively Coordinating Programs and Resources to 
                  Protect and Restore the Great Lakes

    Goal: To work together as an environmental community to establish 
effective programs, coordinate authorities, and hold forums for 
information exchange and collective decisionmaking, so that the Great 
Lakes are protected and the objectives of the Agreement are achieved.

          IMPLEMENTING THE GREAT LAKES WATER QUALITY AGREEMENT

    Binatlonal responsibility for the protection of the Great Lakes is 
a necessity as four of the five Great Lakes are shared by the United 
States and Canada. Beginning in 1909 with the signing of the Boundary 
Waters Treaty between the United States and Canada, there have been 
over 90 years of international and interstate cooperation on Great 
Lakes issues. The GLWQA was signed in 1972, and was amended in 1978, 
1983, and 1987. It was reviewed by the United States and Canada in 
1999-2000 and will be reviewed periodically in the future.
    The GLWQA establishes environmental goals and commitments for the 
Great Lakes to monitor and control pollution and water quality 
throughout the Basin. These goals help to establish joint priorities 
and lay the groundwork for joint strategies to clean up and protect the 
Great Lakes. The GLWQA has served as a prime example of international 
cooperation to address issues of mutual concern. The evolution of this 
institutional framework serves as a model for other areas of the 
country and for other countries to follow in the 21st century.
    As outlined in Annex 2 of the GLWQA, the Great Lakes Program is 
characterized by three progressive scales of problem definition: 
``Basin-wide'', ``Lake-wide'' and localized ``AOCs.'' Environmental 
problems are addressed at different scales depending on their scope, in 
order to design effective, prevention and control strategies. 
Consequently, the Great Lakes Program involves a ``nested'' set of 
activities, managed and implemented by an alliance of Federal, State, 
Tribal, and non-government agencies. LaMPs and RAPs are the major 
organizing tools of the program.

          THE INTERNATIONAL JOINT COMMISSION'S OVERSIGHT ROLE

    The International Joint Commission (IJC) was established under The 
Boundary Waters Treaty of 1909. The IJC is an independent international 
organization charged with preventing and resolving disputes over the 
use of waters shared by the United States and Canada. Under the GLWQA, 
the IJC assesses progress and makes recommendations to the Parties to 
restore and maintain the chemical, physical, and biological integrity 
of the waters of the Great Lakes Basin Ecosystem.
    The IJC's Water Quality Board is the principal advisor to the IIC 
on all matters related to the GLWQA. In 1996, The Water Quality Board 
made recommendations to the Parties on broad desired outcomes for the 
Great Lakes. These outcomes appear in Appendix 2.
    The USPC coordinates with the IJC and its boards, using existing 
mechanisms and protocols. It reports progress and provides responses to 
IJC recommendations to improve GLWQA implementation.

                 IMPLEMENTING LAKEWIDE MANAGEMENT PLANS

    The Great Lakes Basin presents challenges owing to its vast area, 
multiple-jurisdictions, and the unique character and nature of each 
Lake and its problems. For these reasons, a separate LaMP has been or 
will be developed for each Lake. Each LaMP's primary goal is to support 
the overall goal called for in the GLWQA to restore the chemical, 
physical, and biological integrity of the Great Lakes, and to serve as 
a mechanism to more specifically address a variety of ecosystem 
stressors or beneficial use impairments as listed in Appendix 1, such 
as critical pollutants, habitat protection and loss, nutrient loadings, 
and the control of invasive species. Loadings of critical pollutants to 
the open lake waters will continue to be reduced through the 
development and implementation of the LaMPs.
    The LaMPs will serve as the primary delivery mechanism for the 
coordination and planning of environmental/ecosystem protection 
activities for the Lakes. Each LaMP includes an identification of 
priority actions, and Implementation schedules and responsibilities. As 
of the date of this Strategy, LaMPs for Lakes Michigan, Superior, Erie 
and Ontario have been published. A Lake Huron Initiative (LHI) began in 
1999, was published, and is moving forward. The United States and our 
Canadian partners have agreed to Issue LaMP updates every 2 years, 
which will report on progress and incorporate new information as it 
becomes available. The LaMP process will assist in coordinating U.S. 
activities with Canadian Federal and Provincial governments, and among 
Federal, State, and Tribal agencies within the United States on a lake-
specific basis.

Key Actions:
    <bullet>  Continue to implement LaMPs. By April 2002, complete 
update of LaMPs and report on implementation progress. Issue updates on 
a 2-year cycle.

       CLEANING UP AREAS OF CONCERN THROUGH REMEDIAL ACTION PLANS

    The United States and Canada have identified 43\9\ geographic 
problem areas around the lakes called AOCs. There are 31 AOCs in the 
United States, and five of these are shared with Canada. For each AOC, 
a Remedial Action Plan (RAP) has been developed. Each RAP identifies 
the nature, cause, and extent of the environmental problems (beneficial 
use impairments) in the AOC and develops appropriate remedial response 
actions. Remedial response actions are implemented through the use of 
Federal and State programs and authorities. Clean up work in these 
areas has gone on for several decades, and recently there has been 
heightened attention to accelerating cleanups and delisting of AOCs.
---------------------------------------------------------------------------
     \9\ Collingwood Harbor, Ontario has been delisted.
---------------------------------------------------------------------------
    USEPA, its Federal partners and the States will continue to clean 
up AOCs and will move forward to delist areas where beneficial use 
impairments have been restored. A U.S. Delisting Principles and 
Guidelines will be published by the end of 2001.
Key Objectives:
    <bullet>  Delist at least three AOCs by 2005 and a cumulative total 
of 10 by 2010. AOCs that are initial candidates for meeting the first 
part of this goal are Waukegan Harbor, IL; Presque Isle Bay, PA; and 
Manistique, ML
Key Actions:
    <bullet>  Complete final U.S. Delisting Principles and Guidelines 
by the end o12001.
    <bullet>  By 2002, evaluate the use of a new management paradigm 
for AOC5 that better demonstrates and tracks progress toward restoring 
beneficial uses.
    <bullet>  Bring all RAPs to implementation phase by 2005. Special 
Focus Area: Lake St. Clair
    USEPA sponsored a Lake St. Clair conference in December 1999, which 
highlighted environmental concerns in this Important binational 
waterway, including sediment contamination, non-point source pollution, 
sewer overflows, fish advisories, and impacts from jnvasive species. 
Despite these problems, the lake is also recognized, through the SOLEC 
process, as an ecologically rich area. Efforts are now underway to 
address these issues, and to document historical conditions and 
existing high-quality habitat. Lake St. Clair has been identified as a 
special focus area and current and future activities are planed to 
protect the watershed.

Key Actions:
    <bullet>  Support the development of a locally driven, binational 
program to coordinate management of Lake St. Clair, including habitat 
assessment, monitoring coordination, and periodic ``State of the Lake'' 
reports and conferences.
    <bullet>  Support the development of a larger advisory forum from 
the binational community. Reporting on Environmental Indicators-Data 
and Trends
    As part of the Great Lakes Ecosystem, humans have bad an undeniable 
impact on the health of all ecosystem components.. To gain an 
understanding of the status and trends of the health of the Great Lakes 
and its ecosystem components, a set of indicators have been developed. 
No one organization has the resources, expertise, or the mandate to 
examine all aspects of the State of the Lakes. However, dozens of 
organizations and thousands of individuals routinely collect and 
analyze data, and report on parts of the health of the ecosystem.
    Because of the size of the Great Lakes and the number of collecting 
and reporting jurisdictions, a consensus by environmental management 
and natural resource agencies and other interested stakeholders 
regarding necessary and sufficient information to characterize the 
State of the Lakes Ecosystem is a way to facilitate more efficient 
monitoring and reporting programs. The relative strengths of the 
agencies will be utilize to improve the quality and timeliness of data 
collection, avoid duplication of effort, and make the information 
available to multiple users, including the general public.
    The dialog developed as part of the biennial SOLEC has been an 
appropriate launching point for addressing and agreeing on indicator 
development, information gathering, and reporting. The SOLEC process, 
which is binational, has identified over 80 indicators to date that 
will provide information on all components of the Great Lakes 
Ecosystem. These indicators will provide information to the public, the 
LaMP committees, and a wide spectrum of other Federal, State and Tribal 
agencies to gauge the health of the lakes. Trends and status will be 
coordinated with the Government Performance and Reports Act requirement 
to insure fully coordinated reporting processes and procedures. In 
addition, a Lake Michigan Monitoring Council has been formed to assist 
in ensuring that monitoring resources and information is shared, 
coordinated, and support agreed upon indicators. This effort will serve 
as a model for other Lakes.

Key Objectives:
    <bullet>  By 2006, the SOLEC, LaMP, and RAP processes will provide 
clear information on Great Lakes water quality measures, trends, and 
actions (e.g., water quality trends, fish tissue trends, beach 
closures, RAP and LaMP Implementation, ecosystems restored ); will be 
accessible to the public via the Internet; and will be updated on a 
regular basis.

Key Actions:
    <bullet>  Continue supporting SOLEC indicator process, through a 
network o Federal, State, Tribal and non-governmental groups. Include 
reports on indicators and ensure the process is fully coordinated at 
the Lake-wide and local levels.
    <bullet>  Support the establishment and operation of Lake-specific 
monitoring committees designed to coordinate monitoring, data 
gathering, and data quality activities by multiple agencies and 
organizations.

          ESTABLISHING RESEARCH PRIORITIES FOR THE GREAT LAKES

    The challenges facing the Great Lakes community are complex and 
interrelated. Addressing all of the multiple challenges discussed in 
this Strategy requires a strong, well-focused research program. 
Scientifically sound management decisions based on fundamental 
ecosystem understanding and reliable facts about human health and the 
environment are the keys to success. New research technologies must be 
developed to identify and assess environmental stressors. New remedial 
technologies must be developed to help restore and sustain the natural 
resources of the Ecosystem. The Great Lakes community is fortunate to 
have numerous Federal, Tribal, State, Provincial, and university 
research organizations that are poised to fulfill these scientific 
needs.
    The International Joint Commission's Council of Great Lakes 
Research Managers (CGLRM) has a responsibility to identify binational 
research priorities and emerging issues relative to the Great Lakes 
Water Quality Agreement. In addition, the Council produces an annual 
Great Lakes Research Inventory.
    The information produced by the Council can be used to identify the 
scientific knowledge gaps that limit the ability of Great Lakes 
managers to meet specific goals of the GLWQA. The research priorities 
and Research Inventory can assist Federal, Tribal, State, Provincial, 
academic institutions, and funding organizations in developing research 
objectives for the Great Lakes.
    Most agencies conduct or fund research that address their mission-
specific priorities. Though communication and collaboration, 
information is developed that provides the science-based decisionmaking 
framework for the management goals and key objectives throughout this 
strategic plan. Examples of several agency research programs follow:
    A broad research foundation is necessary for understanding the 
ecosystems that support the Great Lakes. NOAA has a very broad and 
multidisciplinary scientific mission in the Great Lakes. NOAA, through 
the Great Lakes Environmental Research Laboratory and through the Sea 
Grant Research and Extension Program conducts research and monitoring 
that provides the fundamental understanding necessary to model and 
predict the structure and function of aquatic environments and to 
identify and integrate information to improve the scientific basis for 
decisionmaking. GLERL houses a unique combination of scientific 
expertise in ecosystem modeling and food webs, biogeochemistry, 
invasive species, physical limnology, fish ecology, climate, 
contaminant cycling, and water resources. New tools, approaches, and 
models use the new knowledge and the growth of understanding obtained 
to advance assessment and prediction. Improved models are able to 
better predict ecosystem behavior, and hence offer better guidance to 
resource managers and decisionmakers. NOAA research partnerships with 
academia, with other Federal agencies, and with the private sector are 
critical components in an overall strategy to provide our Nation's 
leaders with the knowledge and application-oriented findings and 
recommendations they need to make informed decisions.
    The U.S. Geological Survey (USGS) is a science and Information 
agency that plays an important role in providing sound information on 
the environmental and natural resources to management and regulatory 
agencies. In the Great Lakes region, the USGS Great Lakes Science 
Center in Ann Arbor, Mi (and its eight field stations and fisheries 
research vessels on each lake) and the USGS water resources offices in 
each of the eight Great Lakes States are the most well known units of 
the USGS. The Great Lakes Science Center conducts annual fish stock 
assessments, fishery research, coastal and wetlands ecology, 
terrestrial ecology with emphasis on Federal public lands, and non-
indigenous species research. The water resources offices conduct 
tributary monitoring programs and a wide spectrum of surface and 
groundwater research. Recently, the USGS embarked upon a strategic 
change initiative and is promoting integrated scientific investigations 
that take advantage of its expertise in biology, geology, mapping, and 
water disciplines and to enhance its partnerships with other 
organizations in order to better address the resource issues nationwide 
and specifically in the Great Lakes region.
    The USEPA Office of Research and Development, in partnership with 
Program and Regional Offices, has established Clean Water and Sound 
Science research strategies that address national needs to advance 
monitoring designs for assessing the ecological condition of aquatic 
resources, develop techniques to identify causes of impairments, 
establish nutrient, habitat and toxics criteria, and forecast future 
condition to support risk-based remediation and restoration options. 
Consistent with development and implementation of these strategies,. 
USEPA's research effort in the Great Lakes Basin parallels the national 
effort. For example, the USEPA Mid-Continent Ecology Division in 
Duluth, MN, which is responsible (or coordinating and undertaking ORD's 
assessment and effects-based research in the Great Lakes Basin, meets 
semi-annually with the Great Lakes National Program Office to 
facilitate integration of the basin-specific efforts within' the 
national strategies.
    To implement a synergistic research strategy, interagency research 
coordination will he accomplished binationally on a continual basis, 
through professional conferences, agency workshops, and related venues 
that address specific key research areas. Through ongoing efforts 
undertaken on multiple program levels, addressing high priority 
research needs, the scientific community in the Great Lakes will assist 
decisionmakers in solving pressing environmental problems in the Basin.

              ENSURING U. S. COORDINATION AND COOPERATION

    The U.S. Policy Committee was reestablished and reinvigorated in 
1999 and has spearheaded the development and implementation of this 
Strategy. The USPC is comprised of representatives of State, Tribal, 
and Federal agencies. The USPC will set overall priorities and 
coordinate the development of individual actions and commitments by 
each Agency to achieve the goals, objectives, and actions in this 
Strategy.
    Each year the USPC will review the joint progress against 
priorities set and ensure collective accountability. In order to ensure 
progress and overall accountability for these joint priorities, the 
USPC will promote international, interagency, and cross-program 
coordination for the Great Lakes and ensure that the necessary 
communication and decisionmaking is occurring on a timely basis. The 
USPC may recommend adjustments in Agencies' actions to facilitate the 
accomplishment of this plan, as well as in other important related 
plans and initiatives such as LaMPs and RAPS. The USPC will be the key 
forum for developing U.S. consensus positions on Great Lakes 
environmental policy issues that will be coordinated with our Canadian 
partners.

           FOSTERING BINATIONAL COORDINATION AND COOPERATION

    The Binational Executive Committee (BEC) is a high-level forum 
composed of senior-level representatives of the IJSPC and Canadian 
counterpart agencies who are accountable for delivering major programs 
and activities to fulfill the terms of the GLWQA. The BEC derives its 
mandate from the provisions of the GLWQA which relate broadly to 
notification, consultation, coordination, and joint activity. In 
particular, Article X specifies the commitments of the Parties to 
consultation and review:
    ``The Parties (United States and Canada), in cooperation with State 
and Provincial Governments, shall meet twice a year to coordinate their 
respective work plans with regard to the implementation of this 
Agreement and to evaluate progress made.''
    The BEC meets twice a year to:
    <bullet>  Set priorities and strategic direction for binational 
programming in the Basin;
    <bullet>  Coordinate binational programs and activities;
    <bullet>  Respond to new and emerging issues on the Great Lakes, 
task existing or create new work groups to undertake designated 
activities; and
    <bullet>  Evaluate progress and ensure accountability for achieving 
commitments under the GLWQA.

                           PUBLIC INVOLVEMENT

    Public involvement is an important aspect of the successful 
management of the Great Lakes. The partners of this Strategy recognize 
our trust responsibilities to the public and commit to seeking 
meaningful public involvement in our decisionmaking process. Major 
venues for public involvement include LaMP and RAP forums, each 
comprised of a broad array of stakeholders, as well as the biennial 
listening sessions at the EJC's Water Quality Forum.
    We also recognize the extensive technical expertise of 
environmental organizations, public groups, educational institutions, 
and industry. The partners to this Strategy will actively seek views 
and perspectives on major activities through existing forums, focused 
public comment periods, and listening sessions.

Key Actions:
    Continue to foster public involvement in Great Lakes programs by 
supporting AOC and LaMP Public Advisory Councils and Forums, and other 
specially designed mechanisms to obtain meaningful involvement.

                  COMMUNICATING AND REPORTING PROGRESS

    The USPC will work with our Canadian partners to provide periodic 
updates and progress reports to the public and other entities that have 
an interest or role in Great Lakes environmental protection. The 
primary vehicle for this will be periodic reports such as the overall 
Report on the Great Lakes Ecosystem, required by section 118 of the 
Clean Water Act, as well as State and other Agency reports. Other 
important vehicles for reporting are the binational SOLEC report, and 
periodic updates and reports from the LaMP and RAP processes. The SOLEC 
report emphasizes the health of the takes from a scientific 
perspective. LaMPs and RAPs will report on progress toward achieving 
ecosystem restoration goals and restoring beneficial uses. A 
comprehensive progress report on the Great Lakes Ecosystem will be 
provided to the IJC biannually, as required by the GLWQA. The partners 
to this Strategy commit to placing reports and information on the 
Internet on a timely basis so information can reach a wide audience. In 
our implementation of the Strategy, we will endeavor to reduce 
reporting overlap and redundancy in order to improve public 
comprehension of key issues and trends.

              EMERGING PROBLEMS AND CONTINUING CHALLENGES

    The environmental protection and natural resource management 
problems of the Great Lakes Basin are a great challenge. As our 
knowledge of the Ecosystem progresses, we can expect newly identified 
problems to emerge. This Strategy is not a static work plan, but rather 
reflects an ongoing commitment to the long-term protection and 
restoration of the Great Lakes.
    Future challenges for the Great Lakes will continue to be in the 
area of traditional environmental protection, but other issues such as 
global climate change, impacts of energy policies, and water uses and 
exports may become increasingly important.

                               CONCLUSION

    This multi-Agency Strategy charts the course of environmental 
protection and ecosystem management in the Basin for the' next 5 years 
and beyond to meet the environmental challenges facing the Great Lakes. 
The focus of this Strategy is on ecosystem management and environmental 
protection. We have identified a full array of specific initiatives and 
programs to improve the Great Lakes Ecosystem. Through this Strategy, 
we continue our tradition of building cooperation and coordination 
among partners that have a shared interest and responsibility to 
preserve and protect the Great Lakes.
    This Strategy seeks to include our citizens and stakeholders in 
these actions as full participants who may take the lead in many areas. 
The States, Tribal, and Federal partners recognize the challenge of 
this effort but believe that such an approach is essential to achieving 
success. This Strategy demonstrates that we have entered a new era, 
with a commitment to renewing our partnership. We will continue to 
pursue cooperative actions to clean up and protect the Great Lakes. We 
recognize that the world's largest freshwater system and the vulnerable 
living resources that rely on it, merit the highest level of our 
efforts and attention.
            Adopted by consensus of the USPC on February 22, 2002.
                                   Thomas V. Skinner, Chair
                                              U.S. Policy Committee
            Released on April 2, 2002 in Muskegon, Michigan.

                                 ______
                                 
                               Appendix I

                       BENEFICIAL USE IMPAIRMENTS
    ELIMINATION OF IMPAIRMENTS OF BENEFICIAL USES TO THE GREAT LAKES

    The Great Lakes shall be free of the following as a result of human 
activities in the Basin:
    <bullet>  Restrictions on its fish and wildlife consumption
    <bullet>  Tainting of fish and wildlife flavor
    <bullet>  Degradation of its fish and wildlife populations
    <bullet>  Fish tumor or other deformities
    <bullet>  Bird or animal deformities or reproduction problems
    <bullet>  Degradation of benthos
    <bullet>  Restrictions on dredging activities
    <bullet>  Eutrophication or undesirable algae
    <bullet>  Restrictions on drinking water consumption, or taste and 
odor problems Beach closings
    <bullet>  Degradation of aesthetics
    <bullet>  Added costs to agriculture or industry
    <bullet>  Degradation of phytoplankton and zooplankton populations
    <bullet>  Loss of fish and wildlife habitat

                                 ______
                                 
                               Appendix 2

             DESIRED OUTCOMES FOR THE GREAT LAKES ECOSYSTEM

    Fishability--There shall be no restrictions on the human 
consumption offish in the waters of the Great Lakes Basin Ecosystem as 
a result of anthropogenic (human) inputs of persistent toxics.
    Swimmability--No public bathing beaches closed as a result of human 
activities, or conversely, all beaches are open and available for 
public swimming.
    Drinkability--Treated drinking water is safe for human 
consumption;, human activities do not result in application of 
consumption restrictions.
    Healthy Human Populations--Human populations in the Great Lakes are 
healthy and free from acute illness associated with locally high levels 
of contaminants or chronic illness associated with long-term exposure 
to low levels of contaminants.
    Economic Viability--A regional economy that is viable, sustainable, 
and provides adequate sustenance and dignity for the human population 
of the Great Lakes.
    Biological Community Integrity--Maintenance of the diversity of 
biological communities, species, and genetic variations within a 
species.
    Virtual Elimination of Inputs of Persistent Toxic Substances--
Virtual Elimination of inputs of persistent toxic substances to the 
Great Lakes system.
    Absence of Excess Phosphorus--Absence of excess phosphorus entering 
the water as a result of human activity.
    Physical Environmental Integrity--Land development and use 
compatible with maintaining aquatic habitat of a quantity and quality 
necessary and sufficient to sustain an endemic assemblage of fish and 
wildlife populations.
    Water Quantity--There will be no diversion of Great Lakes waters 
that adversely affects any aspect of the Basin.
 the international joint commission's indicators to evaluate progress 
             under the great lakes water quality agreement
    Note: The desired outcomes have been developed by an IJC indicator 
task force and are provided here for reference. For more information 
see: <http://www.ijc.org/boards/ietf/ietf.html>

                                 ______
                                 
                               Appendix 3

 BINATIONAL TOXIC STRATEGY GOALS AND CHALLENGES FOR TILE UNITED STATES

    <bullet>  Confirm by 1998, that there is no longer use, generation 
or release from sources thatenter the Great Lakes Basin, of five 
bioaccumulative pesticides (chlordane, aldrin/dieldrin, DDT, mirex, and 
toxaphene), and of the industrial by-product octachlorostyrene. If 
ongoing, long range sources of these substances from outside of the 
United States and Canada are confirmed, work within existing 
international framework to reduce or phaseout releases of the 
substances.
    <bullet>  Confirm by 1998, that there is no longer use of alkyl-
lead in automotive gasoline; reduce or replace by 2005, alkyl-lead in 
aviation fuel.
    <bullet>  Seek by 2006, a 90 percent reduction nationally of high 
level PCBs (>500ppm) used in electrical equipment
    <bullet>  Seek by 2006, a 50 percent reduction nationally in the 
deliberate use and 50 percent reduction nationally in the release of 
mercury from sources resulting from human activity.
    <bullet>  Seek by 2006, a 75 percent reduction nationally in total 
releases of dioxins and furans from sources resulting from human 
activity. Seek by 2005, reductions nationally In releases of 
bexachlorobenzene, B(a)P, and dioxins, from sources resulting from 
human activity that enter the Great Lakes Basin.
    <bullet>  Promote prevention and reduced releases of Level 11 
substances. Increase knowledge on sources and environmental levels of 
these chemicals.
    <bullet>  Assess atmospheric inputs of persistent toxic substances. 
The aim of this effort is to jointly evaluate and report on impact of 
long range transport of persistent toxic substances from world sources 
by 1998. If ongoing long-range sources are confirmed, work within 
existing international framework to reduce releases of such substances.
    <bullet>  Complete or be well advanced in remediation of priority 
sites with contaminated bottom sediments, in the Great Lakes Basin by 
2006.
                   Binational Toxic Strategy of 1997
                 <httpi/www.epa.gov/glnpo/p2/bns.html>
      
                                 ______
                                 
                               Appendix 4

         ROLE OF PARTNERS AND AGENCIES IN THE GREAT LAKES BASIN

    A number of Federal, State and Tribal agencies and jurisdictions 
have important and essential roles to play in Great Lakes cleanup and 
protection, are partners to this Strategy, and have significant 
authorities and resources that will be coordinated effectively to 
assist in accomplishing this Strategy. Following is a brief description 
of their roles and responsibilities with respect to Great Lakes cleanup 
and protection.

Role of the Great Lakes States and Local Partners
    Each of the eight Great Lakes States has environmental and natural 
resource agencies or divisions. These agencies have primary 
responsibility in implementing key pollution control programs. In 
addition, they have developed many unique programs to meet the needs of 
the Great Lakes and have been leaders, individually and as a group, in 
addressing major environmental issues. The States have primacy in 
managing fisheries and many other natural resource issues.

Role of Great Lakes Tribes and Tribal Organizations
    The Great Lakes Tribal Governments (over 30 U.S. Tribes) have 
important roles to play in ecosystem protection for the Great Lakes and 
will implement activities as part of the Tribal Environmental 
Agreements. In addition, many Tribes have participated in the 
development of this Strategy, and will assist in its Implementation. 
The Chippewa/Ottawa Treaty Fishery Management Authority and the Great 
Lakes Indian Fish and Wildlife Commission have also been invited to 
participate in implementing the Strategy. Activities within their 
jurisdictions will be identified and implemented as part of the 
Strategy.

Role of Federal Agencies
    The Agency for Toxic Substances and Disease Registry (ATSDR) has 
funded epidemiologic research in the Great Lakes Basin since 1992. Over 
the past 3 years, the ATSDR Great Lakes Human Health Effects Research 
Program (GLHHERP) has made significant progress in reporting and 
evaluating findings that address public health issues from exposure to 
contaminants in the Basin.
    The National Oceanic and Atmospheric Administration (NOAA) has 
environmental stewardship, assessment, and prediction responsibilities 
in the Great Lakes. The Office of Oceanic and Atmospheric Research, 
Great Lakes Environmental Research Laboratory conducts physical, 
chemical, and biotic research and environmental modeling, providing 
scientific expertise and services to manage and protect ecosystems. The 
laboratory's investigations help to improve the understanding and 
prediction of coastal and estuarine processes, including the 
interdependencies with the atmosphere and sediments.
    Through the National Ocean Service's Office of Response and 
Restoration (OR&R), NOAA acts for the Secretary of Commerce on behalf 
of the public as a natural resource trustee agency to protect and 
restore aquatic natural resources and associated human-use services 
such as safe navigation and transportation via maintained navigation 
channels, recreation, commercial fishing, and flood control provided by 
wetlands. OR&R actively promotes protection of aquatic species and 
habitats by working with Federal, State, and Tribal agencies, as well 
as with industry, to assess and clean up contaminated sediments in the 
Great Lakes and receiving waters. OR&R strives to resolve liability for 
natural resource injury by restoring: habitat, affected species, and 
associated services provided by those natural resources. OR&R provides 
information on shoreline classification, occurrence of biological 
resources, and human-use resources to assist in remedial and 
restoration planning at contaminated sediment sites and to support 
spill response activities. OR&R also conducts prevention and 
preparedness activities to prevent further degradation of Great Lakes 
sediments.
    The Office of Ocean and Coastal Resource Management, in partnership 
with State Coastal Zone Management programs, works with local 
communities and State agencies to preserve, protect, develop, restore, 
and enhance coastal zone resources. OCRM provides research, education, 
and protection of coastal and estuarine areas through the National 
Estuarine Research Reserve and National Marine Sanctuary programs and 
fosters economic redevelopment through Brownfields Showcase Grants.
    The National Centers for Coastal Ocean Science (NCCOS) conducts 
research, monitoring, and assessments of the coastal environment. NCCOS 
predicts impacts of pollution and coastal development on sensitive 
habitats and resources. NCCOS maintains contaminantmonitoring sites in 
Green Bay, and Lakes Michigan, Huron, St. Clair, Erie and Ontario to 
determine temporal contaminant trends.
    The Office of Coast Survey provides surveying, nautical charts, and 
other navigation services for safe shipping and boating. National Sea 
Grant Program, a partnership between universities and NOAA, encourages 
stewardship of Great Lakes coastal natural resources by providing 
funding to area universities for research of biotic, physical, and 
chemical systems, and for education, outreach and technology transfer. 
National Environmental Satellite Data and Information Service, 
Cooperative Institute for Meteorological Satellite Studies (CIMSS) 
develops and implements techniques and products to improve severe storm 
forecasting.
    The National Weather Service provides the weather and flood 
warnings, forecasts, and meteorological and hydrologic data used by 
research, environmental management, transportation, and community 
interests in the Great Lakes.
    The U.S. Army Corps of Engineers (USACE) has responsibility for a 
civil works program under which it develops, maintains, and conserves 
the Nation's water and related land resources. It administers permit 
programs related to navigation and changes to the waters of the United 
States. The USACE plays a critical role in operating and maintaining 
the navigable waterways of the Great Lakes.
    The U.S. Coast Guard (USCG) regulates pollution from ships, as well 
as the ship borne introduction of exotic species. Under the Oil 
Pollution Act of 1990, the Coast Guard has the lead responsibility for 
responding to oil spills in the Great Lakes. The USCO also works with 
USEPA to establish and implement area and regional Joint. Contingency 
Plans for spills of oil and hazardous substances in the Great Lakes.
    Three agencies of the U.S. Department of Agriculture (USDA) assist 
landowners with pollution prevention and control of non-point 
discharges-from agricultural operations: the Natural Resources 
Conservation Service (NRCS), the Cooperative State Research, Education, 
and Extension Service (CREES), and the Farm Services Agency (FSA). NRCS 
provides national leadership in the conservation and wise use of soil, 
water, plant, animal, and related resources; it works directly with 
agricultural producers on pollution prevention and control of non-point 
source discharges from agricultural operations. It also has an urban 
conservation program that provides technical assistance on non-point 
sources, such as: constructionsite runoff, fertilizer and pesticide 
inputs from lawns and other grassed areas, septic systems, flood 
control basins, and sediment storage ponds.
    The U.S. Environmental Protection Agency (USEPA) is responsible for 
the Nation's regulatory programs for air, water, pesticides, and toxic 
chemicals. USEPA also sets national direction in environmental policy. 
Great Lakes National Program Office (GLNPO) will further the systematic 
and comprehensive approach to ecosystem management of the Great Lakes, 
as required by the Great Lakes Water Quality Agreement, by working with 
the Canadians and with other Federal and State agencies to ensure that 
compatible and consistent approaches to environmental protection occur 
across the Basin. GLNPO will continue to provide leadership in updating 
and implementing this Strategy and will report overall progress, trends 
in environmental conditions, as well as specific accomplishments, in a 
timely manner to Congress and the public. GLNPO will assist the Regions 
and States in the implementation of the Great Lakes-efforts and will 
seek to fulfill its specific mission as set forth in Section 1 18 of 
the Clean Water Act. USEPA Headquarters, particularly the Office of 
Water and the Office of International Activities will continue to set 
overall national policy regarding USEPA's program and implementation of 
environmental statutes. USEPA Regions 2, 3, and 5 have important roles 
for carrying out Great Lakes programs, particularly through 
implementation and targeting of base program activities, and will 
continue this work to ensure mandates are fulfilled and goals are met.
    The U.S. Fish and Wildlife Service (USFWS) serves as trustee to 
protect the interests of endangered species, migratory birds, and 
interjurisdictional fishery resources, such as the lake trout and lake 
sturgeon, and supports the States and other Federal agencies with 
population and habitat inventories. USFWS also manages 140,000 acres of 
Federal land holdings in the form of Fish and Wildlife Refuges in this 
Region and performs resource assessment and research. They are also 
responsible for Natural Resource Damage Assessments (NRDAs) to recover 
damages for injuries caused to natural resources (e.g., endangered 
species, migratory birds, and trust fisheries) by the release of 
hazardous substances.
    The US. Forest Service (USFS) and the National Park Service (NPS) 
both play important roles as stewards of vast, and often unique, 
Federal land holdings. State and private forestry programs, a 
cooperative effort of the USFS and State forestry agencies, assist 
public and private landowners in managing and protecting forest 
resources.
    The U.S. Geological Survey (USGS) conducts various core research 
and assessment programs within the Great Lakes Region among its four 
major discipline areas of biology, geology, mapping, and hydrology. The 
major activities within the geologic discipline include detailed 
geologic mapping of glacial materials in Illinois, Indiana, Michigan, 
and Ohio; studies of earth-surface processes in areas prone to 
shoreline erosion, landslides, and earthquakes; research into the 
potential effects of changing climate on the earth and its resources; 
and aquatic-habitat mapping in coastal areas. The major activities 
within the water discipline include water-quality assessments of 
nonpoint sources of natural and human-derived contaminants in the 
watersheds of Lake Michigan, Lake Erie, Lake St. Clair, and the St. 
Clair and Detroit Rivers;, water-quality research on emerging 
contaminants such as pathogens, pharmaceuticals, pesticides, and 
mercury; a streamflow-gaging program for appraisal and assessment of 
water-resource quality and availability, for flood warning systems, and 
for drought management plans; and a groundwater levels network for 
water use, environmental assessment, and ground-water management. The 
major activities within the biology discipline include fisheries 
research and assessment in the Lakes, biodiversity studies in 
terrestrial, aquatic and coastal habitats, and research into and 
assessment of invasive species and related control practices. Major 
activities within the mapping discipline include production of a vast 
array of mapping products describing the land surface, such as 
elevation maps, hydrologic maps, maps of land use and land cover, 
studies of land-surface change in urban and agricultural areas, and new 
technologies based on satellites and remote sensing.

Role of Binational Agencies
    The Great Lakes Fishery Commission (GLFC) was established by the 
Convention on Great Lakes Fisheries between Canada and the United 
States in i955. The Commission develops coordinated programs of 
research on the Great Lakes, and, on the basis of the findings, 
recommends measures which will permit the maximum sustained 
productivity of stocks of fish of common concern. It also formulates 
and implements a program to eradicate or minimize sea lamprey 
populations in the Great Lakes., Role of Canadian Partners
    Four of the five Lakes (all but Lake Michigan) are shared with 
Canada. Coordination with Canada involves Federal agencies, as well as 
provincial agency counterparts in Quebec and Ontario. The binational 
International Joint Commission is charged with advising the national 
governments on issues of concern regarding joint stewardship of the 
Lakes. The U.S. Department of State assists all U.S. Federal agencies 
as they address Great Lakes issues of concern to both countries. USEPA 
has lead agency responsibility for coordinating activities relative to 
the Great Lakes Water Quality Agreement with Canada (as amended by 
Protocol signed November 18, 1987). The Great Lakes National Program 
Office informs the Canada-Ontario Agreement (COA) Review Committee 
(soon to be replaced by the COA Management Committee) about matters 
related to water quality and fishery resources.

                                 ______
                                 
     Statement of Gary Isbell, Ohio Department of Natural Resources

    On behalf of the State of Ohio and particularly the Department of 
Natural Resources, I want to express appreciation for the Committee's 
willingness to seek input on this serious issue affecting Lake Erie. It 
is great that there is such recognition of the value of Lake Erie to 
Ohio by our congressional delegation, and especially Senator Voinovich. 
When Senator Voinovich was our Governor, I personally had the 
opportunity to share with him our common concern for the lake and our 
common appreciation for the fantastic yellow perch and walleye fishing. 
As we examine and discuss the current issue, let's not allow people to 
erroneously conclude that the lake is dead or that the fisheries are 
not outstanding. This truly is one of the top fisheries in the country. 
While the rampant pollution problems of the 1960's and the images of 
the burning Cuyahoga River are gone, there are new challenges to the 
integrity of the lake's ecosystem and we must collectively address 
them.
    The problem of the anoxic zone in Lake Erie is not that it exists, 
but that its size, frequency, and duration are changing. The anoxic 
zone is a naturally occurring phenomenon, but can be a serious 
detriment to the ecosystem if it gets too large, thereby limiting the 
potential of the lake to produce the benefits we enjoy. The real 
problem about the anoxic zone is that just when we thought we had it 
figured out and managed, it is behaving in ways that we do not fully 
understand. We are unsettled by the observation that the reduction in 
nutrient loading, brought about by pollution controls over the last 30 
years, appear to be trumped by something mysterious. A leading 
hypothesis is that zebra mussels are at the heart of the mystery, 
perhaps recycling nutrients that contribute to the development of a 
larger anoxic zone than we would expect.
    What should be done?
    First, we must be aware that there may not be a reasonable cure or 
fix to the current problem. However, we think that the collaborative 
study sponsored by the USEPA is a step in the right direction. Levels 
of nutrients in the lake and their effects on microorganisms were 
monitored fairly comprehensively in the past through a similar USEPA 
sponsored study. However, recent monitoring has not been funded 
sufficiently to help us detect problems or devise solutions. As a 
result, comprehensive phosphorus monitoring was discontinued in 1994. 
While sampling was resumed in 1996, it has not been consistent from 
year to year and coverage of the lake has been mostly limited to 
offshore sites. A stronger and more robust monitoring effort is 
justified and fundamental to the development of sound management 
strategies for the lake. This is an effort that is appropriate for 
Federal funding and leadership. We must have solid long-term data about 
the basic features of the lake in order to detect problems and 
prescribe solutions.
    Second, this mystery about the anoxic zone is yet another wake up 
call about the seriousness of invasions of aquatic nuisance species. 
Each new invader brings with it a random box of mostly negative 
effects. Some of the effects are not so subtle, such as the predator-
prey interactions of the sea lamprey that devastated fisheries in the 
last century. Sea lamprey control in the Great Lakes is a success 
story, thanks to congressional support of the Great Lakes Fishery 
Commission. Although difficult, these types of effects are much easier 
to model and to control than the ultimate effects of nutrient recycling 
on populations of walleye or yellow perch off Cleveland. It has been 12 
years since passage of the first comprehensive Federal law regarding 
aquatic nuisance species. Even so, each year there are still more alien 
species that find their way to the Great Lakes. This is biological 
pollution that has the potential to permanently devastate many of the 
lakes' beneficial uses. A legacy we should strive to leave is a solid 
Federal policy that shuts the door to future invasions of the Great 
Lakes.
    The anoxic zone mystery is just part of a larger, complicated set 
of issues. It is encouraging to us at the State level to see Congress 
taking an interest and being willing to act. We urge you to do so 
quickly by funding more comprehensive monitoring within the lake. Lake 
Erie, given its hydrology can change very quickly. Quick action may 
avert some significant and lasting negative effects. Also, we urge you 
act with a response that is appropriately scaled to the size of the 
problem. This is a huge resource; therefore, investigations and 
solutions will not be cheap. Water quality programs, lamprey control 
measures, electric fish barriers, and ballast water management systems 
may be very expensive. However, the billions of dollars of resource 
values that are generated in the Great Lakes are worth it. Finally, we 
urge you to act comprehensively. The anoxic zone problem is not an 
isolated issue within the Great Lakes ecosystem. It is critical for 
development of long-range solutions to address the influx of invasive 
species into our waters, as well. Therefore, I would encourage Congress 
to support a re-authorization of NISA and work collaborately in 
strengthening the monitoring and survey efforts necessary. With proper 
funding, numerous State, Federal and private entities could be utilized 
to partner in the effort to conserve and protect this resource.
    Thank you again for the opportunity to provide input to the 
Committee on Environment and Public Works. Please feel free to call 
upon the State agencies for additional information or review of 
strategies that may evolve from your initiatives.

                                 ______
                                 
   Responses of Gary L. Isbell to Additional Questions from Senator 
                               Voinovich

    Question 1. Mr. Isbell, do Federal laws regarding aquatic nuisance 
species need to be revised? What changes would you recommend to 
Congress? What is the proper role of State and Federal Government 
entities in aquatic nuisance species control efforts?
    Response. Yes. Currently there is a draft law (National Aquatic 
Invasive Species Act) that is being circulated to Members of Congress. 
We would urge the Committee to give the law serious consideration, 
because it has many new provisions and timelines for prevention and 
control of nuisance species. We are currently reviewing the draft and 
will make comments directly and through various other entities (such as 
the Great Lakes Commission's Panel on Exotic Species). We view the 
Federal role of prevention of aquatic nuisance species as absolutely 
critical. Primary needs are in the area of ballast water management and 
regulation.

    Question 2. Mr. Isbell, what aquatic nuisance species has had the 
most damaging effect on Lake Erie? Are you aware of new species that 
threaten Lake Erie and the other Great Lakes? What is the State doing 
to address current and future species?
    Response. Historically, sea lampreys have had the most significant 
direct effect on fish populations. However, zebra mussels have probably 
had the most far-reaching effect, due to effects throughout the food 
chain. There are many species still in Europe that probably could 
invade, but I do not know which ones are potentially harmful. Within 
the Great Lakes, the ruffe has invaded, but has yet to spread 
throughout the range we would expect. When it comes to Lake Erie, for 
example, we would expect for it to become abundant and to have a 
significant effect on other species. Ohio is doing what it can to 
address prevention and control through its Aquatic Nuisance Species 
State Management Plan. This is a multi-agency plan that uses State and 
some Federal resources to implement control and prevention strategies. 
Much of the efforts are in the area of information/education to limit 
the spread of existing species through the actions of anglers and 
boaters. There is some direct support for the control of purple 
loosestrife in Ohio marshes.

    Question 3. Mr. Isbell, what is the most important challenge to 
Lake Erie water quality? What is the State doing to address that 
challenge?
    Response. From my perspective, I would say that toxic contamination 
is the most important challenge. We still have many Areas of Concern. 
The State is doing its part via Remedial Action Plans, implementation 
of water quality programs, etc. This is an area when other agencies 
should have the opportunity to provide comment, as well (OEPA, Health, 
etc.).

    Question 4. Mr. Isbell, please describe any research efforts being 
funded by the Lake Erie Protection Fund of oxygen depletion in Lake 
Erie.
    Response. N/A

    Question 5. Mr. Isbell, what progress has Ohio made toward 
implementing the Ohio Lake Erie Protection and Restoration Plan?
    Response. Jeff Busch, Director of the Lake Erie Office, would be 
able to answer this question. I do not know.

    Question 6. Mr. Isbell, the Lake Erie Quality Index is expected to 
be updated next year. Do you know if next year's report will show that 
we have made progress over the last 5 year
    Response. N.A.

                               __________
Statement of Professor David A. Culver, Ph.D., Department of Evolution, 
      Ecology, and Organismal Biology and The Graduate Program in 
           Environmental Science, The Ohio State University,

    The Problem: Lake Erie water quality affects drinking water, 
swimming, and fish survival High availability of phosphorus decreases 
Lake Erie water quality. Low water quality increases the amounts of 
taste and odor causing compounds and even toxic compounds from algae in 
drinking water. Toxic algae tend to float to the surface in later 
summer and can be blown to shore, increasing the likelihood they will 
be taken in by potable water intakes and causing risks for swimmers, 
and for wildlife, livestock, and pet animals that may drink from the 
shore of the lake. Toxic algae have been shown to negatively affect the 
food chain upon which fish depend. Bacterial contamination from 
combined sewer overflows similarly affects these groups.
    Causes: The thin central basin hypolimnion makes it susceptible to 
anoxia
    The cool layer at the bottom of the lake (the hypolimnion) receives 
too little light for much photosynthesis, and is cutoff from 
atmospheric oxygen because it is denser than the warm layer 
(epilimnion) floating on top. Because of the shape of Lake Erie, its 
central basin hypolimnion is only 2 or 3 m deep, whereas its epilimnion 
is 18 m deep. As the lake decreases to water levels closer to the long-
term average, the hypolimnion can become even thinner. Algae and 
animals produced in the epilimnion die and release feces that settle 
into the hypolimnion, where they decompose, consuming oxygen. The more 
nutrients available in the epilimnion, the greater the algal growth 
there. The more algae produced, the faster the rate of consumption of 
oxygen in the hypolimnion. It is a race between the rate of consumption 
of oxygen and the occurrence of the totalcirculation of the lake in 
September, which is caused by cooling of the surface waters.
    Effects: Low oxygen in the central basin bottom waters decreases 
fish habitat
    Most fish species cannot tolerate oxygen levels less than 3 ppm 
(e.g. walleye, yellow perch), and some require 4 ppm or more. Because 
the central basin is very flat, an increase in the area where 
concentration at the bottom is less than 3 ppm will greatly decrease 
the area useable by game fish and small fish upon which they depend for 
food. Lower concentrations yet will kill the benthic insects (e.g., 
mayflies) and plankton that these fish eat.
    Effects: Low oxygen in the central basin bottom waters recycles 
phosphorus, producing more algae Phosphate ions in the sediments are 
bound by iron and clays fairly well under aerobic conditions. When 
sediments become anoxic, however, the ferric iron is reduced to ferrous 
iron and the phosphate is then much more soluble and diffuses out of 
the sediment. This phosphate can be mixed up into the surface waters 
when the lake circulates in September, causing additional algal growth.
    Effects: Algae decreased in abundance from 1970 to 1997, but have 
increased since then central basin algae biomass declined from 3 to 0.6 
g/m3 from 1970 to 1997, but 2001 abundances (2.0 g/m3) (please see 
Figure 1) are now as high as they were in the early 1980's, suggesting 
that water quality improvements are being reversed. This is all 
reflected in the planktonic animals in the lake (Please see Figure 2). 
Algae increases are made up in part by toxic strains of Blue-green 
Algae, which had become rare in the early 1990's. EPA phosphorus data 
also show this trend. There is no evidence that increases in inputs 
from the watershed have occurred, although accurate estimates of inputs 
are difficult to obtain.
    Possible Causes: Zebra mussels have recycled phosphorus
    Zebra mussels have recycled phosphorus and nitrogen in algae that 
otherwise would have settled to the sediments and stayed there. They 
consume algae all year round, providing continuous recycling of 
nutrients that can encourage algal growth. Their effects will be 
particularly felt in the western basin and near shore, but these waters 
also flow into the central basin where the anoxic hypolimnion occurs.
    Possible Causes: Quagga mussels are replacing zebra mussels
    Quagga mussels (another introduced species) are replacing zebra 
mussels in the whole lake. Our preliminary data suggest quagga mussels 
excrete more phosphate and ammonia than do zebra mussels for 
equivalent-sized individuals.
    Possible Causes: Combined sewer overflows bypass nutrient removal 
at sewage treatment plants
    Phosphorus and nitrogen inputs to the lake are increased by storm-
induced overflows from combined storm water and sanitary sewers.
    Solutions: zebra or quagga mussels cannot be removed
    There is no way to remove zebra or quagga mussels from the lake.
    Solutions: decrease human input of nutrients
    If recycling by animals in the lake is increasing, our only 
solution is to decrease inputs of nutrients, particularly phosphorus, 
from point and non-point sources. As the human population increases in 
the Lake Erie watershed, it will require even greater efforts to 
decrease nutrient inputs.
    Solutions: support better nutrient modeling of the lake
    Scientific studies of the interactions among water circulation, 
nutrient inputs, and the plants and animals in the lake are hampered by 
incomplete information on the sources and amounts of nutrients coming 
in from rivers and direct discharge into the lake. I recommend 
increased efforts in monitoring inputs of nutrients, especially 
phosphorus and nitrogen into the lake.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 1. Seasonal (May-September) averages of phytoplankton algae 
wet weight (g/m3) in the western (WB), central (CB), and eastern basins 
(EB) of Lake Erie. The toxic Microcystis bloom in 1998 caused a very 
high algal weight (4.6 g/m3) in the western basin. This value was not 
included in the regression line. Names above the regression lines 
indicate the sources of data.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 2. Seasonal (May-September) averages of crustacean 
zooplankton dry weight (g/m3) in the western (WB), central (CB), and 
eastern basins (EB) of Lake Erie. Contributions of rotifers and zebra 
and quagga mussel larvae are not included. Names above the regression 
lines indicate the sources of data.
                                 ______
                                 
   Responses of David A. Culver to Additional Questions from Senator 
                               Voinovich

    Question 1. Dr. Culver, in your testimony, you explain how zebra 
mussels recycle phosphorus and nitrogen that encourage algal growth. 
According to your testimony, their effects will be primarily felt in 
the western basin and near shore. Since anoxia is unlikely to occur in 
the western basin, what is their impact on the ecosystem in this 
region?
    Response. The recycling of nutrients by zebra and quagga mussels in 
the western basin (and in the shallower regions of the central basin) 
will indeed return nitrogen and phosphorus to the dissolved phase that 
otherwise would have mostly stayed in the sediments. These nutrients 
stimulate the growth of algae, which is reflected in algal abundance in 
the western basin and nearshore areas of the central basin. In 
particular, as phosphate concentration increases, algal species 
composition changes from that dominated by the small algae easily 
edible by zooplankton that are fish food, to large, filamentous and 
colonial algae that are not. Some of these are the bluegreen algae that 
may release taste and odor compounds that are undesirable in drinking 
water or, worse, produce toxic compounds. Hence water quality and fish 
production in western basin and nearshore central basin areas may 
decline.
    Furthermore, the warm western basin water does not stay there. Its 
volume is 25 km3, and outflow averages 13.7 km3/month. About 93 percent 
of the water eventually flowing over Niagara Falls or out the Welland 
Canal comes from the western basin. The central basin volume is 305 
km3, so at least 23 percent of its surface volume is displaced by warm 
western basin water that is rich in nutrients and algae during the May-
September period while the central basin is stratified thermally. This 
result is reflected in USEPA data for the last few years that show 
increases in the algal and nutrient concentrations in the western half 
of the central basin (but not in its eastern half). Therefore, external 
loading and zebra and quagga mussel recycling activities in the western 
basin can affect water quality (and oxygen consumption) in the central 
basin. We are attempting now to determine how much they do so.

    Question 2. Dr. Culver, one of the messages I think I will take 
from this hearing is that more needs to be done to monitor inputs of 
nutrients into Lake Erie. In your opinion, what can be done to improve 
nutrient input monitoring?
    Response. Nutrient inputs come from a variety of sources. At this 
time they are monitored as Lake Huron outputs (apparently ignoring the 
effects of Lake St. Clair), atmospheric inputs, monitored tributaries, 
unmonitored tributaries (estimated by comparing the area of their 
drainage basins with those of adjacent monitored tributaries), and 
point-sources (pipes from sewage treatment facilities, industrial 
discharges, etc.). Presumably the point source data are only from sites 
for which National Pollutant Discharge Elimination System (NPDES) 
permits have been issued with their associated requirements for self-
monitoring.
    David Dolan (Univ. Wisconsin--Green Bay) has calculated annual 
loadings for recent years at the request of the USEPA (to add to his 
previous estimates up to 1993) and found the nutrient inputs from Lake 
Huron, NPDES sites, and the atmosphere have been relatively stable over 
the last few years, with most of the variation in inputs being 
associated with the impact of varying rainfall on tributary inputs 
(monitored and, by estimation, unmonitored ones as well). The tributary 
monitoring is performed by various individuals, but most notably by the 
Water Quality Laboratory (WQL) at Heidelberg College, Tiffin, OH, in 
conjunction with the US Geological Survey (USGS). USGS monitors stream 
flow and coordinates those activities with those monitoring water 
quality in the Great Lakes basin. The WQL and USGS monitoring program 
is based on stations several miles above the confluences of four major 
rivers (Maumee, Sandusky, Cuyahoga, and Grand) with Lake Erie, so there 
is no opportunity to take into account the effects of sedimentation of 
materials and their resuspension during storm events. That is, temporal 
variation in nutrient flux at the monitoring stations can be very 
different from actual discharge at the river mouth due to resuspension 
(particularly after storms) and the input of point sources. Note also 
that the WQL does not monitor the Detroit River water quality. NPDES 
discharges are self-monitored by the entities holding the permits, and 
there is little independent confirmation of data received by onsite 
measurements by the USEPA or State agencies. Combined Sewer Overflows 
(CSOs) can discharge large amounts of nutrients and bacteria into the 
lake, but these events are poorly monitored, if at all, so we have 
little information on the amounts or timing of material discharged. 
Often events are only reported as having occurred, with no measurements 
of the amount of the discharge.
    Historically, monitoring of Lake Erie nutrient inputs intensified 
in the 1970's, but decreased after the phosphorus loading targets were 
met in the early 1990's. The presumption was that less intense sampling 
was required because the lake water was clearer and the masses of 
bluegreen algae and Cladophora had abated. Those of us trying to 
estimate the contribution of zebra mussels, quagga mussels, and 
nutrient inputs into the lake, however, need to know the loading values 
for nutrients to model the system to estimate the mussels' impact. 
Annual loading estimates may be used as a ``report card'' of whether 
the lake's total loading is going up or down, but they do not serve the 
modeling community well at all.
    Therefore, I propose that monitoring can be improved by: 1) adding 
regular (continuous, or at least weekly) nutrient monitoring of river 
mouths (including the Detroit River) for flow and nutrient 
concentration with increased frequency during periods of major 
discharge (e.g., after storm events); 2) regularly making independent 
measurements of nutrient loading from NPDES-permitted discharges, 
particularly sewage treatment facilities; and 3) monitoring the 
nutrient content and volume from large storm-water discharge pipes that 
may receive CS overflows.

                               __________
 Statement of Dr. Robert T. Heath, Water Resources Research Institute 
          and Dept. Biological Sciences, Kent State University

    History of the problem of anoxia in Lake Erie: Anoxia in the bottom 
waters of Lake Erie has been observed since 1930 (Figure 1 from 
Bolsenga and Herdendorf 1993). Originally it was constrained to the 
Sandusky subbasin, the region of the lake north of Huron, between 
Sandusky and Lorain. As eutrophication of the lake increased in the 
1960's and early 1970's the region of the lake that became anoxic in 
the summer spread to cover substantial portions of the sediments of the 
central basin of the lake.
    Eutrophication of the lake was caused by excessive inputs of 
nutrients from human activities including sewage, industrial processes 
and agricultural fertilizers. High concentrations of nutrients in turn 
stimulated growth of noxious forms of phytoplankton (algae suspended in 
the water). These noxious phytoplankton (such as Microcystis) put 
compounds into the water that are distasteful and may be harmful to 
humans, thereby diminishing the quality of the water for fish and birds 
and for human consumption. These noxious phytoplankton also were 
inefficiently grazed by zooplankton, so the carbon fixed by 
photosynthesis of these phytoplankton was not moved efficiently through 
the base of the food web to higher organisms, such as fish and birds. 
Although these algae fixed large quantities of energy, it was wasted 
instead of supporting a healthy food chain. When phytoplankton died 
they sank to the lower reaches of the lake and were decomposed by 
bacteria that are natural components of the food web. The bacterial 
metabolic decomposition processes required oxygen, consuming all oxygen 
available, in turn leading to oxygen depletion in the lower waters of 
the lake. The oxygen in the lower waters is replaced only through 
circulation of the bottom waters with the oxygenated surface waters. 
Circulation is constrained because of the thermal stratification of the 
lake in the summer. Typically, complete re-circulation of the water 
column doesn't occur until the autumn and the decline of thermal 
stratification.
    Mandated constraint of inputs of nutrients to the lake in the 
1980's succeeded in reversing the eutrophication process. The essential 
nutrient in the least relative supply was identified as phosphorus (P). 
Limiting the input of P to Lake Erie was seen as the most efficient 
means of limiting growth of noxious phytoplankton. As the 
concentrations of P in forms readily available to algae and bacteria 
declined, the abundance of noxious phytoplankton declined and were 
replaced by species of phytoplankton that were efficiently grazed and 
did not diminish water quality with noxious exudates.
    The reclamation of Lake Erie's water quality and its food web from 
the eutrophic conditions that existed 30 years ago is one of the major 
successes in large-scale ecosystem management. That success is now 
threatened by increases in phytoplankton production, return of some of 
the noxious phytoplankton species, and by an increase in the area of 
the lake covered by anoxia in the late summer. The cause of this is 
uncertain.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Figure 1. Anoxic regions of Lake Erie from 1930--1982. Shaded regions 
     indicate anoxic regions detected in summer. From Bolsenga and 
                            Herdendorf 1993.

    What is different this summer? For the past decade my research 
group has investigated the structure and function of the base of the 
food web, both under the influence of zebra mussels and in their 
absence. We have focused on the uptake and transport of carbon (C) and 
P because of the significance of these elements to the ecosystem 
function.
    The base of the food web is comprised of phytoplankton, zooplankton 
(micro-crustaceans, rotifers and protists) and bacterioplankton. The 
bacterioplankton are a large number of species of non-pathogenic 
bacteria that are essential for performance of many ecosystem 
functions. The base of the food web is an interplay between growth of 
phytoplankton and bacterioplankton. The movement of energy and 
materials through the base of the food web can take two major pathways: 
1) phytoplankton can be grazed directly by microcrustaceans or 2) 
dissolved photosynthate released by phytoplankton can support bacterial 
growth and a microbial food web. We have shown that the relative 
importance of these pathways is not constant in Lake Erie. The direct 
grazing pathway is most important in coastal regions of the lake and 
the microbial food web becomes relatively more important in offshore 
and oligotrophic regions. As part of our research we have studied 
several sites that include the portion of the lake that most frequently 
became anoxic, the Sandusky subbasin (SSB).
    Here I describe in brief our findings from the past 2 years in the 
SSB and compare them with our findings from two cruises in July 2002. 
The observations that I present here were taken from a station in the 
SSB near the international boundary:

                        LAT 41o 40' LON 82o 30'

    Depth profiles of dissolved oxygen at this site are shown in Figure 
2. Dissolved oxygen concentration was determined potentiometrically 
with a Hydrolab multi-parameter data sonde, calibrated within 24 hours 
of the observation. Oxygen depletion in the bottom waters at this 
station is not unique to this summer.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Figure 2. Depth profiles of oxygen concentrations during July 2000, 
                2001, 2002 at Sandusky Subbasin Station.

    Following collection of physical variables onsite, water samples 
were collected and returned to the Biochemical Limnology Laboratory at 
Kent State University where we examined the status of the base of the 
food web. Our observations are summarized in Table 1. We also provide a 
comparison with the past 2 years and note observations that are 
statistically and scientifically significant in bold type.
    Water transparency, estimated by the maximum depth at which a 20 cm 
white plate can be discerned--the Secchi depth--is significantly lower 
this summer than in the recent past indicating a significant decrease 
in the transparency of the water. We also observed a significant 
increase in chlorophyll content in samples over past years. This 
increase in chlorophyll supported photosynthesis. The ``health'' of the 
algae is indicated by the photosynthetic potential and the optimum 
photosynthetic rate, scaled for unit amount of chlorophyll. The 
observations indicate that the algae are growing actively; their 
photosynthetic capabilities do not appear to be limited by nutrient 
availability. Consistent with this is seen a significant increase in 
the amount of P in algal particles. When algae are in nutrient rich 
waters they store excess amounts of P in their tissues as insurance 
against nutrient limitation at a later time.
    We also observe large amounts of P in bacterial particles. Bacteria 
growing actively increase their amount of P by increasing the amount of 
RNA, an essential biochemical necessary for protein synthesis and 
active growth. Active bacteria, in general, increase in size and rate 
of incorporation of dissolved carbon compounds. We observed that 
bacteria this year were significantly larger, and incorporated 
significantly more dissolved leucine (a dissolved biochemical compound 
we use to test their growth rate). Our observations are consistent with 
the view that bacterioplankton in Lake Erie are growing significantly 
faster than in years past--at least at the site and times we have 
investigated. Available-P, estimated both with a bioassay and by 
chemical means, does not appear to differ significantly this summer vs. 
previous summers. The amount of dissolved organic P (DOP) is 
significantly increased and the total P is significantly increased.
    Our observations indicate that phytoplankton remain P-limited and 
susceptible to management plans devised around the assumption that they 
are P-limited. The phosphate turnover times of about 30 minutes 
indicate that the plankton community is P-limited but not severely so. 
If it were severely P-limited, many plankton would be capable of 
producing large amounts of alkaline phosphatase to obtain available P 
from certain DOP compounds. Alkaline phosphatase is detected 
fluorometrically by the hydrolysis of methyl-umbelliferyl phosphate 
(MUP). The rate of MUP hydrolysis can be used to detect P-limitation, 
high MUP rates indicate severe P-limitation. The rates of MUP 
hydrolysis were modest, indicating that the community is not severely 
P-limited.
    These findings (based on very limited observations) are consistent 
with the view that phytoplankton and bacterioplankton--the base of the 
food web--are more abundant and active this year in Lake Erie than in 
the recent past. We observe significant increases in the amount of P as 
dissolved organic P, forms of P available for phytoplankton growth only 
under certain conditions. The sources of additional DOP and the 
stimulation of plankton growth are unknown and a matter of concern and 
conjecture.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Implications for increased regions of anoxia: Given these 
observations, I believe a likely explanation for increased regions of 
anoxia in Lake Erie is increased production at the base of the food 
web. If these increased amounts of phytoplankton are incompletely 
grazed, they could sink to the lower regions of the lake on death and 
be decomposed by natural non-pathogenic bacteria that consume oxygen to 
depletion. I should like to emphasize that this explanation is not the 
only possible explanation; it is the one I regard as the most likely 
explanation. Natural geochemical and biological processes can also 
consume oxygen. Oxygen consumption by these natural processes is 
normally replenished by entrainment of oxygenated waters during storms. 
During unusually long periods of stagnation, oxygen can be depleted 
from bottom waters without extraordinary production occurring in the 
surface waters.
    Possible Causes of increased phytoplankton and bacterioplankton 
growth: Because the phytoplankton appear to be P-limited (although 
weakly), I believe we need to examine possible sources of P and the 
processes by which it can be supplied at a rate to support increased 
phytoplankton growth.
    External loading of P comes from the watershed but external to the 
lake. Such external sources can come from identifiable points (point-
source loading: sewage treatment plants, combined sewer overflows, 
industrial effluents, etc.). Regulation of point source loading is 
strict and generally works well to control unwanted excessive inputs of 
P to the lake. Alternatively, non-point sources of P-loading from 
sources such as agricultural and residential runoff of fertilizers is 
not well regulated nor easily monitored because of its diffuse nature.
    Internal loading of P is a term applied to processes that recycle P 
already in the lake from unavailable forms to available forms of P 
(e.g. inorganic orthophosphate). P is unavailable for growth of 
phytoplankton and bacteria when it is sorbed to sediments, when it is 
in dissolved organic P compounds (DOP), or when it is incorporated into 
living or dead organic particles. P sorbed to sediment surfaces can be 
released when the oxygen concentrations decline below 0.4 ppm. This 
means that when oxygen is depleted from waters immediately above the 
sediment surface, P can be released in a useful form by desorption, 
potentially further stimulating the growth of P-limited phytoplankton. 
P can also be released in useful forms through the action of certain 
enzymes capable of hydrolyzing specific DOP compounds (Francko and 
Heath 1979) or through photolysis of DOP compounds by UV light capable 
of penetrating several meters into clear lake water (Cotner and Heath 
1990). High temperatures of the lake water can increase the activity of 
hydrolytic enzymes acting on enzyme-sensitive DOP; clear water and 
increased intensity of UV light can increase the rate of photolysis of 
UV-sensitive DOP.
    Organisms grazing on particulate organic matter (e.g. living or 
dead tissue material) release P in available and unavailable dissolved 
forms. Increased grazing activities by zebra mussels and their 
congener, quagga mussels, may be a source of increased P-availability. 
My research over the past several years has shown that zebra mussels 
release sufficient available P to relieve phytoplankton in surrounding 
waters from P-limitation (Heath et al. 1995). Their effect on the whole 
lake community remains unclear (Heath et al. 2000), although they may 
exacerbate blooms of the nuisance cyanobacterium, Microcystis (Culver 
et al. 1999).
    Conclusions and Specific Recommendations: It is not clear why the 
zone of anoxia has apparently begun to expand after at least a decade 
of being confined to small regions of the central basin of Lake Erie. 
With apparent increases in phytoplankton abundance, it is tempting to 
reminisce about the causes of large regions of anoxia observed during 
the 1960's and early 1970's. Anoxia of those days resulted from 
eutrophication due to excessive external loading of available P from 
point sources. Because of the great restrictions on point-source P-
loading, it is unlikely that the current problems arise in the same 
way. The role of other sources needs to be investigated. It is unclear 
whether external non-point source loading from urban and agricultural 
sites or internal loading due to zebra-and quagga mussels or a 
combination of external and internal sources are capable of causing the 
problems currently observed.
    I don't believe we need new research of the issues involved as much 
as we need new ways of placing current research into a more useful 
context.
    (1) Research on ecosystem level effects of P-loading and the 
possible effects of dreissenid mussels need to be placed into 
comprehensive models useful for ecosystem management. The ``Great Lakes 
Modeling Summit: Focus on Lake Erie'' (IJC 2000) is an excellent point 
of departure for this purpose.
    (2) Scientific research on the Great Lakes needs to move beyond its 
current ad hoc status by incorporating continuous comprehensive 
monitoring activities at levels far expanded beyond current efforts.
    (3) The Great Lakes need to be valued as national (indeed, an 
international) treasures rather than being viewed as regional resources 
alone. Issues besetting the Great Lakes need to be addressed in 
innovative bi-national ecosystem research, monitoring and management 
programs.
References:
  Bolsenga, S. J. and C. E. Herdendorf. 1993. Lake Erie and Lake St. 
    Clair Handbook. Wayne State Univ. Press. (Detroit). x + 467 pp.
  Cotner, J. B., Jr. and R. T. Heath. 1990. Iron redox effects on 
    photosensitive phosphorus release from dissolved humic materials. 
    Limnol and Oceanogr. 35: 1175--1181.
  Culver, D. A, D.B. Baker, R.P. Richards, A.M. Beeton, T.H. Johengen, 
    G.A Leshkevich, H.A. Vanderploeg, J.W.Budd, W. W. Carmichael, R.T. 
    Heath, C. E. Wickstrom, H.J. MacIsaac, and L.Wu. 1999. ``Toxicity, 
    ecological impact, monitoring, causes and public awareness of 
    Microcystis blooms in Lake Erie.'' Final Report to the Lake Erie 
    Commission. 57 pp + 12 tables + 78 figures. 31 March 1999.
  Francko, D.A. and R.T. Heath. 1979. Functionally distinct classes of 
    complex phosphorus compounds in lake water. Limnol and Oceanogr. 24 
    (3):463-473.
  Heath, R.T. 1986. Dissolved organic phosphorus compounds: do they 
    satisfy planktonic phosphate demand in summer? Can. J. Fisheries 
    Aquat. Sci. 43 (2):343-350.
  Heath, R.T., G. Fahnenstiel, W.S.Gardner, J.F. Cavaletto and S-J 
    Hwang. 1995. Ecosystem level effects of zebra mussels (Dreissena 
    polymorpha): An enclosure experiment in Saginaw Bay. J. Great Lakes 
    Research 21: 501--516.
  Heath, R.T., X. Gao, H. Wang, and V. Mattson. 2000. Influence of 
    zebra mussels on phytoplankton photosynthesis in Lake Erie. Ohio 
    Journal of Science 100: A-43.
  Int. Joint Com. 2000. Great Lakes Modeling Summit: Focus on Lake 
    Erie. ISBN 1-894280-17-2.
    Acknowledgements: This work was supported by grants from the Lake 
Erie Protection Fund (98-09) and Ohio Sea Grant (R/ZM-25). I thank Dr. 
Xueqing Gao and Tracey Trzebuckowski for help in preparing this report 
and Carla Skytta and Laurie White for technical assistance.

                               __________
Statement of Elaine Marsh, Lake Erie Region Representative, Great Lakes 
                                 United

    Dear committee members: I am here as the Lake Erie regional 
representative on the board of Great Lakes United, an international 
not-for-profit coalition dedicated to protecting and restoring the 
Great Lakes-St. Lawrence River ecosystem. Great Lakes United's 150 
member groups represent tens of thousands of people from the eight 
Great Lakes States and the Provinces of Ontario and Quebec.
    The Great Lakes are the largest surface fresh water supply on 
earth, representing almost 20 percent of the world's fresh surface 
water. They are irreplaceable and nonrenewable--a gift of the last 
glacier, renewed at less than 1 percent annually.
    There is no one answer to the question of why anoxia is occurring 
in the central basin of Lake Erie. We know that it is a historical 
problem since the 1930's, that it peaked in the late 1960's and early 
1970's, and that it was largely alleviated at that time by pollutant 
and discharge regulation measures taken in the 1970's. Specifically, 
these included phosphorous controls including bans on phosphates in 
detergents and construction and upgrade of sewage treatment plants 
around the Great Lakes.
    The research performed at that time alone gives us one important 
clue as to what is happening in Lake Erie. As the shallowest, Lake Erie 
is the most vulnerable of the Great Lakes to stress. Lake Erie is 
currently suffering from lower than normal levels and warmer than usual 
temperatures. At the same time, the sewage treatment infrastructure 
around the Lake is aging, and bacteria counts along many community 
shorelines are on the rise. This is indicated by the rising number of 
beach closings around the Lake after storm events, which cause combined 
sewer systems to overflow directly into tributary streams or into the 
Lake itself.
    The nutrients in raw sewage fertilize vegetation in the Lake, 
especially algae, which grows, blooms, dies and decays. Decaying algae 
consumes oxygen.
    The problem may be intensified by lower water levels, warmer water 
and clearer water. Clearer water allows sunlight to penetrate further, 
which again contributes to algae growth. Lake Erie waters are clearer 
since the invasion/colonization of the Lake by zebra and quagga 
mussels, which consume and filter floating debris. Massive die-offs and 
decay of exotic species unsuited to ecosystem conditions in the Lake 
may also be consuming oxygen.
    Low water levels, exotic species and aging sewage treatment plants 
are all likely to be contributing to the anoxic conditions in Lake 
Erie.
    These are large problems requiring large solutions. Great Lakes 
groups are calling for a new era of investment in sewage treatment. We 
believe the ``dead zone'' in Lake Erie and the increased number of 
beach closings around the Lake are strong indicators that untreated 
waste inputs are on their way to becoming a health crisis for Lake Erie 
communities. Great Lakes citizens are advocating an immediate end to 
combined and sanitary sewer overflows into Great Lakes waters, and 
mandatory notification of daily bacteria counts at public beaches to 
increase awareness as well as safety for the region's population.
    We must protect Lake Erie and all the Great Lakes from new influxes 
of exotic species such as the zebra and quagga mussels which are 
thought to be linked not only to the anoxia in Lake Erie but also to 
the botulism outbreak that has devastated fish, amphibian and bird 
populations in the eastern basin. Great Lakes citizens are calling for 
invasive species legislation in Canada and the U.S. by 2004 that 
include ballast water standards that eliminate the risk of exotic 
specie introductions, or that foreign ships be restricted from 
discharging the contents of their ballast tanks at any time.
    Finally, in terms of protecting Great Lakes water levels from the 
potential future effects of climate change, we need to greatly reduce 
CO<SUP>2</SUP> emissions from two major sources: coal-fired power 
plants and automobile emissions. Great Lakes citizen groups are 
advocating for mandatory caps on CO<SUP>2</SUP> emissions from the 
power and transportation sectors that guarantee reductions of 
CO<SUP>2</SUP> emissions by 60 percent by 2020.
    In closing, we ask the Committee to support research on Lake Erie 
under the binational Lakewide Management Plan, headed by the EPA's 
Great Lakes National Program Office and Environment Canada's Great 
Lakes Program. The LaMP mechanism, set up under the Great Lakes Water 
Quality Agreement, includes the government partners as well as the 
public participation that are critical to successfully dealing with the 
complex set of events that are currently affecting Lake Erie.
    We also ask the Committee to support restored funding to the US 
Fish and Wildlife Service Lower Lakes program to enhance monitoring and 
oversight of Lake Erie and Lake Ontario.


                                 ______
                                 
    Responses of Elaine Marsh to Additional Questions from Senator 
                               Voinovich

    Question 1. Ms. Marsh, in your testimony you state that phosphorus 
controls have alleviated Lake Erie's problems over the last several 
decades. Given today's concerns, do you think we ought to do more to 
control phosphorus inputs into Lake Erie?
    Response. Emphatically yes, Great Lakes United believes more needs 
to be done to control phosphorus. We need to determine and control the 
current loadings of phosphorus from all sources.
Current de-emphasis on tributary deposition
    I have heard and read the statement that while the phosphorus 
levels in the Lake Erie are rising, levels in the tributaries are 
declining. This is certainly not true of the Cuyahoga River, the river 
with which I am most familiar. The phosphorus levels in the lower 
Cuyahoga exceed the Ohio EPA target levels during nearly all flow 
regimes. For many years, Hiram College has monitored a stretch of the 
lower river for a number of parameters, including phosphorus. 
Therefore, the phosphorus information that we have on the lower river 
is empirical, and we can have confidence in the data.
    However, since phosphorus is not a regulated pollutant in the NPDES 
system, ambient phosphorus levels, both particulate and dissolved, may 
not be available in many tributaries. And while Storm Water Phase II 
may have some monitoring effect on the overall particulate forms of 
phosphorus, the program will not affect dissolved forms. And it is the 
dissolved forms which are of greatest concerns to the anoxia problem in 
Lake Erie.
Monitoring tributaries
    Since phosphorus is not a regulated pollutant, consistent 
monitoring of total phosphorus and phosphates is not required. This can 
result in an inconsistent or sporadic monitoring program which may not 
capture an accurate picture of loading. Often, this sporadic 
information goes into modeling equations which drive conclusions and 
recommend technology controls.
    The Lake Erie basin is a very dynamic system. We believe that too 
much of the information that we have about tributary loadings comes 
from incomplete, sporadic sampling. That information gets built into 
models. And while modeling is a very effective tool without which we 
would be very restricted, it only works in a system which is fairly 
predictable.
    We believe that the Lake Erie monitoring and modeling system needs 
to be evaluated and revised. The current research effort should result 
in recommendations for a broader model and for an on-going monitoring 
program.
    Also, current research efforts should identify all institutions 
that are currently monitoring phosphorus and establish a data 
collection system.
    Partnering opportunities should be identified for major tributaries 
which have no current monitoring program.
Nutrient limits
    We believe that EPA should move forward to regulate nutrient 
loadings. EPA has been studying this issue for the past several years. 
The agency should move forward to publish enact rules and guidance on 
nutrients. Phosphorus limits, regulated through the NPDES system, will 
greatly reduce phosphorus loading, regardless of their sources, as 
local and State governments will be required to examine strategies and 
policies to achieve compliance. To date, chemical numeric standards are 
the only enforcement strategy which has effectively and uniformly 
reduced pollution loading. Phosphorus limits in the NPDES system will 
be an effective way of reducing anoxia in the Lake.
CSOs and SSOs
    These antiquated systems must be corrected. Billions of gallons of 
untreated water flow into Lake Erie each year. The amount of phosphorus 
this water contributes to Lake Erie is astonishing. With the nine 
minimum control strategy, we are beginning to quantify the 
contributions from CSOs.
    In addition to phosphorus loading, CSOs take a weighty toll on 
recreation, human health, quality of life and economic development. 
Here in the Cuyahoga watershed, we enjoy the beauty of the Cuyahoga 
Valley National Park and of the Ohio and Erie Canal National Heritage 
Corridor. However, due to poor water quality in wet weather related to 
CSOs, water-based recreation, even wading, poses significant threat to 
human health. And along certain stretches of the Ohio and Erie Canal 
Towpath Trail, one of the nation's most visited trails, the smell of 
sewage is overwhelming.
    Over the past several years, municipalities and sewer districts 
impacted by CSOs and SSOs have been arguing that wet weather standards 
should be lowered. They argue that the bacteria standards for primary 
contact cannot be attained in wet weather in urban stream. If this 
argument results in allowing CSOs and SSOs to continue discharging 
untreated waste into our streams, it will be a disaster.
    Please help hold the standard. This is not the time to argue 
attainability.
    Let's correct the sewers and then, perhaps, attainability might be 
a reasonable topic. There is no argument that can justify dumping 
untreated waste into our streams, our fishing holes, our canoeing 
rivers, our stone-skipping runs, or our drinking water source. We must 
rise to the occasion. We must for do it for health of our streams, the 
health of our children, the health of our local economies and the 
health of our future. And, we must do it in order to face our legacy 
with dignity. What will we tell the next generation if we don't solve 
this problem? How can we hold ourselves as the world's superpower and 
refuse to treat our own waste just because we don't want to spend the 
money?
    Correcting CSOs will have a substantial effect on phosphorus 
loadings in Lake Erie and an enormous effect on recreation and quality 
of life in the basin.
    We hope that the Senate will probe into the issues of funding and 
policy related to SSOs and CSOs. We hope that Senator Voinovich will 
continue to be a leader on this issue.
Non-point source contributions
    Stream protection, wetland retention, control of impervious 
surfaces and urban forestry are topics that must be addressed in order 
to minimize run-off that contributes significantly to phosphorous 
loading. Ohio EPA research indicates that hydromodification and urban 
run-off are the largest---- growing causes of pollution in our streams. 
In order to reduce the phosphorus contributions from non-point sources, 
the Senate should enact laws that restore protection to isolated 
wetlands, protect and encourage the natural stream channel, encourage 
the protection and restoration of the flood plain, and encourage the 
preservation and restoration of the urban tree canopy.
    What we have come to understand is that if we are to effectively 
manage our environment, we must expand our definition of infrastructure 
to include measures that provide a sustainable environment. The 
environmental service of green infrastructure is as important as 
traditional infrastructure.
    Engineers of our future infrastructure will include wetland 
ecologists, urban foresters and geo-fluvial hydro-morphologists. Lake 
Erie would be an excellent place to locate a large-scale demonstration 
project on green infrastructure as a strategy to reduce phosphorus 
loading. Certainly, the Cuyahoga River would be a likely spot for such 
a project.

    Question 2. Ms. Marsh, what do you think should be done help 
prevent the introduction of additional aquatic nuisance species into 
the Great Lakes? What should we do to address species that have already 
been introduced into the Great Lakes? What is the appropriate role of 
the Federal Government and State government in aquatic nuisance species 
control?
    Response. Aquatic nuisance species are arguably the No. 1 problem 
facing the lakes. Both existing but as-yet unidentified introductions 
and new introductions have the potential to catastrophically decimate 
the Great Lakes food web and general lakes ecology as we know it today. 
Current efforts to control new introductions are of extremely limited 
effectiveness. Attached to this submission are articles from past Great 
Lakes United newsletters that summarize current scientific research 
that addresses the severe potential consequences of the deficiencies of 
current aquatic nuisance species control programs.
    Of top priority is the prevention of new invasive species into the 
Great Lakes basin. The United States should make protection from the 
introduction of all invasive species a national priority. Strong and 
fully funded national policy, such as the reauthorization of the 
National Invasive Species Act (being reauthorized as the National 
Aquatic Invasive Species Act) is critical for the long term prevention 
of introductions for all of the Nation. It must be noted that while the 
draft NAISA appears strong, it could take decades to realize the 
benefits from this legislation. The Great Lakes need better, more 
immediate protection.
    Furthermore, strong national policies to prevent invasive species 
are moot if the Federal Government also pursues navigation expansion 
projects that would further facilitate, and increase the number of, 
future invasions into the Great Lakes. The current Great Lakes 
Navigation System review, which is in its draft reconnaissance phase, 
proposes to investigate the feasibility of expanding the Great Lakes 
navigation system to allow larger oceangoing ships into the basin. This 
approach to enhancing the movement of goods in the basin is problematic 
for many reasons. Perhaps the most important is the certainty of an 
increased pace of invasions from the ballast water of oceangoing ships.
    The Federal Government should direct the Army Corps of Engineers to 
examine alternative means of moving goods through the Great Lakes basin 
that prevent new invasions and reduce the movement of invasive species 
within the basin. Great Lakes United articulated some alternative 
approaches to the Corps in an April 2002 letter. A properly designed 
study would look at:
    <bullet>  How to modify trade on the Great Lakes to reduce the 
overall impact of shipping trade on the Great Lakes-St. Lawrence River 
ecosystem
    <bullet>  The feasibility of restricting foreign ships that trade 
in the basin to a central transfer station in the lower reaches of the 
St. Lawrence River
    <bullet>  Assessing the environmental benefit of this trade 
modification on the lakes, the subsequent economic benefit associated 
with this environmental protection and the cost and benefit of 
establishing a fixed ballast water treatment facility to service both 
domestic and foreign ships trading in the Great Lakes-St. Lawrence 
River basin and the Laurentian channel.
    These alternative approaches to the study of Great Lakes navigation 
could lead to basin transportation modifications that support both 
overall economic development and the vitality of basin sub-economies 
that depend substantially or entirely on the health of the ecosystem.

                               __________
   Statement of Gerald Matisoff, Professor and Chair, Department of 
          Geological Sciences, Case Western Reserve University

    I am Gerald Matisoff, Professor and Chair of the Department of 
Geological Sciences at Case Western Reserve University. I have been 
asked to provide technical expertise to the Committee because of my 
role as Project Director of the EPA-funded grant ``Lake Erie Trophic 
Status'' which began this summer. I have also served as Editor of the 
Journal of Great Lakes Research for the past 5 years and have been 
active in Great Lakes research since the 1970's. Attached to this 
document is a CV which lists my publications pertinent to Lake Erie.
    Provided here are brief comments about why anoxia is occurring in 
the central basin of Lake Erie, about the effects of anoxia on the Lake 
Erie ecosystem, and about solutions to prevent anoxia from occurring in 
the future. My comments are necessarily brief, in part because we don't 
have complete answers to all of your questions so more detailed 
explanations would border on speculation, and in part because of the 
limited time in which to prepare my report. I would be happy to provide 
you with additional information or answer additional questions at a 
later date.
Causes of Anoxia
    Low oxygen during the summer in the bottom waters of lakes is a 
natural phenomenon. What happens is that heating of the surface of a 
lake during the spring warms the surface water. Since warm water is 
less dense than cold water, it floats on top, effectively isolating the 
cold bottom water from the atmosphere. As a result, although the 
surface water can replenish oxygen by exchange with the atmosphere the 
bottom water cannot. Bacterial respiration of organic matter in the 
water column and on the lake bottom consumes oxygen, so oxygen 
concentrations in the bottom water gradually decrease throughout the 
summer. Water with low oxygen concentrations are termed ``hypoxic''; if 
oxygen concentrations go to zero, then the water is termed ``anoxic.'' 
In the autumn, the surface waters cool and when the densities of the 
surface water and bottom water are the same the water column mixes 
vertically destroying the 2-layer stratification and oxygen is returned 
to the deeper water and nutrients in the bottom water are mixed into 
the surface water. This process is termed ``fall overturn'' and occurs 
in Lake Erie's central basin during August to September.
    Human activity can and has exacerbated the development of anoxic 
bottom waters. The addition of algal nutrients such as phosphorus (and 
nitrogen in coastal ocean systems) from fertilizer derived from 
agricultural runoff and from sewage discharges has led to an increase 
in algal growth and a consequent increase in the amount of organic 
matter undergoing respiration and decay during the summer. This process 
is termed ``eutrophication.'' The Great Lakes research community played 
a major leadership role in the 1960's and 1970's in demonstrating 
eutrophication control by phosphorus load reduction. The basic approach 
was to synthesize a great deal of eutrophication process-oriented 
research into complex mathematical models of the relationship between 
nutrient loads and eutrophication symptoms, then those models were used 
to set target P loads for each lake or major embayment, then the IJC 
recommended programs that would achieve those loads, then the Parties 
implemented those programs; and when the target loads were achieved the 
models were post-audited and in general found to be ``right on'' in 
their predictions. For Lake Erie that target load is 11,000 metric tons 
of phosphorus per year. Twenty years later this process has been 
heralded as one of humankind's greatest environmental success stories 
and since then it has been copied and implemented in numerous other 
locations throughout the world.
    Data from the IJC and from EPA indicates that the phosphorus 
loading goal of 11,000 metric tons per year has, more or less, been 
achieved on a regular basis over the last decade or two. So the 
question is why, if phosphorus loading goals have been met, are anoxic 
bottom waters recurring in the central basin of Lake Erie? My multi-
investigator research project, ``Lake Erie Trophic Status'' is an 
initial survey to begin to answer this question.
    There are at least three potential explanations which are 
illustrated in Figures 1 through 3. The first hypothesis is that the 
problem is climate related (Figure 1). Variations in climate which lead 
to a longer time period in which the lake is stratified or leads to a 
thinner bottom water layer will lead to the development of anoxia in 
the bottom waters. These conditions include a longer summer season, a 
warmer, less windy season, lower lake levels, or temperature conditions 
that lead to the development of a thin bottom water layer. Because Lake 
Erie is so shallow it naturally has a thin bottom water layer and is 
therefore more susceptible to anoxia than the other, deeper Great 
Lakes.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 1. Effects of climate on the development of bottom water 
anoxia. Anoxia can be facilitated by a longer summer season, a warmer, 
less windy season, lower lake levels, or a thinner bottom water layer.
    A second hypothesis is that the actual P loading to Lake Erie is 
greater than we are aware of (Figure 2). This could occur because there 
may be unrecognized P loadings, some point source P loadings may be 
under-reported, or there may be errors in how some P loadings are 
calculated, especially from unmonitored non-point source tributaries. 
If P loadings are actually higher than it is thought, then axoxia may 
be occurring because the target goal of 11,000 metric tons per year 
actually has been exceeded.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The third hypothesis is that zebra mussels changed the carbon 
transfer system of the lake from a pelagic food web to a benthic system 
(Figure 3). Before zebra mussels, Lake Erie had a pelagic food web 
where phytoplankton (or at least the larger size fractions) were 
consumed by zooplankton which were fed on by fish. Since the 
introduction of the zebra mussel the phytoplankton have been removed 
from the surface waters of the lake by the filtering action of the 
zebra mussels. In addition, zebra mussel filtration has facilitated 
deeper light penetration which has allowed benthic algae and rooted 
aquatic plants to grow. This has put the majority of the carbon on the 
bottom of the lake where its decay will consume bottom water oxygen.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Effects of Anoxia
    The development of bottom water anoxia has a number of undesirable 
consequences. Perhaps the most obvious are massive fish kills. Fish 
kills result from species that need cold oxygen-rich water to survive 
but find neither the warm surface water nor the cold anoxic water 
tolerable. Second, there are often taste and odor (musty smell) 
problems that occur because of blooms of undesirable algae. Anoxic 
bottom waters can cause ecosystem changes; for example, mayfly nymphs, 
a desired food for several fisheries, cannot survive in bottom waters 
that periodically go anoxic. In fact, their recent return in large 
numbers in the western basin of Lake Erie has been cited as evidence of 
the positive response of the lake to reduced phosphorus loadings. 
Fourth, anoxia and especially eutrophication can lead to blooms of 
nuisance and toxic algae and the production of water-borne toxins. 
Anoxia can also lead to increased phosphorus cycling and further 
eutrophication. Finally, anoxia results in other beneficial use 
impairments, such as beach closures.

Solutions to Anoxia
    Since the cause(s) for the current anoxia are not known, it is 
premature to propose solutions to solve the problem. The key to 
determining an appropriate solution to anoxia is to identify the 
cause(s), understand how the ecosystem responds to the stresses, and 
then select an appropriate course of action based on potential for 
success, adverse effects, ease of implementation, and cost. However, if 
the problem is recurring and expected to continue to remain a problem 
in the foreseeable future, then the target phosphorus load of 11,000 
metric tons per year may need to be revisited. Some other causes, for 
example a zebra mussel induced problem, will have other possible 
solution options. Some of these may be untenable or excessively 
expensive, such as controlling the zebra mussel population by 
eradication (like lampricide applications for sea lamprey control) or 
may include natural or induced biological control (such as predation on 
zebra mussels by round gobies). Climate change causes certainly have 
significant implications for lake water levels and water diversions. 
One area of concern is that the continuing introduction of non-
indigenous species has generated an ecosystem that is not in 
equilibrium, and the dynamic nature of the changes are difficult to 
predict. For example, predation on the zebra mussel by the round goby 
may lead to control of the zebra mussel population and reverse some of 
the adverse effects of the zebra mussel. This means that it will be 
difficult to understand sufficiently the ecosystem in order to develop 
an appropriate course of action. Considerably more study on nutrient 
cycling and on the dynamic nature of the ecosystem will be required.

Current Research
    My research grant on the ``Trophic Status of Lake Erie'' is an 
initial investigation to begin to develop and understanding of the 
complex interactions in this highly dynamic ecosystem. Because of the 
complex nature of the problem, we designed a research project that was 
substantially more comprehensive than the usual single investigator 
project. The project includes 27 principal investigators from 18 
institutions. The project is primarily field-based to collect samples 
and data using EPA's RV Lake Guardian and the Canadian Coast Guard 
Vessel Limnos. The sampling effort includes the measurement of water-
related attributes, sediment-related attributes, a zoobenthic inventory 
and includes studies to derive and extrapolate energy processing and 
nutrient transfer from zoobenthos though round gobies, and to quantify 
particle transport processes and nutrient sources among compartments.
    Specific objectives include the following:
    1) Estimate the historical frequency and extent of episodic anoxia 
in the bottom waters of the central basin by interpreting geochemical 
markers (stable isotopes, chemical species of trace materials, ostacode 
fragments), and other indicators of environmental change derived from 
sediment cores;
    2) A simulated reconstruction of the areal extent, volume, 
duration, and oxygen depletion of the central basin bottom waters 
through the 1990's;
    3) A lakewide quantitative assessment of dominant zoobenthos 
populations and distributions, especially dreissenids, oligochaete 
worms, chironomids, burrowing mayflies, and amphipods;
    4) An evaluation of the accuracy and utility of remote-sense 
technology (side-scan sonar, ROV, videography) in analyzing sediment 
composition and dreissenid distribution;
    5) A bioenergetic model of benthic energy and nutrient transfer 
through benthivorous round gobies;
    6) Estimates of sediment-water boundary exchanges through 
sublittoral and profundal measurements of sediment oxygen demand, 
benthic primary production, solute and particle advection induced by 
physical processes, and bioturbation, and sedimentation rates;
    7) Estimates of vertical distribution of nutrients, oxygen, 
phytopigments and particulate matter;
    8) Estimates of epilimnetic and hypolimnetic primary production, 
respiratory demand, and cycling efficiency using both established and 
novel approaches;
    9) Determination of factors and cofactors (nutrients, trace metals) 
limiting primary production;
    10) Determination of lake-wide phosphorus loading, among-basin 
transport, and net export;
    11) An improved conceptual model of nutrient dynamics that better 
explains trends in nutrient behavior, primary production, and 
hypolimnetic oxygen depletion than currently used models.
    The field sampling is continuing throughout the summer. To date, 
sampling trips aboard the RV Lake Guardian occurred in June and July. 
Since the research efforts have been focussed on data collection, no 
attempt has been made yet to fully coordinate the data and/or interpret 
it. However, there have already been some unusual observations. Some of 
these key, but preliminary findings to date include the following:

    <bullet>  Anecdotal observations suggest that most of the dressenid 
mussels were quagga mussels and not zebra mussels and they were mostly 
dead or in poor condition. A quantitative lake-wide survey is planned 
for the August cruise. Predation on mussels by another non-indigenous 
specie, the round goby, may be controlling the dressenid population. 
Part of this study seeks to evaluate that hypothesis.
    <bullet>  A lot of green algae (Spirogyra) were found on the bottom 
of the lake in the nearshore eastern basin. This is similar to what was 
found in Saginaw Bay the year after zebra mussels were reported to have 
cleared the water column. Benthic algal production is probably the 
result of deeper light penetration and will produce oxygen. It is not 
known how the amounts of oxygen produced by benthic production compares 
with oxygen consumed by respiration of bottom algae.
    <bullet>  Detroit Water and Sewerage Department (DWSD) loads to the 
Detroit River from its main outfall were estimated to be 512 MTA in 
2001. Along with the 2000 load (517 MTA), this load represents the 
minimum ever reported and is due to continued effluent flow rates of 
less than 700 million gallons per day (annual average) and declining 
weighted average phosphorus concentrations. These loads do not include 
CSOs or bypasses.
    <bullet>  There is no evidence for iron limitation of phytoplankton 
growth in the western or central basins.
    <bullet>  Phosphorus deficiency was assessed by alkaline 
phosphatase activities in the central and eastern basins. Higher 
activities were found in the bottom waters which, along with high 
concentrations of chlorophyll suggest that there is primary production 
occurring in the bottom water.
    <bullet>  Subjective evaluation of benthic invertebrate populations 
suggests that densities of mayfly larvae in the western basin are 
somewhat lower than the previous 2-3 years. Also of interest is the 
finding of empty shells of the Asian clam Corbicula, another non-
indigenous specie, on beaches at 3 locations around the basin.
    <bullet>  Measurements of sediment oxygen demand indicate that 
current rates are near normal for the past decade, with oxygen removal 
from the bottom water at a rate of about 0.1 ppm/day. However, the data 
are variable throughout the lake, with higher demands in the central 
basin than in the western basin and higher demands in shallower water 
sites than most deeper water sites.

                               __________
   Statement of Jeffrey M. Reutter, Director, Ohio Sea Grant College 
                                Program,

    F.T. Stone Laboratory, Center for Lake Erie Area Research (CLEAR), 
and Great Lakes Aquatic Ecosystem Research Consortium, the Ohio State 
University

        ``THE DEAD ZONE IN LAKE ERIE: PAST, PRESENT AND FUTURE''

    My name is Jeffrey M. Reutter. I have been doing research on Lake 
Erie, studying this wonderful resource, and teaching about it since 
1971. I am the Director of the Ohio Sea Grant College Program (part of 
NOAA), the F.T. Stone Laboratory (the oldest freshwater biological 
field station in the country), the Center for Lake Erie Area Research 
(CLEAR), and the Great Lakes Aquatic Ecosystem Research Consortium 
(GLAERC). I have held these positions since 1987. I am here today to 
speak to you about the area of anoxia in the middle of Lake Erie, the 
so-called ``Dead Zone.'' To do this I need to tell you a little about 
all of the Great Lakes, how Lake Erie differs from the other Great 
Lakes, and a little basic limnology so you can understand the problem.
    But first, while this is a very complex issue, the take-home 
message from my testimony is simple. Due in part to changes brought 
about by invading species, zebra and quagga mussels, I am concerned 
that we are seeing indications that Lake Erie is heading back to the 
conditions of the ``dead lake'' years in the 1960's and early 70's. We 
must determine if that assessment is accurate, and if accurate, we must 
identify corrective actions and take them. Finally, we must recognize 
that Lake Erie may be a model for many other bodies of water in this 
country, and we must transfer the knowledge we gain from this lake to 
prevent the same thing from occurring in other locations in this 
country.
    The Great Lakes hold 20 percent of all the freshwater in the world 
and 95 percent of the freshwater in the United States. The US shoreline 
of the lakes is longer than the Atlantic Coast, Gulf Coast and Pacific 
Coast, if we leave out Alaska. Approximately 30 percent of the US 
population lives around these lakes.
    Lake Erie is the southernmost and shallowest of the Great Lakes. As 
a result, it is also the warmest. It also provides drinking water to 11 
million people each day. The other Great Lakes are all in excess of 750 
feet deep, and Lake Superior is 1,333 feet deep. The deepest point of 
Lake Erie is 212 feet in the eastern basin, off Long Point. As a 
result, Lake Erie is the smallest of the lakes by volume, and Lake 
Superior is 20 times larger than Lake Erie. The watersheds around the 
other four Great Lakes are all dominated by forest ecosystems. The 
watershed around Lake Erie is the home to 14 million people and is 
dominated by an agricultural and urban ecosystem. As a result Lake Erie 
receives more sediment and more nutrients than the other Great Lakes. 
Now, if Lake Erie is the southernmost, shallowest, warmest, and most 
nutrient enriched of the Lakes, we should expect it to be the most 
productive of the Great Lakes. It is. In fact, we often produce more 
fish for human consumption from Lake Erie than from the other four 
lakes combined.
    Lake Erie has gone from being the poster child for pollution 
problems in this country to being one of the best examples in the world 
of ecosystem recovery. A little over 30 years ago, 1969, the Cuyahoga 
River burned and Lake Erie was labeled a dead lake. Nothing could have 
been further from the truth. In reality the Lake was too alive. We had 
put too many nutrients into the Lake from sewage and agricultural 
runoff. These nutrients had allowed too much algae to grow, and that 
algae, when it died and sank to the bottom, had used up the dissolved 
oxygen in the water as the algae was decomposed by bacteria. This 
sequence is a natural aging process in lakes called eutrophication, but 
man had accelerated the process by 300 years by putting in too much 
phosphorus. It is very similar to what we are seeing today in the Gulf 
of Mexico, but the problem in salt water is nitrogen.
    Scientists divide the Lake into three basins based on significant 
differences in shape and depth. The western basin is the area west of 
Sandusky and has an average depth on only 24 feet. The eastern basin is 
the area east of Erie, Pennsylvania and contains the deepest point in 
the Lake. The western and eastern basins have irregular bottoms with a 
lot of variation in depth. The central basin is the large area between 
Sandusky and Erie. The average depth of this basin is between 60 and 80 
feet and the bottom is very flat. Unfortunately, it is this shape that 
causes this basin to be the home of the Dead Zones.
    Many of you have probably experienced swimming in a pond and 
noticed that the deep water was much colder than the surface water. 
This layering with warm water on top because it is less dense and 
lighter, and cold water on the bottom because it is heavier, is very 
common in the Great Lakes. The warm surface layer is called the 
epilimnion. The cold bottom layer is called the hypolimnion. The line 
of rapid temperature change between the layers is called the 
thermocline. In Lake Erie, these layers form in the late spring and 
break up in the fall when the surface layer cools to the temperature of 
the bottom layer--normally around September or October.
    In Lake Erie, the thermocline usually forms around 45-55 feet. 
Based on the depths of the three basins, this means the western basin 
is too shallow to have a thermocline except on rare occasions, the 
eastern basin will have a thermocline and there will be a lot of water 
below it in the cold hypolimnion, and the central basin will have a 
thermocline but there will be a very thin layer of cold water under it 
in the hypolimnion.
    At the time the thermocline forms, there is plenty of dissolved 
oxygen in the hypolimnion. However, due to its depth, there is often no 
way to add oxygen to the water in the hypolimnion until the thermocline 
disappears in the fall. Therefore, throughout the summer the oxygen 
that was present when the thermocline formed is used by organisms 
living in this area, including bacteria, which are decomposing algae as 
it dies and sinks to the bottom. If large amounts of algae are dieing 
and sinking, then large amounts of oxygen will be required for the 
decomposition process. It should then seem logical that if we could 
reduce the amount of algae, we could reduce the amount of oxygen that 
would be required to decompose the algae.
    Because the western basin seldom has a thermocline, this is not a 
problem there. And, because the eastern basin is so deep, there is a 
large reservoir of oxygen in the hypolimnion--enough to last through 
the summer until the thermocline disappears in the fall. The central 
basin, however, does not have a large reservoir of water or oxygen in 
the hypolimnion because the basin is not deep enough. As a result, loss 
of all the oxygen, or anoxia, can be a serious problem in the bottom 
waters of the central basin. Areas of anoxia were first observed as 
early as 1930, and by the 1960's and 1970's, as much as 90 percent or 
the hypolimnion in the central basin was becoming anoxic each year. 
This is why Lake Erie was labeled a ``dead lake.'' When an area becomes 
anoxic, nothing but anaerobic bacteria can live there. Also, this water 
creates severe taste and odor problems if it is drawn in by water 
treatment plants servicing the population surrounding the Lake.
    To reduce the amount of algae in the Lake, we needed to reduce the 
amount of the limiting nutrient. By ``limiting nutrient,'' I mean the 
essential nutrient that is in the shortest supply. Without this 
nutrient algae cannot grow and reproduce. In freshwater this nutrient 
is phosphorus. In 1969, we were loading about 29,000 metric tons of 
phosphorus into Lake Erie each year. Our models told us that in order 
to keep dissolved oxygen in the central basin, we needed to reduce the 
annual loading of phosphorus to 11,000 metric tons. This was 
accomplished and the recovery of the Lake has been truly remarkable. 
The walleye harvest from the Ohio waters jumped from 112,000 in 1976 to 
5 million in 1988 and the value of this fishery exceeds the value of 
the lobster fishery in the Gulf of Maine. Small businesses associated 
with charter fishing increased from 34 in 1975 to about 900 today, and 
Lake Erie became the ``Walleye Capital of the World.''
    Then on 15 October 1988, we documented the first zebra mussel in 
Lake Erie. Recognizing the significance of this discovery, Ohio Sea 
Grant initiated a research project on 15 November to document the 
expansion of the mussels. One year later, the densities in the western 
basin had reached 30,000 per square meter. Their impact was so great 
that in 1993 I addressed the International Joint Commission and asked 
them to create a special task force to try to understand the huge 
changes that were occurring in Lake Erie. I was asked to be US Co-Chair 
of the Lake Erie Task Force for the International Joint Commission from 
1994-1997 as we developed models to better understand the impact of the 
zebra mussel on the ecosystem of the Lake.
    In 1998 I formed the Phosphorus Group, a group of about 50 
scientists from the US and Canada to discuss phosphorus levels to 
determine if they might have gotten too low and were harming the 
fishery--at that point the walleye fishery had been reduced by about 60 
percent and the smelt population had been decimated. This group 
concluded that based on changes in the system caused by zebra mussels, 
adding more phosphorus would create more zebra mussels and more 
inedible, blue-green algae.
    At the end of 1998, Drs. Jan Ciborowski (University of Windsor), 
Murray Charlton (National Water Research Institute of Canada), Russ 
Kreis (US EPA) and I formed the Lake Erie at the Millennium Program to 
continue to lead discussions and focus attention on the huge changes 
that were occurring in Lake Erie. We have documented a number of new 
invaders to the Lake, including the round goby, and have observed the 
gradual transition from zebra mussels to quagga mussels.
    In the mid-1990's, US EPA's Great Lakes National Program Office 
(GLNPO) observed an increase in phosphorus levels in Lake Erie and the 
increasing trend has continued. They also observed areas of anoxia in 
the central basin that showed indications of growth. In 1996 we 
observed a bloom of blue-green algae in the western basin--an 
indication that phosphorus levels were high. In 2001 we saw more 
indications that dissolved oxygen levels were critically low, and we 
observed that mayfly larvae had been eradicated from several regions--a 
clear indication that oxygen had been eliminated. We also observed 
reduced water transparency over the artificial reefs we had worked with 
the city of Cleveland to produce from old Brown's Stadium--another 
indication of an anoxic hypolimnion.
    The above information was shared with the GLNPO and they asked me 
to bring together a group of Lake Erie experts for a meeting in their 
Chicago offices on 13 December 2001 to discuss the problems we were 
observing in Lake Erie and strategize about solutions. As a result of 
this meeting, GLNPO issued a call for research proposals in January 
2002 and they are currently funding a one-year project lead by Dr. 
Gerry Matisoff, Case Western Reserve University, and the four 
scientists mentioned above from the Millennium Program, to attempt to 
better understand the dissolved oxygen problem in Lake Erie.
    We believe the oxygen problem is real and that it is growing. We 
believe it is caused by excess phosphorus, but we also believe zebra 
mussels and quagga mussels are having an impact because they appear to 
alter the way phosphorus cycles through the system. I also wish we had 
better loading estimates for phosphorus, because it is possible that 
loads are increasing.
    Finally, I must mention global warming and climate change because 
that is also exacerbating the dead zone problem in Lake Erie. When I 
first started working on this lake, water levels were increasing and we 
often said, ``dilution is the solution to water pollution.'' This is no 
longer the case. Since 1997 the water level has gone down by 3-4 feet. 
We are currently near the long-term average water level for Lake Erie, 
but we are lower than we have been for over 30 years. This is important 
because this reduction comes primarily from the hypolimnion (the cold 
bottom layer). Therefore, as the water level goes down, the volume or 
thickness of the hypolimnion is reduced, the oxygen reservoir in the 
hypolimnion is reduced, and, as a result, the area of anoxia will 
increase and last longer each year. This will hurt fish populations, 
the charter and commercial fisheries (Lake Erie supports the largest 
freshwater commercial fishery in the world), our boating and tourism 
industries, and public health.
    As for my predictions for this year, I hope I am wrong, but I fear 
that this could be a very bad year. We had a very wet spring. This 
means we probably received large loadings of phosphorus from 
agricultural runoff and from sewage treatment plants--many of our 
systems still have combined storm and sanitary sewers allowing 
untreated sewage and the nutrients it carries to enter the Lake every 
time we have a storm. Water levels have remained very low so the 
hypolimnion will not have a large reservoir of oxygen. Together these 
things mean we could experience a very large dead zone.
    We need your support to rapidly do the necessary research to 
confirm our beliefs about this situation. The current GLNPO study 
should be expanded and continued for at least two more years. We also 
need to accurately measure phosphorus loading to all of the Great Lakes 
on a continuing basis. We need research to determine how best to reduce 
phosphorus loading. We need to prevent future introductions of aquatic 
nuisance species. We need to determine if there is a link between the 
dead zone and the botulism problems we are observing in the eastern 
basin. We need to do the best we can to solve these problems with our 
current technologies, but we also need support for research on new 
technologies to: address the oxygen problem, control zebra mussels and 
other aquatic nuisance species, remove nutrients at sewage treatment 
plants, reduce agricultural runoff, etc.
    I believe Lake Erie is the sentinel and we should develop models to 
extrapolate our results to other bodies of water that contain mussels 
so they can be prepared for the problem and take preventative action 
before it occurs.

                                 ______
                                 
 Responses of Jeffrey M. Reutter to Additional Questions from Senator 
                               Voinovich

    Question 1. Dr. Reutter, how is the round goby impacting Lake Erie?
    Response. The round goby invaded Lake Erie in the early 1990's. 
Whereas zebra mussels expanded primarily from west to east, gobies did 
the opposite. By the mid-1990's, gobies were the most abundant 
nearshore, bottom fish in northeastern Ohio (numbers in the range of 
20/square meter were not uncommon), whereas they were rare in 1996 in 
the island region of the western basin. By the early 2000's, densities 
of gobies on the western basin Reefs ranged up to 50/square meter.
    In the central and eastern basins of the Lake they appear to be 
forcing the native mottled sculpin (a small fish) out.
    Round gobies are eating zebra and quagga mussels. This sounds good, 
but there is a serious problem. Zebra mussels have a fat content 10 
times the level of native clams. This allows them to concentrate 
(bioaccumulate) fat-soluble contaminants like PCBs at 10 times the 
level of native clams. They pass this contaminant burden on to the 
round gobies when they are eaten. Round gobies are in turn eaten by 
smallmouth bass, a prized sport species, and they pass the contaminant 
burden on to the bass when they are eaten. Thus, we have a new pathway 
to adversely impact human health by increasing exposure to toxic 
substances. All of these contaminant transfers have been identified and 
confirmed by research we have supported.
    Round gobies do not have an air bladder. Therefore, when they stop 
swimming they sink to the bottom. Consequently, their normal habitat 
has them resting on the bottom and feeding in that location. They like 
to eat fish eggs. Research supported by Ohio Sea Grant and the Ohio 
Division of Wildlife has confirmed that they do invade smallmouth bass 
nests and steal the eggs when the bass parents are removed from, or 
vacate, the nests for even very short periods of time. This may 
adversely impact bass populations.
    Finally, round gobies are a real nuisance to the sport fishing 
community, as they steal bait and are difficult to keep off the line 
when the angler is targeting other species.

    Question 2. Dr. Reutter, what can be done to more accurately 
monitor and measure phosphorus loading into the Great Lakes?
    Response. This is a great question and an important issue for at 
this point our estimates of phosphorus loading are not accurate enough. 
They must be improved if we decide that phosphorus loads require 
further reductions. A number of new programs (the buffer initiative, 
for example) have been initiated in the past few years, but the impact 
of these programs is seldom, if ever, measured.
    Clearly, phosphorus levels have increased since 1995. We believe 
that zebra and quagga mussels are playing a role in that increase. This 
recycling of nutrients within the system is extremely important. 
Research and monitoring is needed to measure this recycling in addition 
to the standard external loading.
    In the 1970's we had pretty good estimates of phosphorus loading, 
but it required cooperation between the States, provinces, and the 
Federal Government to get the estimates. I believe many people felt 
that this old phosphorus problem was solved, so over the years the 
commitment on the part of all involved waned--States and provinces 
chose to put their resources in other areas.
    To re-establish the monitoring network, I would suggest the 
establishment of a Nutrient Loading Task Force within the International 
Joint Commission with representation from US EPA and Environment 
Canada. The Task Force would be charged to rapidly assess the accuracy 
of our current loading estimates and to make recommendations to the 
governments on how to increase the accuracy.
    While it is very important for us to be able to accurately measure 
phosphorus loading, we will need to review and extensively modify our 
old phosphorus models. Now that we have zebra and quagga mussels, it is 
likely that our old phosphorus models no longer work. Therefore, the 
old target for allowable phosphorus loading (11,000 metric tons per 
year) may no longer be accurate.

    Question 3. Dr. Reutter, what efforts are underway to prevent the 
introduction of aquatic nuisance species into the Great Lakes? What 
more can be done to protect the Great Lakes from future introductions 
of aquatic nuisance species?
    Response. The first ANS act was passed in 1990. Since then we have 
averaged about one new invader each year. Therefore, we have not closed 
the door. A new act is currently being developed. However, no existing 
technology is 100 percent effective. Therefore, we need additional 
support for research to develop new and better technologies. A current 
technology that is 99 percent effective, could still be allowing 
millions of viruses or bacteria to enter the lakes from one vessel. We 
clearly need a technology that is 100 percent effective. Without such a 
technology, we must either greatly reduce shipping and or shipping 
volumes by eliminating any discharge of ballast water, or we must 
accept the continued risk of ANS introductions and continue to try to 
minimize that risk.

    Question 4. Dr. Reutter, given all the Federal, State, local, 
international, and non-profit entities involved in research and efforts 
to restore and protect the Great Lakes, how can all these efforts be 
better coordinated and funding sources be stretched farther?
    Response. I have to admit that there are times I wish we could 
throw out all of the current organizations and start over--not likely 
to happen. We are most likely to continue with a wide variety of 
somewhat overlapping agencies. While this can be quite confusing, 
particularly to someone unfamiliar with the system, regional efforts to 
communicate and collaborate are quite effective. In Lake Erie, I can 
assure you that there is no duplication of effort.
    Addressing the ``dead zone'' issue--developing a plan to solve it 
and implementing the plan--will take significantly increased funding. I 
hope the Federal Government can provide that money. With regard to 
where it should go, I strongly recommend US EPA and Ohio Sea Grant 
(through NOAA). I make this recommendation because these are the only 
two organizations (other than the Lake Erie Protection Fund) that have 
been funding research on this critical issue and these are the two 
groups with the most expertise and capabilities to address the problem. 
I am also confident that dollars invested in these groups will actually 
reach the problem (I can guarantee it for Ohio Sea Grant). US EPA and 
Ohio Sea Grant recognized this problem early, are familiar with it, and 
have collaborated and cooperated on projects to address it. 
Furthermore, both groups use a peer review strategy to be sure that 
only the best research and monitoring efforts are funded.

                                 <all>

</pre></body></html>
